No. ______

In the

Supreme Court of the United States
JIAHAO KUANG, ET AL.,
V.

Petitioners,

U.S. DEPARTMENT OF DEFENSE, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
PETER A. WALD
LATHAM & WATKINS LLP
505 Montgomery Street
Suite 2000
San Francisco, CA 94111

MELISSA ARBUS SHERRY
Counsel of Record
RILEY T. KEENAN
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
melissa.sherry@lw.com

JENNIFER L. PASQUARELLA
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West 8th Street
Los Angeles, CA 90017
ERIC R. SWIBEL
MALORIE MEDELLIN
DAVID D. COLE
CARMEL I. DOOLING
ACLU FOUNDATION
LATHAM & WATKINS LLP
915 15th St., NW
330 N. Wabash Avenue
Washington, DC 20005
Suite 2800
Chicago, IL 60611
Counsel for Petitioners

i
QUESTIONS PRESENTED
On October 13, 2017, the U.S. Department of
Defense departed from its longstanding practice and
adopted a new policy requiring U.S. lawful permanent
residents who enlist in the military—but not U.S.
citizens—to await the results of certain background
checks before beginning basic training. Petitioners
challenged that policy under the Administrative
Procedure Act, and the district court granted a
preliminary injunction. The Ninth Circuit reversed—
not on the merits, but because it concluded that the
Department of Defense’s policy was immune from
judicial review. The Ninth Circuit did not rely on any
constitutional or statutory provision limiting such
review. Instead, the panel applied a judge-made test
adopted in Mindes v. Seamen, to determine “when
internal military affairs should [and should not] be
subjected to court review.” 453 F.2d 197, 199 (5th Cir.
1971).
The questions presented are:
1. Whether courts can evade their constitutional
and statutory duty to review military decisions under
the so-called “Mindes test,” or whether claims seeking
injunctive relief against the military are reviewable
so long as they do not present a nonjusticiable
political question or otherwise fall outside the court’s
subject-matter jurisdiction.
2. Whether a DoD policy that requires all legal
permanent resident enlistees—but not their U.S.citizen counterparts—to suffer unjustified delays
before beginning their military careers is judicially
reviewable.

ii
PARTIES TO THE PROCEEDINGS
Petitioners are named plaintiffs Jiahao Kuang
and Deron Cooke, and a class of legal permanent
residents who have signed enlistment contracts with
the military but have not been permitted to begin
initial entry training because of the Department of
Defense’s October 13, 2017 policy. See App. 15a-16a,
19a. Respondents are the United States Department
of Defense and Mark Esper, in his official capacity as
the Acting Secretary of Defense. Secretary Esper has
been automatically substituted as a party to these
proceedings pursuant to this Court’s Rule 35(3).
LIST OF RELATED PROCEEDINGS
Pursuant to Supreme Court Rule 14.1(b)(iii),
petitioners state that there are no proceedings
directly related to this case in this Court.

iii
TABLE OF CONTENTS

Page

QUESTIONS PRESENTED .......................................i
PARTIES TO THE PROCEEDINGS ....................... ii
LIST OF RELATED PROCEEDINGS ..................... ii
TABLE OF AUTHORITIES ..................................... vi
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY AND REGULATORY
PROVISIONS ..................................................... 1
INTRODUCTION ...................................................... 2
STATEMENT OF THE CASE ................................... 4
REASONS FOR GRANTING THE PETITION ...... 11
I.

II.

This Court Should Grant Review To
Consider The Viability Of The “Mindes
Test” Of Justiciability ...................................... 12
A.

The Courts Of Appeals Are Deeply
Conflicted About The Mindes Test .......... 14

B.

Mindes Conflicts With This Court’s
Precedents ................................................ 21

C.

This Case Presents An Ideal Vehicle ...... 27

DoD’s Irrational, Facially Discriminatory
Accession Policy Is Reviewable ....................... 29

CONCLUSION ......................................................... 35

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX
Opinion of the United States Court of Appeals
for the Ninth Circuit, Jiahao Kuang v.
United States Department of Defense, 778
F. App’x 418 (9th Cir. 2019) ...............................1a
Opinion of the United States District Court for
the Northern District of California, Jiahao
Kuang v. United States Department of
Defense, 340 F. Supp. 3d 873 (N.D. Cal.
2018) ....................................................................6a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Motion to Stay
District Court’s November 16, 2018 Order,
Jiahao Kuang, et al. v. United States
Department of Defense, et al., No. 18-17381
(9th Cir. Feb. 1, 2018), ECF No. 21..................88a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc, Jiahao Kuang v.
United States Department of Defense, No.
18-17381 (9th Cir. Nov. 1, 2019), ECF No.
57 .......................................................................91a
5 U.S.C. § 701(b)(1)(G) ............................................93a
5 U.S.C. § 706(2)(A) .................................................94a
8 U.S.C. § 1439(a)....................................................95a
8 U.S.C. § 1440(a)....................................................96a
8 U.S.C. § 1446 ........................................................98a
10 U.S.C. § 504(b)..................................................101a
32 C.F.R. § 66.6(b)(8)(vi) .......................................103a

v
TABLE OF CONTENTS—Continued
Page
Memorandum for Secretaries of the Military
Departments Commandant of the Coast
Guard Director, Department of Defense
Consolidated Adjudications Facility from
the Office of the Under Secretary of
Defense regarding Military Service
Suitability Determinations for Foreign
Nationals Who Are Lawful Permanent
Residents, dated Oct. 13, 2017 (ECF No.
57) ....................................................................104a
Memorandum for Chief Management Officer of
the Department of Defense et al. from the
Office of the Secretary of Defense, with
Attachments 1-3, dated July 30, 2019 (ECF
No. 115-1) ........................................................107a

vi
TABLE OF AUTHORITIES
Page(s)
CASES
Aikens v. Ingram,
811 F.3d 643 (4th Cir. 2016)................................17
Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics,
403 U.S. 388 (1971) ..............................................23
Brown v. Glines,
444 U.S. 348 (1980) .................................. 24, 30, 34
Chappell v. Wallace,
462 U.S. 296 (1983) ..............................................23
Costner v. Oklahoma Army National
Guard,
833 F.2d 905 (10th Cir. 1987)..............................15
Daniel v. United States,
139 S. Ct. 1713 (2019)..........................................23
Daugherty v. United States,
73 F. App’x 326 (10th Cir. 2003) .........................15
Dillard v. Brown,
652 F.2d 316 (3d Cir. 1981) ......................... passim
Doe v. Garrett,
903 F.2d 1455 (11th Cir. 1990), cert.
denied, 499 U.S. 904 (1991) .................................18
Feres v. United States,
340 U.S. 135 (1950) .................................. 23, 24, 29

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Frontiero v. Richardson,
411 U.S. 677 (1973) ........................................24, 30
Gilligan v. Morgan,
413 U.S. 1 (1973) .......................................... passim
Glines v. Wade,
586 F.2d 675 (9th Cir. 1978), rev’d sub
nom. Brown v. Glines, 444 U.S. 348
(1980) ....................................................................15
Goldman v. Weinberger,
475 U.S. 503 (1986) ........................................24, 30
Harkness v. Secretary of the Navy,
858 F.3d 437 (6th Cir. 2017), cert.
denied, 138 S. Ct. 2648 (2018) .............................18
Hernandez-Ortiz v. Diaz-Colon,
No. 97-1964, 1998 WL 27139 (1st Cir.
Jan. 23, 1998) .......................................................17
Khalsa v. Weinberger,
779 F.2d 1393 (9th Cir. 1985), as
amended (1986) ........................................ 16, 26, 27
Knutson v. Wisconsin Air National Guard,
995 F.2d 765 (7th Cir. 1993)..........................20, 27
Korematsu v. United States,
323 U.S. 214 (1944) ..............................................30
Kreis v. Secretary of the Air Force,
866 F.2d 1508 (D.C. Cir. 1989) .......... 19, 20, 27, 32

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Lexmark International, Inc. v. Static
Control Components, Inc.,
572 U.S. 118 (2014) .................................. 25, 26, 27
Lindenau v. Alexander,
663 F.2d 68 (10th Cir. 1981)................................15
Meister v. Texas Adjutant General’s
Department,
233 F.3d 332 (5th Cir. 2000)................................15
Mindes v. Seamen,
453 F.2d 197 (5th Cir. 1971)............ 2, 7, 12, 13, 26
Motor Vehicle Manufacturers Association v.
State Farm Mutual Automobile
Insurance Co.,
463 U.S. 29 (1983) ................................................32
Nieszner v. Mark,
684 F.2d 562 (8th Cir. 1982)................................16
Orloff v. Willoughby,
345 U.S. 83 (1953) ........................ 19, 21, 22, 24, 29
Parker v. Levy,
417 U.S. 733 (1974) ..............................................24
Penagaricano v. Llenza,
747 F.2d 55 (1st Cir. 1984) ..................................16
Roe v. Department of Defense,
947 F.3d 207 (4th Cir. 2020)................................17

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Rostker v. Goldberg,
453 U.S. 57 (1981) .................................... 24, 30, 33
Schlanger v. United States,
586 F.2d 667 (9th Cir. 1978), cert.
denied, 441 U.S. 943 (1979) .................................15
Schlesinger v. Ballard,
419 U.S. 498 (1975) ..............................................30
Service Women’s Action Network v. Mattis,
320 F. Supp. 3d 1082 (N.D. Cal. 2018)................30
Speigner v. Alexander,
248 F.3d 1292 (11th Cir.), cert. denied,
534 U.S. 2056 (2001) ............................................18
Sprint Communications, Inc. v. Jacobs,
571 U.S. 69 (2013) ................................................25
Susan B. Anthony List v. Driehaus,
573 U.S. 149 (2014) ..............................................26
United States v. Johnson,
481 U.S. 681 (1987) ..............................................24
United States v. Munsingwear, Inc.,
340 U.S. 36 (1950) ................................................28
United States v. Stanley,
483 U.S. 669 (1987) .................................. 23, 24, 29
United States v. Virginia,
518 U.S. 515 (1996) ..............................................30

x
TABLE OF AUTHORITIES—Continued
Page(s)
Walch v. Adjutant General’s Department of
Texas,
533 F.3d 289, 302 (5th Cir. 2008) ........................15
Wallace v. Chappell,
661 F.2d 729 (9th Cir. 1981), rev’d on
other grounds, 462 U.S. 296 (1983) .................7, 15
Watson v. Arkansas National Guard,
886 F.2d 1004 (8th Cir. 1989)..............................16
Weiss v. United States,
510 U.S. 163 (1994) ..............................................24
West v. Brown,
558 F.2d 757 (5th Cir. 1977)................................14
Williams v. Wilson,
762 F.2d 357 (4th Cir. 1985)................................17
Winck v. England,
327 F.3d 1296 (11th Cir. 2003)......................17, 18
Wright v. Park,
5 F.3d 586 (1st Cir. 1993) ....................................17
STATUTES AND REGULATIONS
5 U.S.C. § 701(b)(1)(G) ..............................................27
5 U.S.C. § 706(1)..........................................................6
5 U.S.C. § 706(2)(A) .....................................................6

xi
TABLE OF AUTHORITIES—Continued
Page(s)
8 U.S.C. § 1439(a)........................................................4
8 U.S.C. § 1440(a)........................................................4
8 U.S.C. § 1446 ..........................................................31
10 U.S.C. § 504(b)(1)(B) ..............................................4
10 U.S.C. § 504(b)(2)(A) ..............................................4
10 U.S.C. § 504(b)(3)(A) ..............................................4
28 U.S.C. § 1254(1)......................................................1
28 U.S.C. § 2674 ........................................................23
50 U.S.C. App. § 454(i)(1)(A) (1952) .........................22
32 C.F.R. § 66.6(b)(8)(vi) .............................................4
32 C.F.R. § 66.6(b)(8)(vi)(A) ........................................5
OTHER AUTHORITIES
Form SF-86, Questionnaire for National
Security Positions (rev. Dec. 2010),
https://www.opm.gov/forms/pdf_fill/sf86non508.pdf ............................................................10
Darlene C. Goring, In Service to America:
Naturalization of Undocumented Alien
Veterans, 31 Seton Hall L. Rev. 400
(2000) ......................................................................4

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Zachary R. New, Ending Citizenship for
Service in the Forever Wars, 129 Yale
L.J. Forum 552 (2020) ...........................................4

1
PETITION FOR A WRIT OF CERTIORARI
Named plaintiffs Jiahao Kuang and Deron Cooke
and the represented class respectfully petition this
Court for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Ninth
Circuit in this case.
OPINIONS BELOW
The decision of the court of appeals (App. 1a-5a) is
unreported but available at 778 F. App’x 418. The
order of the court of appeals denying DoD’s motion for
an emergency stay pending appeal (App. 88a-90a) is
unreported. The order of the court of appeals denying
rehearing en banc (App. 91a-92a) is unreported. The
district court’s order granting class certification,
denying DoD’s motion to dismiss, and granting
petitioners’ motion for a preliminary injunction (App.
6a-87a) is reported at 340 F. Supp. 3d 873.
JURISDICTION
The judgment of the court of appeals was entered
on July 2, 2019. App. 1a. The court of appeals denied
rehearing en banc on November 1, 2019. App. 91a.
On January 21, 2020, Justice Kagan extended the
time within which to file a petition for a writ of
certiorari to and including March 30, 2020. This
Court’s jurisdiction is invoked under 28 U.S.C.
§ 1254(1).
STATUTORY AND REGULATORY
PROVISIONS
The relevant statutory and regulatory provisions
are reproduced in the appendix to this petition. App.
93a-103a.

2
INTRODUCTION
In 1971, the Fifth Circuit created a multi-factored,
prudential test for determining when military
decisions should be subjected to judicial review.
Mindes v. Seamen, 453 F.2d 197, 199 (5th Cir. 1971).
The so-called “Mindes test” looks to (i) the “nature and
strength” of the plaintiff’s claim, (ii) the seriousness
of the plaintiff’s injury, (iii) the “interference with the
military function” that would be considered, and
(iv) the degree of “military expertise or discretion”
involved. Id. at 201. Balancing those factors, the
court then decides whether to review the challenged
decision on the merits or dismiss the case as
nonjusticiable. The Mindes test is not grounded in
any constitutional or statutory limitation on judicial
review. It conflates the concept of justiciability with
the merits, by importing a short-circuited
consideration of the merits into the distinct, threshold
question of reviewability. And it has never been
adopted or applied by this Court.
Notwithstanding its weak doctrinal foundation,
Mindes has played an outsized role in court of appeals
decisions for nearly a half century. All but one circuit
has weighed in on whether or when to apply the
Mindes test to claims challenging military decisions,
and the 11 courts of appeals that have are badly
fractured. Some courts of appeals (like the Ninth
Circuit in this case) have adopted and applied the
Mindes test to deny judicial review. Others have
adopted the Mindes test for some claims and not
others. And others still have rejected it entirely. The
conflict is deep, entrenched, and important: whether
military decisions are subject to judicial review
should not depend on the circuit in which the case is
brought.

3
The Ninth Circuit’s decision in this case
exemplifies the problem with Mindes and provides an
ideal vehicle for this Court’s review. In a two-page
memorandum with a single sentence of explanation,
the Department of Defense (DoD) departed from its
longstanding policy of treating legal permanent
resident (LPR) enlistees the same as U.S. citizens
enlistees for purposes of accession to the military. For
decades, DoD had allowed both LPRs and U.S.
citizens to begin basic training before their
background checks were completed. Then, in 2017,
DoD abruptly reversed course and announced that
LPRs, as a class, would no longer be able to access into
military service until their background checks were
complete. Petitioners challenged this new policy as
arbitrary, class-wide discrimination in violation of the
Constitution and the Administrative Procedure Act
(APA)—and the district court found a likelihood of
success and granted a preliminary injunction. But,
applying Mindes, the Ninth Circuit refused to even
review the policy.
The application of Mindes in this case was both
wrong and outcome-determinative. But for Mindes,
petitioners would have had their day in court. This
Court’s review is needed to remind courts that they do
not have discretion to decline to review otherwise
justiciable military decisions simply as a matter of
perceived prudence.

4
STATEMENT OF THE CASE
1. Foreign nationals have served in the United
States military since the Founding.1 Congress has
codified this longstanding tradition in various
statutes dating back at least to the Civil War.2
Today’s enlistment statute—which has existed in its
present form since 1968—states that legal permanent
residents (LPRs) can enlist in “any armed force.” 10
U.S.C. § 504(b)(1)(B). It also exempts LPRs who serve
in the military from the five-year residency
requirement ordinarily needed for them to naturalize
as U.S. citizens. 8 U.S.C. §§ 1439(a), 1440(a). The
enlistment statute also authorizes DoD to enlist
foreign nationals whom the agency deems “vital to the
national interest,” under what DoD calls its Military
Accessions Vital to the National Interest (MAVNI)
program.
App. 11a-12a (quoting 10 U.S.C.
§ 504(b)(2)(A)).
But the statute treats MAVNI
recruits differently than LPRs in one important
respect: no MAVNI enlistee “may report to initial
training until after [DoD] has completed all required
background investigations . . . regarding that person.”
10 U.S.C. § 504(b)(3)(A). The statute contains no such
limitation for LPRs.
DoD performs background checks for all
enlistees—U.S. citizens, LPRs, and MAVNI enlistees.
32 C.F.R. § 66.6(b)(8)(vi). For decades, DoD allowed
U.S. citizens and LPRs alike to begin basic training
pending the results of those background checks. See
1 Zachary R. New, Ending Citizenship for Service in the
Forever Wars, 129 Yale L.J. Forum 552, 554 (2020).
2 See

Darlene C. Goring, In Service to America:
Naturalization of Undocumented Alien Veterans, 31 Seton Hall
L. Rev. 400, 408-30 (2000).

5
id. § 66.6(b)(8)(vi)(A) (providing that “[a]n applicant
may be accessed . . . provided that a [background
check] was submitted and accepted” by the
investigating agency and did not contain any
“disqualifying background information”); App. 14a15a. That is, LPRs were permitted to access into
military service on the same basis as U.S. citizens—
i.e., before completion of their background checks. Id.
On October 13, 2017, DoD abruptly changed this
practice. App. 104a. Without initiating a rulemaking
process or seeking public comment, DoD issued a new
policy (the October 13 Policy) announcing that LPRs
could no longer ship to basic training before
completion of their background checks. App. 104a06a. The new October 13 Policy applied to all LPRs,
regardless of whether they posed heightened security
risks (such as suspicious foreign contacts, particular
criminal backgrounds, or known ties to terrorist
groups). App. 104a-05a. But the new Policy did not
apply to any U.S. citizens, even if they did pose such
risks. App. 104a-06a. For the first time in the history
of LPR enlistment, DoD categorically distinguished
between U.S. citizens and LPRs as a class.
DoD’s justification for this dramatic policy shift
was brief. Its two-page memorandum did not mention
national security. Id. The memorandum did not
acknowledge that DoD was enacting a new policy that
departed from decades of DoD practice. See id. And
the memorandum did not explain why DoD was
treating LPRs differently than U.S. citizens. DoD
said only that it was now requiring background
investigations to be completed “prior to such foreign
national’s entry into [military] service,” “[i]n order to
facilitate process efficiency and the appropriate

6
sharing of information . . . for the accession of
[LPRs].” App. 104a-05a.
In the months that followed, LPR accessions
plummeted. See CA9 ECF No. 12, at Add. 79. Those
LPRs who did enlist experienced average delays of
350 days while their background checks were
pending. App. 32a. During this period, LPRs had to
defer
civilian
employment
and
educational
opportunities. See App. 16a, 83a. They were also
unable to claim expedited naturalization, a key
benefit that enticed many LPRs to enlist in the first
place. App. 83a-84a. And they lost pay and suffered
the stigma of discrimination on the basis of their
nationality. See App. 84a; ER277-79.
2. On June 21, 2018, petitioners filed suit
against DoD and the Secretary of Defense (together,
DoD) on behalf of an LPR class who had signed
enlistment contracts with the U.S. military, but had
been prevented from entering military service as a
result of the October 13 Policy. App. 17a. Petitioners
asserted claims under both the Constitution and the
Administrative Procedure Act (APA), alleging that
the October 13 Policy was arbitrary and capricious, 5
U.S.C. § 706(2)(A), and that petitioners’ accession was
being unreasonably delayed, id. § 706(1). App. 17a.
On October 19, 2018, DoD filed the administrative
record, which it certified as containing all unclassified
information that DoD had considered in adopting the
October 13 Policy. App. 18a. The 162-page record
contained only: (1) the two-page memorandum
implementing the October 13 Policy; (2) several DoD
memoranda concerning the MAVNI program; (3) a
summary of a 2017 study on “gaps” in DoD’s LPR
vetting process; (4) a memorandum concerning
certifications of service for naturalization purposes;

7
and (5) 137 pages of publicly available DoD
regulations and guidance. App. 71a-72a. DoD also
represented that it had considered classified
information in adopting the October 13 Policy but did
not include that information in the record. App. 72a74a.
On July 19, 2019, petitioners moved for a
preliminary injunction based on their arbitrary-andcapricious APA claim.
App. 17a.
Petitioners
explained that the administrative record was so
devoid of support for the October 13 Policy that
immediate relief was warranted. DoD opposed the
motion and also moved to dismiss the entire case
under the so-called “Mindes test,” which governs the
reviewability of challenges to internal military
decisions in the Ninth Circuit. See Mindes v. Seamen,
453 F.2d 197 (5th Cir. 1971); Wallace v. Chappell, 661
F.2d 729, 737-38 (9th Cir. 1981) (adopting the test),
rev’d on other grounds, 462 U.S. 296 (1983).
3. The district court denied the motion to
dismiss and entered the preliminary injunction.
On the question of reviewability, the district court
applied the Mindes test and found that petitioners’
APA and constitutional claims were subject to review.
App. 27a-36a. First, the court held that the “nature”
and “strength” of petitioners’ claims, which alleged
arbitrary discrimination against LPRs, favored
review.
App. 31a-32a.
Second, it found that
petitioners’ injuries, including damage to their
military and civilian careers and delay in their ability
to seek expedited naturalization, favored review.
App. 32a-33a. Third, the court found no interference
with military functions, because the relief petitioners
requested would not require DoD to “ignore the
national security concerns that gave rise to the

8
October 13 Memo,” since DoD could always “adopt a
policy that is justified by its purported concerns.”
App. 35a (citation omitted). And finally, because
petitioners’ challenge asked the court to evaluate
class-wide discrimination and to judge the sufficiency
of DoD’s administrative record, its resolution would
not require the court to intrude on areas of military
expertise. App. 36a.
As to petitioners’ request for preliminary
injunctive relief, the district court found all four
factors met. The court first held that petitioners were
likely to succeed on the merits of their APA claim.
The court noted that although DoD claimed it had
relied on classified information in adopting the
October 13 Policy, it had not sought to present that
information for in camera review; instead, it “simply
withheld all of the relevant facts.” App. 78a. Nor, the
court continued, did the small collection of documents
that DoD chose to produce support its decision. As
the court explained, the bulk of the administrative
record had nothing to do with the October 13 Policy or
LPRs, and the “only quasi-factual elements of the
record related to LPRs”—a summary of a 2017 study
about DoD’s own failure to investigate LPRs and a
single sentence about LPRs’ “risk factors” in a
memorandum concerning the MAVNI program—did
not support the October 13 Policy. App. 78a-81a.
The district court found that the other preliminary
injunction factors supported relief as well. The court
held that the October 13 Policy threated irreparable
injury to petitioners by damaging their careers and
delaying their eligibility for naturalization. App. 82a84a. The court also held that the balance of equities
and the public interest favored relief because DoD
had put forward no evidence to support its asserted,

9
extra-record national security concerns. App. 85a86a. Moreover, the court found that there was
“substantial, uncontradicted evidence”—including
from a former Secretary of the Army—that the
October 13 Policy actually “impairs the military’s
recruitment goals and undermines military
readiness” by delaying LPR accessions. App. 85a.
4. DoD appealed, and filed an emergency motion
to stay the district court’s injunction pending appeal.
A divided motions panel declined to grant the stay.
App. 88a-90a.
On July 2, 2019, a Ninth Circuit merits panel
(including the dissenting judge from the motions
panel) reversed, in a five-page, unpublished decision.
App. 1a-5a. The panel did not reach the merits of
petitioners’ APA claim or consider the other
preliminary injunction factors. Instead, it held that
the claim was unreviewable under the Mindes test.
First, the court of appeals concluded that the
nature of petitioners’ claim did not favor review
because it was statutory and not constitutional. App.
3a-4a (“[C]onstitutional claims ordinarily carry
greater weight than those resting on a statutory . . .
base.” (citation omitted)). The court also questioned
the strength of petitioners’ APA claim because it
believed there was some “factual” support for the
October 13 Policy. App. 4a. Second, the court held
that petitioners’ injuries were not “grave” because
petitioners “were not entitled to quick or immediate
accession on enlistment.” App. 5a. Third, the court
found there would be interference with military
functions because “military decisions about national
security and personnel,” like the October 13 Policy,
“are inherently sensitive and generally reserved to
military discretion.” Id. And fourth, the court

10
deferred to DoD’s assertion of “national security
risks” because its “expertise in this case is not
seriously in doubt” and its assertions were “not farfetched.” Id. The court accordingly vacated the
district court’s injunction and remanded the case with
instructions to dismiss petitioners’ APA claim.
5. On July 30, 2019, shortly after the Ninth
Circuit’s decision, DoD issued a memorandum
implementing a new Expedited Screening Protocol
(ESP), which temporarily supplanted the October 13
Policy. App. 107a-29a. The ESP provides “uniform
and consistent standards for a centralized process for
the screening and vetting of individuals requiring
access to DoD systems, facilities, personnel,
information, or operations, for allegiance, foreign
preference, or foreign influence concerns.” App. 108a.
Unlike the October 13 Policy, which categorically
singled out LPRs for disfavored treatment, the ESP
uses a recruit’s citizenship as only one of many
“potential risk indicators.” App. 117a. Others include
residential history, education, family information,
and foreign contacts, activities, business investments,
travel, and military service. Id.3 That is, the ESP (in
marked contrast to the October 13 Policy) grounds the
military’s assessment of national security risk in a
holistic analysis of multiple factors—applicable to
LPRs and U.S. citizens alike.
On its face, the ESP does not permanently replace
the October 13 Policy but instead holds it in abeyance.
App. 109a. And DoD has reserved the right to
“reinstate[]” the October 13 Policy if it sees fit. Id.
3 See Form SF-86, Questionnaire for National Security

Positions (rev. Dec. 2010), https://www.opm.gov/forms/pdf_fill/sf86non508.pdf.

11
DoD is currently evaluating the effectiveness of the
ESP, which is set to expire on July 30, 2020. Id.
6. Because the ESP did not purport to rescind
the October 13 Policy, petitioners filed a petition for
rehearing en banc. On November 1, 2019, the court
of appeals denied rehearing.4
REASONS FOR GRANTING THE PETITION
This petition asks the Court to consider the
viability of the so-called “Mindes test.” More than
forty years ago, the Fifth Circuit adopted a judgemade, multi-factored, prudential test to determine
whether and when a court should review military
decisions. And for more than forty years, the courts
of appeals have fractured—extensively and
intractably—over whether or to what extent to adopt
Mindes. Nearly every circuit has weighed in on this
conflict, and the divergent approaches implicate
fundamental disagreements over the judiciary’s role
in policing access to federal courts. The Ninth Circuit
is on the wrong side of the split. Mindes cannot be
squared with this Court’s case law, and its application
here to bar review of petitioners’ claim is a prime
example of its fatal flaws. This Court’s review is
warranted and this case presents an ideal vehicle for
that review.

4 On November 21, 2019, DoD filed a motion for
reconsideration of the district court’s prior denial of its motion to
dismiss petitioners’ entire complaint based on the Ninth
Circuit’s Mindes analysis. N.D. Cal. ECF No. 216. The district
court has since stayed the case, pending DoD’s review of the
ESP. N.D. Cal. ECF Nos. 129, 131.

12
I. This Court Should Grant Review To
Consider The Viability Of The “Mindes Test”
Of Justiciability
In 1971, the Fifth Circuit decided a case called
Mindes v. Seamen, 453 F.2d 197 (5th Cir. 1971). The
plaintiff, an Air Force captain, challenged his
separation from military service. Id. at 198. The
district court dismissed his complaint for lack of
jurisdiction, but the Fifth Circuit reversed, finding
that plaintiff had raised a non-frivolous federal
question. Id. To guide the district court on remand,
the Fifth Circuit undertook a “somewhat detailed
analysis of when internal military affairs should be
subjected to court review.” Id. In so doing, the court
of appeals crafted a “judicial policy akin to comity,”
which in that court’s view balanced the need to
protect service members with “the proper concern
that [judicial] review might stultify the military in the
performance of its vital mission.” Id.
Mindes prescribes a two-part test for assessing the
reviewability of a claim involving “internal military
affairs.” Id. at 199. At the first step, the court asks
whether the plaintiff: (1) has alleged “the deprivation
of a constitutional right” or a “violation of applicable
statutes or . . . regulations”; and (2) has exhausted
“available intra-service corrective measures.” Id. at
201. If both criteria are satisfied, the court then
weighs four factors: (1) “[t]he nature and strength of
the
plaintiff's
challenge
to
the
military
determination”; (2) “[t]he potential injury to the
plaintiff if review is refused”; (3) “[t]he type and
degree of anticipated interference with the military
function”; and (4) “[t]he extent to which the exercise
of military expertise or discretion is involved.” Id.

13
The first factor favors review if the issues at stake
rank high on the “whole scale of values—compare
haircut regulation questions to those arising in courtmartial situations which raise issues of personal
liberty.” Id. at 201. “Constitutional claims [are]
normally”—but not always—“more important than
those having only a statutory or regulatory base.” Id.
And “[a]n obviously tenuous claim of any sort must be
weighted in favor of declining review.” Id. The second
factor is the plaintiff’s “potential injury if review is
refused.” Id. The third factor weighs against review
only “if the interference would be such as to seriously
impede the military in the performance of vital
duties.” Id. The fourth factor requires the court to
“defer to the superior knowledge and experience of
professionals,” but only “in matters such as
promotions or orders directly related to specific
military functions.” Id. at 201-02.
In the ensuing four decades, the so-called Mindes
test has taken on a life of its own. There is a deep and
entrenched circuit conflict on whether a court can
decline to review military decisions based on this
multi-factored, judge-made test. This Court has
never adopted the Mindes test as its own. On the
contrary, Mindes runs counter to this Court’s
precedent and turns the strong presumption that
courts should review agency decisions on its head.
Without this Court’s intervention, the intractable
divide among the courts of appeals will persist—and
some courts will continue to pick and choose which
military decisions to review based on amorphous
factors that have no statutory or constitutional
grounding. This Court’s intervention is needed; the
Ninth Circuit’s invocation of Mindes was dispositive

14
here and this case presents the right vehicle for
resolving this conflict once and for all.
A. The Courts Of Appeals Are Deeply
Conflicted About The Mindes Test
Since the Fifth Circuit first adopted the Mindes
test, the courts of appeals have fractured over
whether (and how) to apply it when presented with
claims against the military. Nearly every circuit has
weighed in on this conflict. Three courts of appeals
(including the Fifth and Ninth Circuits) have adopted
and reaffirmed the Mindes test. Five other courts of
appeals initially adopted the Mindes test, but have
since rejected or questioned the doctrine, or limited
its application. And three other courts of appeals
have consistently rejected Mindes from the outset.
This Court’s intervention is needed to clarify whether
and when military decisions are reviewable.5
1. Three courts of appeals have adopted and
reaffirmed application of the Mindes test when
considering whether to review military decisions. The
Fifth Circuit, of course, adopted the test in Mindes
itself—and has since repeatedly reaffirmed Mindes.
See West v. Brown, 558 F.2d 757, 761 (5th Cir. 1977);
5 Despite the sheer number of courts of appeals cases
adopting, rejecting, modifying, and limiting Mindes, this Court
has had surprisingly few opportunities to grant review of this
issue. Based on a review of readily available certiorari petitions,
very few raised Mindes as a question presented, and those that
did either arose early in the test’s evolution (i.e., before the
current entrenched split had developed), or presented the type
of challenge that would have been unreviewable in every circuit
(i.e., the outcome would not have changed). This petition
presents the Court with an opportunity to review an issue that
has produced an entrenched split in a case where the invocation
of Mindes was outcome-determinative.

15
Meister v. Texas Adjutant Gen.’s Dep’t, 233 F.3d 332,
341 (5th Cir. 2000); Walch v. Adjutant Gen.’s Dep’t of
Texas, 533 F.3d 289, 302 (5th Cir. 2008).
The Tenth Circuit adopted Mindes ten years
later—in a split decision. See Lindenau v. Alexander,
663 F.2d 68 (10th Cir. 1981). In Lindenau, the court
of appeals applied the test to bar review of a claim
that challenged the military’s ban on the enlistment
of unwed single parents. Id. at 70-71. The majority
recognized that the Third Circuit had recently
rejected Mindes (as discussed below), but ultimately
sided with the Fifth Circuit. Id. at 72. The concurring
judge would have adopted the Third Circuit’s
approach. See id. at 74-75 (McKay, J., concurring in
the judgment). Since Lindenau, the Tenth Circuit has
continued to apply Mindes. See, e.g., Daugherty v.
United States, 73 F. App’x 326, 332 (10th Cir. 2003);
Costner v. Oklahoma Army Nat’l Guard, 833 F.2d 905,
907 (10th Cir. 1987).
Later that same year, the Ninth Circuit also
adopted Mindes. See Wallace v. Chappell, 661 F.2d
729 (9th Cir. 1981), rev’d on other grounds, 462 U.S.
296 (1983).6
In Wallace, the court of appeals
remanded for the district court to apply the Mindes
factors to plaintiffs’ claim of race discrimination in
duty assignments. Id. at 737-38. Since then, the
court has applied the test to both statutory and
constitutional claims—including, most notably and
6 Though the Ninth Circuit explicitly adopted Mindes in
Wallace, it had applied Mindes without discussion in one prior
decision, see Schlanger v. United States, 586 F.2d 667, 671 (9th
Cir. 1978), cert. denied, 441 U.S. 943 (1979), and affirmed a
district court’s decision applying Mindes in another, Glines v.
Wade, 586 F.2d 675, 678 n.4 (9th Cir. 1978), rev’d sub nom.
Brown v. Glines, 444 U.S. 348 (1980).

16
recently, in petitioners’ case. See, e.g., Khalsa v.
Weinberger, 779 F.2d 1393, 1399-401 (9th Cir. 1985),
as amended (1986); App. 2a-5a.
2. Five other courts of appeals initially adopted
the Mindes test, but have since rejected, questioned,
and/or limited its application.
The Eighth Circuit adopted Mindes shortly after
the Tenth Circuit. See Nieszner v. Mark, 684 F.2d 562
(8th Cir. 1982). In Nieszner, the court of appeals
affirmed dismissal under Mindes of an age
discrimination claim against the Air Force. Id. at
563-64. Like the Tenth Circuit, the Eighth Circuit
recognized contrary Third Circuit precedent, but
aligned itself with the Fifth Circuit because of its
belief that Mindes “fairly accommodates the[]
competing interests” involved in judicial review of
military decisions. Id. at 565. But the Eighth
Circuit’s adherence to Mindes was short-lived. Seven
years later, the Eight Circuit rejected Mindes, after
concluding that its “complex and unpredictable
analysis . . . is not a viable statement of the law.”
Watson v. Arkansas Nat’l Guard, 886 F.2d 1004, 100910 (8th Cir. 1989). In so holding, the Eighth Circuit
noted that this Court “has entertained, on numerous
occasions, suits involving facial constitutional
challenges to military regulations or statutes.” Id. at
1010 (collecting cases).
The First Circuit initially adopted Mindes too,
after noting and rejecting the Third Circuit’s different
approach. See Penagaricano v. Llenza, 747 F.2d 55,
60 (1st Cir. 1984). In Penagaricano, the court of
appeals applied Mindes to bar a service member’s
claim that he was discharged from the National
Guard because of his “political ideas and affiliations.”
Id. at 58. But the First Circuit later concluded that

17
Mindes did not apply to claims for damages against
the military under certain statutes. Wright v. Park, 5
F.3d 586, 590-91 (1st Cir. 1993) (overruling
Penagaricano “to the extent that it mandates a
different rule”). The First Circuit has not yet
addressed whether Mindes continues to apply to
claims for injunctive relief. See, e.g., Hernandez-Ortiz
v. Diaz-Colon, No. 97-1964, 1998 WL 27139, at *1 (1st
Cir. Jan. 23, 1998) (per curiam).
The Fourth Circuit followed a similar path. See
Williams v. Wilson, 762 F.2d 357 (4th Cir. 1985). In
Williams, the court of appeals adopted Mindes and
dismissed plaintiff’s claim at the threshold for failure
to exhaust intra-service remedies. Id. at 359. But
that court too has recently questioned “the continued
viability of the Mindes test in this circuit,” observing
that it had “applied [Mindes] only once in a published
opinion” and that “other circuits have rejected [it]
outright.” Aikens v. Ingram, 811 F.3d 643, 648 n.5
(4th Cir. 2016). The Fourth Circuit has also held that,
even if Mindes remains good law, it does not apply to
allegations of “unconstitutional, ultra vires actions
by National Guard officers.”
Id. at 648.
Notwithstanding those decisions, the Fourth Circuit
still applies Mindes in some cases—and did so as
recently as this year. See Roe v. Dep’t of Def., 947 F.3d
207, 217-18 (4th Cir. 2020) (reviewing challenge to
DoD policies regarding HIV-positive service
members).
The Eleventh Circuit “adopted” Mindes by
necessity—since it was binding authority, having
been decided before the Fifth Circuit split. But that
court of appeals has since recognized that the test
“has eroded over time.” Winck v. England, 327 F.3d
1296, 1303 & n.5 (11th Cir. 2003). And the court has

18
accordingly limited its application. In the Eleventh
Circuit, Mindes “no longer applies to statutory
claims,” id. at 1303 n.5 (citing Doe v. Garrett, 903 F.2d
1455, 1463 n.15 (11th Cir. 1990), cert. denied, 499
U.S. 904 (1991)), or claims “for injuries that arise
incident to service in the military, whether for
monetary damages or injunctive relief.” Id. (citing
Speigner v. Alexander, 248 F.3d 1292, 1295 n.5, 1298
(11th Cir.), cert. denied, 534 U.S. 2056 (2001)). And
the Eleventh Circuit has made clear that,
“[c]onsistent with Supreme Court precedent,” its
cases “in no way bar[] facial challenges to military
regulations.” Speigner, 248 F.3d at 1298.
Mindes was most recently adopted by the Sixth
Circuit. In Harkness v. Secretary of the Navy, the
court of appeals declined review of an Establishment
Clause challenge to a Navy chaplain’s non-promotion
and duty assignments. 858 F.3d 437, 444 (6th Cir.
2017), cert. denied, 138 S. Ct. 2648 (2018). But the
Sixth Circuit adopted the test for constitutional
claims only, and did not express an opinion as to
“whether the Mindes framework should apply to nonconstitutional claims.” Id. at 444 n.2.
3. Three other courts of appeals have rejected
Mindes from the outset—as doctrinally incoherent,
legally indefensible, and inconsistent with this
Court’s case law.
As indicated above, the Third Circuit was the first
court of appeals expressly to reject Mindes. See
Dillard v. Brown, 652 F.2d 316, 323 (3d Cir. 1981). In
Dillard, the plaintiff challenged a generally
applicable military regulation barring enlistment by
single parents of minor children (the same regulation
at issue in Lindenau). Id. at 318-19. The government
urged the court to apply Mindes and conclude that the

19
claim was unreviewable. The Third Circuit refused.
Mindes, the court explained, erroneously “intertwines
the concept of justiciability with the standards to be
applied to the merits of the case.” Id. at 323.
The Third Circuit further held that Mindes could
not be squared with this Court’s precedents. The
court of appeals explained that this Court’s decisions
in Gilligan v. Morgan, 413 U.S. 1 (1973) and Orloff v.
Willoughby, 345 U.S. 83 (1953), had “established the
basic parameters” of reviewability, and that “[o]nce a
claim falls within these parameters, a court should
review the claim on the merits.” Dillard, 652 F.2d at
323. “Even if such a constitutional challenge appears
weak
or
frivolous,”
the
court
continued,
“jurisprudentially that claim should be rejected on the
merits, rather than deemed to be non-justiciable by a
federal court.” Id. Applying those “parameters,” the
Third Circuit held that the plaintiff’s “constitutional
challenge brought against the military, which does
not require a court to run the military, is justiciable.”
Id. at 322.
The D.C. Circuit reached a similar conclusion four
years later, in Kreis v. Secretary of the Air Force, 866
F.2d 1508 (D.C. Cir. 1989). In Kreis, a service
member alleged that the Air Force’s decision to deny
him a promotion violated “principles established by
prior” promotion decisions and, in the alternative,
was “arbitrary and capricious.” Id. at 1510 (citation
omitted). The service member sought a retroactive
promotion or, in the alternative, a correction of his
military record. Id. at 1512.
Like the Third Circuit, the D.C. Circuit rejected
Mindes because it “erroneously ‘intertwines the
concept of justiciability with the standards to be
applied to the merits of [the] case.’” Id. (alteration in

20
original) (quoting Dillard, 652 F.2d at 323). Instead,
the court of appeals applied Gilligan and Orloff in
holding that the plaintiff’s alternative claim (for
correction of his military record) was justiciable,
while his primary claim (for retroactive promotion)
was not. Id. at 1511. The court explained that the
alternative claim would “require the district court
merely to evaluate, in light of familiar principles of
administrative law, the reasonableness of the
Secretary’s decision not to take certain corrective
action with respect to [plaintiff’s] record.” Id. The
request for a retroactive promotion, by contrast, fell
“squarely within the realm of nonjusticiable
personnel decisions” because it “would require [the
court] to second-guess the Secretary’s decision about
how best to allocate military personnel in order to
serve the security needs of the Nation”—a task that
was “inherently unsuitable to the judicial branch” and
that “Congress has vested in the Secretary alone.” Id.
The Seventh Circuit rejected Mindes for similar
reasons in Knutson v. Wisconsin Air National Guard,
995 F.2d 765 (7th Cir. 1993). In Knutson, the plaintiff
sought reinstatement and money damages following
his discharge, which (he alleged) violated his due
process rights. Id. at 767. The district court held the
claim unreviewable under Mindes, but the Seventh
Circuit sided with the Third and D.C. Circuits and
held that Mindes “erroneously ‘intertwines the
concept of justiciability with the standards to be
applied to the merits of the case.’” Id. at 768 (quoting
Dillard, 652 F.2d at 323). The Seventh Circuit
ultimately denied review, but without first analyzing
the nature and strength of the plaintiff’s claim or
“balancing [the] individual and military interests on
each side.” Id.

21
B. Mindes Conflicts
Precedents

With

This

Court’s

The courts of appeals have struggled with Mindes
for more than forty years, so much so that it has
earned a moniker (i.e., the “Mindes test”) normally
reserved for decisions of this Court. Yet this Court
has never adopted Mindes. Indeed, the Court has
never cited Mindes. And for good reason: the socalled “Mindes test” squarely conflicts with this
Court’s jurisprudence, in two important respects.
First, Mindes erroneously layers a complex and
unpredictable “reviewability” analysis on top of this
Court’s approach for assessing the justiciability of
claims against the military. Second, it is precisely the
sort of “prudential” limitation on judicial review that
this Court has condemned as undermining
separation-of-powers principles and impermissibly
arrogating Congress’s authority to decide which cases
the federal courts will and will not hear.
1. As the Third, Seventh, and D.C. Circuits
correctly recognized, this Court’s decisions in Orloff
and Gilligan set forth the “basic parameters” for
assessing the justiciability of claims against the
military. Dillard, 652 F.2d at 323.
In Orloff, the Army refused to commission as an
officer a doctor who declined to answer certain
questions about his prior involvement in “subversive
organizations.” 345 U.S. at 85-87, 89-91. The doctor
filed a habeas petition arguing that the Army must
either issue him a commission or discharge him—or,
in the alternative, that he should be given a different
duty assignment. Id. at 85-87. The Court agreed that
the doctor was entitled to an assignment “within [the]
doctor’s field,” since he had been inducted pursuant to

22
the Doctor’s Draft Act. Id. at 84, 87; see 50 U.S.C.
App. § 454(i)(1)(A) (1952) (authorizing the induction
of doctors under the age of fifty). And while the Court
ultimately rejected the doctor’s argument that
applicable statutes required “all personnel inducted
under the Doctor’s Draft Act and assigned to the
Medical Corps be either commissioned or
discharged”—it did so on the merits. Orloff, 345 U.S.
at 88-89. The Court declined to review only one
aspect of the doctor’s claim—his specific duty
assignment within the medical field—and only then
because the Court believed it lacked jurisdiction to do
so. Id. at 93-94 (holding that “it is not within the
power of this Court by habeas corpus” to review
“specific assignments to duty” or to “revise duty
orders as to one lawfully in the service”).
Two decades later, and two years after Mindes was
decided, this Court again considered whether to
review a decision involving the military. Gilligan
involved the May 1970 campus shootings at Kent
State University. 413 U.S. at 3. Students filed suit
and sought an injunction “to restrain leaders of the
[Ohio] National Guard from future violation of [their]
constitutional rights.” Id. The Sixth Circuit reversed
the dismissal of plaintiffs’ complaint and instructed
the district court to determine whether there was “a
pattern of training, weaponry and orders in the Ohio
National Guard” that led to its use of excessive force
in responding to civil unrest. Id. at 4 (citation
omitted). This Court granted certiorari and reversed.
Id. at 4, 12.
The Court concluded that the controversy was not
justiciable and, in particular, that the requested relief
was not available under the Constitution because it
was a political question. Id. at 11-12. The Court

23
explained that “the questions to be resolved on
remand are subjects committed expressly to the
political branches of government.” Id. at 10. The
“relief sought,” the Court noted, would require
“continuing judicial surveillance” and “essentially
professional military judgments” as to the Guard’s
weaponry and training. Id. at 6-7, 10. This would
impermissibly intrude on “critical areas of
responsibility vested by the Constitution in the
Legislative and Executive Branches of the
Government.” Id. at 7. In so ruling, the Court made
clear that “we neither hold nor imply that the conduct
of the National Guard is always beyond judicial
review or that there may not be accountability in a
judicial forum for violations of law for specific
unlawful conduct by military personnel.” Id. at 11-12.
The Court has also refused to recognize a cause of
action for damages “for injuries that ‘arise out of or
are in the course of activity incident to service.’”
United States v. Stanley, 483 U.S. 669, 684 (1987)
(quoting Feres v. United States, 340 U.S. 135, 146
(1950)); see also Chappell v. Wallace, 462 U.S. 296,
299 (1983) (refusing to create a cause of action under
Bivens v. Six Unknown Named Agents of Federal
Bureau of Narcotics, 403 U.S. 388 (1971)). And, in
Feres, the Court held that waiver of the United States’
sovereign immunity in the Federal Tort Claims Act,
28 U.S.C. § 2674, did not extend to tort claims brought
by service members for injuries “incident to service.”
Feres, 340 U.S. at 146.7 In so doing, this Court did
7 Current and former members of this Court have since

criticized the so-called Feres doctrine. See Daniel v. United
States, 139 S. Ct. 1713, 1714 (2019) (Thomas, J., dissenting from

24
not hesitate to exercise its jurisdiction and render
these decisions on their merits.
Similarly, this Court has routinely reviewed
challenges to military statutes, regulations, and
policies. See, e.g., Weiss v. United States, 510 U.S.
163, 165 (1994) (Appointments Clause and due
process challenge to the military’s method of
appointing military judges and their indefinite terms
of service); Goldman v. Weinberger, 475 U.S. 503, 50910 (1986) (Establishment Clause challenge to
headgear regulation); Rostker v. Goldberg, 453 U.S.
57, 83 (1981) (equal protection challenge to the malesonly draft); Brown v. Glines, 444 U.S. 348, 361 (1980)
(First Amendment challenge to restriction on
circulating petitions on military bases); Parker v.
Levy, 417 U.S. 733, 761-62 (1974) (due process
vagueness challenge to certain articles of the Uniform
Code of Military Justice); Frontiero v. Richardson,
411 U.S. 677, 690-91 (1973) (equal protection
challenge to statutory presumption that spouses of
male service members, but not females, were
dependents for purposes of allowances and benefits).
The line that emerges from Gilligan, Orloff, and
this Court’s other cases is clear: unless a plaintiff’s
claim presents a nonjusticiable political question,
Gilligan, 413 U.S. at 6-9, or falls outside a court’s
jurisdiction, Orloff, 345 U.S. at 88-89, it must be
reviewed. The claim may ultimately fail on its merits
if it asks this Court to create a cause of action that
Congress has not authorized, Stanley, 483 U.S. at
684, meets with an assertion of sovereign immunity,
Feres, 340 U.S. at 146, or otherwise is barred by
denial of certiorari); United States v. Johnson, 481 U.S. 681, 703
(1987) (Scalia, J., dissenting).

25
statute or the Constitution. But this Court has never
applied a judge-made, multifactor balancing test to
determine whether claims challenging broadly
applicable military policies that fall squarely within
the jurisdiction of the federal courts are subject to
review.
2. Indeed,
this
Court
has
repeatedly
disapproved of judge-made “prudential” limitations
on what claims courts will and will not hear.
Lexmark International, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 122-23 (2014), is a
recent example. Lexmark was a Lanham Act falseadvertising claim where the parties disputed whether
the plaintiff had “prudential standing.” Id. at 125.
This Court firmly rejected that characterization of the
issue. It was undisputed, the Court noted, that the
plaintiff had Article III standing. Id. To nevertheless
dismiss the claim on “prudential standing” grounds
would be “in some tension with [the Court’s] recent
reaffirmation of the principle that ‘a federal court’s
“obligation” to hear and decide’ cases within its
jurisdiction ‘is “virtually unflagging.”’” Id. at 126
(quoting Sprint Commc’ns, Inc. v. Jacobs, 571 U.S. 69,
77 (2013)). The proper inquiry was instead one of
statutory interpretation—i.e., “whether [the plaintiff]
falls within the class of plaintiffs whom Congress has
authorized to sue under [the statute].” Id. at 128. In
conducting that inquiry, the Court cautioned that
“[w]e do not ask whether in our judgment Congress
should have authorized [the plaintiff’s] suit, but
whether Congress in fact did so.” Id. As this Court
explained, courts simply do not have the power to
“limit a cause of action that Congress has created
merely because ‘prudence’ dictates.” Id.

26
The Court made a similar point regarding socalled “prudential ripeness” a few months later, in
Susan B. Anthony List v. Driehaus, 573 U.S. 149, 167
(2014) (citation omitted). In that case, too, there was
no question that plaintiffs had satisfied Article III.
Id. at 161.
In addressing an argument that
“‘prudential ripeness’ factors” demonstrated “that the
claims at issue are nonjusticiable,” id. at 167 (citation
omitted), the Court noted that the request “is in some
tension with our recent reaffirmation of the principle
that ‘a federal court’s obligation to hear and decide’
cases within its jurisdiction ‘is virtually unflagging,’”
id. (quoting Lexmark, 572 U.S. at 126). Ultimately,
however, the Court declined to “resolve the continuing
vitality of the prudential ripeness doctrine,” because
its requirements were “easily satisfied” there. Id.
These cases confirm what is implicit in this Court’s
consistent practice of reviewing military policies
without reference to “prudential” concerns: doctrines
that limit judicial review on the basis of such
considerations—identified not by Congress, but by
the courts themselves—are highly disfavored.
3. Mindes departs from the “parameters” set
forth in Orloff and Gilligan, and erects judge-made,
prudential barriers to justiciability—directly contrary
to this Court’s teachings.
Unlike Orloff, Mindes is not a rule of subjectmatter jurisdiction. Khalsa, 779 F.2d at 1395-96.
Unlike Gilligan, it is not grounded in the political
question doctrine or other jurisdictional/separationof-powers concerns. Nor does it spring from any
statutory or other constitutional limitation on the
scope of judicial review. Mindes described its test as
“a judicial policy akin to comity.” 453 F.2d at 199. It
is “a prudential judgment that the military’s decision

27
should not be reviewed in a judicial forum.” Khalsa,
779 F.2d at 1395-96. And as several courts of appeals
have held, it conflates “the concept of justiciability
with the standards to be applied to the merits of the
case.” Dillard, 652 F.2d at 323; Knutson, 995 F.2d at
768; Kreis, 866 F.2d at 1512.
The tension between the Mindes test and this
Court’s cases is particularly stark in the context of the
statutory cause of action provided under the APA.
Congress has specifically authorized APA review of
actions taken by the military in the territorial United
States during peacetime. See 5 U.S.C. § 701(b)(1)(G)
(authorizing review over actions taken by “each
authority of the Government of the United States”
except, among other authorities, “military authority
exercised in the field in time of war or in occupied
territory” (emphasis added)). As this Court explained
in Lexmark, courts simply do not have the power to
“limit a cause of action that Congress has created
merely because ‘prudence’ dictates.” 572 U.S. at 128.
Mindes encourages courts to do exactly what this
Court’s teachings forbid.
C. This Case Presents An Ideal Vehicle
The Ninth Circuit’s application of Mindes to deny
judicial review in this case demonstrates that the
conflict among the courts of appeals is alive and
(un)well. Application of Mindes was dispositive here.
And there is no other hindrance to this Court’s review.
There can be no serious dispute that petitioners’
claims would have been reviewed on their merits but
for application of the Mindes test. If this case had
been brought in the Third, Seventh, Eighth, or D.C.
Circuit, justiciability easily would have been
established under the “parameters” set forth in this

28
Court’s decisions.8 The court of appeals clearly had
jurisdiction to review (unlike the habeas claim in
Orloff), and this case does not present a political
question (unlike the relief requested in Gilligan). As
the district court explained, petitioners’ APA claim
does not ask the judicial branch to “run the military”
(Dillard, 652 F.2d at 322)—or direct DoD to “ignore
the national security concerns that gave rise to the
October 13 Memo.” App. 35a (citation omitted). On
the contrary, it asks only that the unlawful policy be
rescinded, leaving DoD free to “adopt a policy that is
justified by its purported concerns.” Id.
Nor does the ESP counsel against this Court’s
review. The ESP only holds the October 13 Policy “in
abeyance” pending further review; it does not get rid
of the October 13 Policy, nor does it promise to make
a final decision by any specific date. App. 109a. If,
after that review, DoD ultimately adopts the ESP on
a permanent basis and rescinds the October 13 Policy,
then this petition should be dismissed. See United
States v. Munsingwear, Inc., 340 U.S. 36, 40-41
(1950). But DoD has not done that yet. The initial
six-month review period was supposed to expire on
January 30, 2020 (i.e., on the day this petition was
initially due), but DoD extended the review time for
approximately three additional months. CA9 ECF
No. 130; see also CA9 ECF No. 131. Based on the
results of DoD’s review, the October 13 Policy may be
“held in abeyance for an additional period” or even
“reinstated.” App. 109a. The Mindes issue is
8 Review also would have been available had this case been
brought in the Eleventh Circuit, which does not apply Mindes to
statutory claims, and perhaps in the Sixth Circuit, which thus
far has adopted Mindes only for constitutional claims.

29
dispositive and critically important, and the
government should not be permitted to hold out the
possibility of (much needed and welcome) relief as a
reason to deny review.
II. DoD’s Irrational, Facially Discriminatory
Accession Policy Is Reviewable
Petitioners challenged DoD’s October 13 Policy
under both the Constitution and the APA, alleging
that it facially discriminates against an entire class of
persons: LPR enlistees.9 Petitioners’ challenge does
not fall within any of the categories of cases that this
Court has held to be nonjusticiable or otherwise
outside the jurisdiction of the federal courts.
Petitioners did not ask the court to review “particular
duty orders” as to individual service members. Orloff,
345 U.S. at 88. They did not seek money damages for
injuries suffered “incident to [military] service.”
Stanley, 483 U.S. at 684 (quoting Feres, 340 U.S. at
146). Nor did they ask the district court to “run the
military,” Dillard, 652 F.2d at 322, or otherwise
present the court with a nonjusticiable political
question, Gilligan, 413 U.S. at 6-9. There were no
defensible grounds on which the Ninth Circuit could
have abstained from judicial review.
1. Petitioners brought a facial challenge to a
generally applicable policy that affects LPR enlistees
on a class-wide basis.
This Court has long
9

Petitioners sought injunctive relief only on the basis of
their APA claim, but DoD moved to dismiss petitioners’
complaint in its entirety and the district court denied that
motion. App. 17a-18. DoD has since moved in the district court
for reconsideration of that order in light of the Ninth Circuit’s
decision. N.D. Cal. ECF No. 126.

30
entertained such challenges, reviewing military
policies involving gender discrimination,10 religious
discrimination,11 race discrimination,12 and the
freedom of speech.13 Claims like these are within the
power and expertise of the courts to address—and
remedy when warranted. See Serv. Women’s Action
Network v. Mattis, 320 F. Supp. 3d 1082, 1097 (N.D.
Cal. 2018) (noting that, in both this Court and the
lower courts, “scrutiny of discrimination by the
military is not uncommon”).
Petitioners’ claims fall comfortably within this
venerable tradition of judicial review. Petitioners
challenged the October 13 Policy under the
Constitution and the APA because it represents
arbitrary, class-wide discrimination on the basis of
alienage. For example, under the October 13 Policy,
an LPR brought to the United States as a child, with
no subsequent foreign ties, would be subject to an
average accession delay of 350 days. App. 32a. At the
same time, a U.S. citizen with significant foreign ties
or other foreign influence risk factors (i.e., foreign
residence, travel, relatives, property, or investments)
would access into the military immediately. See App.
15a. This is so even though LPRs, unlike U.S.
citizens, are required to undergo a thorough
background investigation just to obtain LPR status in

10 E.g., United States v. Virginia, 518 U.S. 515, 520 (1996);
Rostker, 453 U.S. at 67; Schlesinger v. Ballard, 419 U.S. 498, 521
(1975); Frontiero, 411 U.S. at 690-91.
11 E.g., Goldman, 475 U.S. at 509-10.
12 E.g., Korematsu v. United States, 323 U.S. 214, 215-16

(1944).

13 E.g., Brown, 444 U.S. at 361.

31
the first place. See 8 U.S.C. § 1446. DoD has offered
no persuasive explanation for this illogical result.
And yet, the Ninth Circuit upheld the October 13
Policy. Applying the Mindes test, the Ninth Circuit
looked to the administrative record produced by
Defendants and found two “factual underpinnings”
for the October 13 Policy. App. 4a-5a. But those
“factual underpinnings” provide no support for the
October 13 Policy’s class-wide discrimination on the
basis of alienage—a fact that the Ninth Circuit might
have discovered had it proceeded to a full merits
review, rather than the abbreviated review for which
Mindes calls.
First, the Ninth Circuit found that certain
guidelines for conducting background checks—in
effect since 1997 and applicable to the national
security screening of all enlistees—were sufficient to
justify the October 13 Policy. App. 4a; see also App.
14a-15a. But if anything, these guidelines support
the opposite conclusion. Indeed, they emphasize that
“[e]ach case must be judged on its own merits”
because “[b]y itself, the fact that a U.S. citizen is also
a citizen of another country is not disqualifying.”
ER105, 109. These guidelines were also implemented
more than 20 years before the October 13 Policy was
adopted—and during a period of time when DoD
permitted LPRs and U.S. citizens to access in the
same manner.
The Ninth Circuit provides no
explanation as to how guidelines that pre-dated the
October 13 Policy can now be invoked as the “factual
underpinning” for a new practice of discriminating
against LPRs.
Second, the Ninth Circuit cited the summary of a
2017 study, which simply identified flaws in the
military’s process for adjudicating LPRs’ background

32
screenings. App. 4a-5a. These “process” defects had
no bearing on the military’s decades-old practice of
allowing LPRs to begin basic training pending
completion of their background checks. See App. 78a81a. Nor does the record reveal DoD’s consideration
of alternative means for addressing their own
internal processing failures—for example, properly
collecting and sharing information about LPRs.
These are factors that should have defeated the
October 13 Policy at the merits phase. Motor Vehicle
Mfrs. Ass’n v. State Farm Mut. Auto. Ins. Co., 463 U.S.
29, 48 (1983) (noting that, “[a]t the very least [an
obvious] alternative way of achieving the objectives of
the [agency’s action] should have been addressed”).
But because Mindes authorizes an abbreviated merits
analysis as part of its reviewability inquiry, the Ninth
Circuit never made it to that phase.
Petitioners’ APA challenge is particularly well
suited to judicial review. As the D.C. Circuit has
recognized, courts are more than capable of
evaluating the “reasonableness of the [military’s]
decision,” especially where an administrative record
is available.
Kreis, 866 F.2d at 1511.
Here,
petitioners’ APA claim asserts only that DoD must
provide rational explanations for its decisions, which
must in turn be substantiated by a sufficient
administrative record. State Farm, 463 U.S. at 43-44.
This is black-letter APA law. There is nothing novel
or problematic about applying this “familiar
principles of administrative law” to the military.
Kreis, 866 F.2d at 1511.
2. Nor does petitioners’ requested remedy—
rescission of the arbitrary and discriminatory October
13 Policy—amount to a “broad call on judicial power
to assume continuing regulatory jurisdiction over

33
[military] activities.”
Gilligan, 413 U.S. at 5.
Petitioners’ requested relief would not interfere with
military functions at all.
Petitioners never asked the district court to order
the adoption of a particular accession policy. Rather,
they asked the court to police the boundaries of the
military’s discretion in this area—which, broad
though it may be, does not extend to irrational and
invidious discrimination against LPRs. Thus, as the
district court correctly recognized, petitioners’
requested relief “will not mean that DoD must ‘ignore
the national security concerns that gave rise to the
October 13 Memo,’” as DoD argued below; “[r]ather,
DoD will have to adopt a policy that is justified by its
purported concerns.” App. 35a (citation omitted).
Indeed, as DoD’s new ESP demonstrates, the
degree of actual interference with military functions
occasioned by the district court’s order is nil. DoD has
provisionally adopted a new policy that reviews all
enlistees—LPRs and U.S. citizens alike—individually
for foreign contacts and national security risk. As the
district court emphasized, its preliminary injunction
allows DoD to address its purported concerns in any
manner that it wishes—so long as its policy complies
with the APA, the Constitution, and any other
applicable law. App. 34a-36a.
That is not to say that a court owes no deference
to the military’s assessment of national security
concerns. Those concerns might well be appropriate
for courts to consider in evaluating the merits of a
constitutional or statutory challenge to military
action, and this Court has often done precisely that.
See, e.g., Brown, 444 U.S. at 354; Rostker, 453 U.S. at
67. But the military’s sweeping, talismanic assertion

34
of “national security” cannot defeat a court’s power to
hear and decide an otherwise justiciable claim.
* *
*
Petitioners’ claims clear every jurisdictional,
justiciability, and remedial hurdle that can be found
in this Court’s precedents. Nevertheless, under the
ill-defined, multifactor balancing test set forth in
Mindes, the Ninth Circuit held that petitioners were
not even entitled to have their claims heard. The
same reasoning would allow the military to defeat any
claim of open and notorious discrimination—for
example, on the basis of race—without ever having to
substantiate their alleged national security concerns.
Mindes permits such an outcome because it allows the
reviewing court to truncate its analysis of the
military’s stated justification, and on that basis find
claims against the military “non-reviewable.” This
Court’s jurisprudence teaches otherwise, and requires
that courts exercise their duty to review military
policies of broad application on the merits.

35
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
PETER A. WALD
LATHAM & WATKINS LLP
505 Montgomery Street
Suite 2000
San Francisco, CA 94111

MELISSA ARBUS SHERRY
Counsel of Record
RILEY T. KEENAN
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
melissa.sherry@lw.com

JENNIFER L. PASQUARELLA
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West 8th Street
Los Angeles, CA 90017
ERIC R. SWIBEL
MALORIE MEDELLIN
DAVID D. COLE
CARMEL I. DOOLING
ACLU FOUNDATION
LATHAM & WATKINS LLP
915 15th St., NW
330 N. Wabash Avenue
Washington, DC 20005
Suite 2800
Chicago, IL 60611
Counsel for Petitioners
March 30, 2020

APPENDIX

TABLE OF CONTENTS
Page
Opinion of the United States Court of Appeals
for the Ninth Circuit, Jiahao Kuang v.
United States Department of Defense, 778
F. App’x 418 (9th Cir. 2019) ...............................1a
Opinion of the United States District Court for
the Northern District of California, Jiahao
Kuang v. United States Department of
Defense, 340 F. Supp. 3d 873 (N.D. Cal.
2018) ....................................................................6a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Motion to Stay
District Court’s November 16, 2018 Order,
Jiahao Kuang, et al. v. United States
Department of Defense, et al., No. 18-17381
(9th Cir. Feb. 1, 2018), ECF No. 21..................88a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc, Jiahao Kuang v.
United States Department of Defense, No.
18-17381 (9th Cir. Nov. 1, 2019), ECF No.
57 .......................................................................91a
5 U.S.C. § 701(b)(1)(G) ............................................93a
5 U.S.C. § 706(2)(A) .................................................94a
8 U.S.C. § 1439(a)....................................................95a
8 U.S.C. § 1440(a)....................................................96a
8 U.S.C. § 1446 ........................................................98a
10 U.S.C. § 504(b)..................................................101a
32 C.F.R. § 66.6(b)(8)(vi) .......................................103a

ii
TABLE OF CONTENTS—Continued
Page
Memorandum for Secretaries of the Military
Departments Commandant of the Coast
Guard Director, Department of Defense
Consolidated Adjudications Facility from
the Office of the Under Secretary of
Defense regarding Military Service
Suitability Determinations for Foreign
Nationals Who Are Lawful Permanent
Residents, dated Oct. 13, 2017 (ECF No.
57) ....................................................................104a
Memorandum for Chief Management Officer of
the Department of Defense et al. from the
Office of the Secretary of Defense, with
Attachments 1-3, dated July 30, 2019 (ECF
No. 115-1) ........................................................107a

1a
FILED
JUL 2 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JIAHAO KUANG; DERON No. 18-17381
COOKE, on behalf of
D.C. No. 3:18-cvthemselves and those
03698-JST
similarly situated,
Plaintiffs-Appellees,
v.

MEMORANDUM*

UNITED STATES
DEPARTMENT OF
DEFENSE; JAMES
MATTIS, in his official
capacity as Secretary of
Defense of the United
States Department of
Defense,
Defendants-Appellants.
778 F. App’x 418

*
This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

2a
Appeal from the United States District Court
for the Northern District of California
Jon S. Tigar, District Judge, Presiding
Argued and Submitted June 14, 2019
San Francisco, California
Before: GOULD and IKUTA, Circuit Judges, and
PEARSON,** District Judge.
Plaintiffs are foreign nationals and lawful
permanent residents (“LPRs”) of the United States.
Both have enlisted in the United States armed forces,
but at the time of filing, neither had yet shipped out,
or “accessed,” to active duty.
Military recruits are subject to background
screening on enlistment. See 32 C.F.R. § 66.1. The
background screening is designed to identify and
explore possible risks to national security and confirm
that each recruit is eligible to hold a military position.
Citizens and LPRs are subject to the same
background screening rigors.
Until recently, both citizens and LPRs generally
were eligible to begin active-duty service before their
background screenings were completed as long as
they had satisfied certain other screening
requirements. On October 13, 2017, the Under
Secretary of Defense for Personnel and Readiness
issued a memorandum to military branches (the
“October 13 Memo”) instructing that LPR recruits
should not be accessed prior to completion of a
satisfactory background screening and favorable

** The Honorable Benita Y. Pearson, United States District
Judge for the Northern District of Ohio, sitting by designation.

3a
recommendation. The October 13 Memo did not affect
the accession timeline for citizens.
Plaintiffs argue that the Department of Defense’s
(“DOD”) change in practice was arbitrary and
capricious and must therefore be set aside pursuant
to the Administrative Procedure Act (“APA”), 5 U.S.C.
§ 706(2)(A). On Plaintiffs’ motion, the district court
issued a preliminary injunction preventing DOD from
implementing the October 13 Memo, thereby
requiring that citizens and LPRs be accessed
according to the same timetable. DOD appeals from
the injunction order.
Internal military regulations ordinarily are not
amenable to judicial review without some preliminary
scrutiny. Mindes v. Seaman, 453 F.2d 197 (5th Cir.
1971)
(articulating
a
four-factor
test
for
reviewability).1 To assess whether a claim against
the military is reviewable (assuming certain
threshold requirements are met, as they are in this
case), we inquire into (1) the nature and strength of
the plaintiffs’ claim, (2) the potential injury to the
plaintiffs if review is refused, (3) the extent to which
review would interfere with military functions, and
(4) the extent to which military discretion or expertise
is involved. Khalsa v. Weinberger, 779 F.2d 1393,
1398 (9th Cir. 1985); Wallace v. Chappell, 661 F.2d
729, 732–33 (9th Cir. 1981).
“[C]onstitutional claims give more weight to an
argument for reviewability [than statutory claims].”
1

We adopted the Mindes test as to constitutional claims
in Wallace v. Chappell, 661 F.2d 729, 733 (9th Cir. 1981), and as
to statutory claims in Khalsa v. Weinberger, 779 F.2d 1393, 1401
(9th Cir. 1985) (“[T]he Mindes test also applies to statutory
claims against the military.”).

4a
Khalsa, 779 F.2d at 1401 (emphasis omitted); see
Gonzalez v. Dep’t of Army, 718 F.2d 926, 930 (9th Cir.
1983) (“Constitutional claims ordinarily carry greater
weight than those resting on a statutory or regulatory
base . . . .”) (alteration omitted) (quoting Wallace, 661
F.2d at 733). Although Plaintiffs raise constitutional
claims in their complaint, they relied on their APA
claim2 to support the motion for preliminary
injunction. Plaintiffs point to no prior case in which
an APA-based challenge to an internal military policy
survived Mindes scrutiny.
The district court concluded that Plaintiffs’
arbitrary-and-capricious claim was strong on the
merits because DOD had “simply withheld all of the
relevant facts.” The administrative record, however,
reveals at least two factual underpinnings for DOD’s
decision to adjust the accession timeline for LPR
recruits.3 First, preexisting guidelines published by
the Office of the Director of National Intelligence
(“DNI”) instruct national-security adjudicators to
consider recruits’ “allegiance to the United States,”
“foreign influence,” and “foreign preference” when
conducting background screenings, all of which have
self-evident implications for LPRs. Second, a 2017
DOD study identified several difficulties in screening
LPR recruits that did not occur when screening
citizens. DOD reasonably concluded that delaying the
accession of LPR recruits would mitigate the risks
2

In addition to their claim that the October 13 Memo was
arbitrary and capricious, Plaintiffs also argued that the policy
change was “not in accordance with law,” see 5 U.S.C.
§ 706(2)(A). The district court dismissed the latter claim.
3 The record also included internal DOD memos regarding
the potential security risk of other noncitizen recruits.

5a
identified by the DNI Guidelines and the 2017 DOD
study.
As for the second Mindes factor, we identify no
grave injury that will result if the district court
refuses to review Plaintiffs’ arbitrary-and-capricious
claim. Plaintiffs were not entitled to quick or
immediate accession on enlistment, and they were
expressly advised, both by their contracts and by the
delayed-entry statute itself, that accession might not
take place for up to two years after enlistment. The
record also does not support Plaintiffs’ contention
that they suffer stigma from delayed accession. Cf.
Wenger v. Monroe, 282 F.3d 1068, 1075 (9th Cir.
2002).
Assessing the third and fourth Mindes factors, we
observe that military decisions about national
security and personnel are inherently sensitive and
generally reserved to military discretion, subject to
the control of the political branches. See Dep’t of Navy
v. Egan, 484 U.S. 518, 527 (1988); Gilligan v. Morgan,
413 U.S. 1, 10 (1973); Gonzalez, 718 F.2d at 930. Of
course, we are not compelled to be credulous.
Assertions by the military that are “palpably untrue
or highly questionable” merit little deference. Khalsa,
779 F.2d at 1400 n.4. But DOD’s claim to expertise in
this case is not seriously in doubt, and its assertions
about national-security risks are not far-fetched.
We conclude that judicial review is foreclosed. We
therefore VACATE the preliminary injunction and
REMAND the case with instructions to dismiss the 5
U.S.C. § 706(2)(A) claim pursuant to the Mindes
doctrine.

6a
JIAHAO KUANG, et al., Plaintiffs,
v.
UNITED STATES DEPARTMENT OF
DEFENSE, et al., Defendants.
Case No. 18-cv-03698-JST
United States District Court,
N.D. California.
Signed 11/16/2018
340 F. Supp. 3d 873
ORDER GRANTING CLASS CERTIFICATION,
DENYING MOTION TO DISMISS, AND
GRANTING PRELIMINARY INJUNCTION
Re: ECF Nos. 21, 31, 42, 44
JON S. TIGAR, United States District Judge
Before the Court are (1) Plaintiffs Jiahao Kuang
and Deron Cooke’s unopposed motion for class
certification, ECF No. 31; (2) Plaintiffs’ motion for a
preliminary injunction, ECF No. 21; and (3)
Defendants U.S. Department of Defense (“DoD”) and
Secretary of Defense James Mattis’s motion to
dismiss, ECF No. 42. The Court will grant the motion
for class certification, deny the motion to dismiss, and
grant the motion for preliminary injunction.
I. BACKGROUND
A. Factual Background1
In October 2007, an eight-year-old Jiahao Kuang
moved with his father from China to the United
1

Given the cross-motions for preliminary injunction and
to dismiss, as well as the production of the administrative record,
the Court sets forth the facts and background of this litigation

7a
States. ECF No. 24 ¶ 2. Kuang entered the United
States on a CR2 visa, which is issued to children of a
foreign spouse who is married or soon to be married
to a U.S. citizen. Id. A month later, Kuang obtained
his green card pursuant to his father’s marriage. Id.
¶ 3. Since then, Kuang has resided with his family in
San Leandro, California, as a lawful permanent
resident (“LPR”) of the United States. Id. ¶¶ 3-4.
On July 18, 2017, during the summer before his
senior year of high school, Kuang enlisted in the U.S.
Navy for a four-year term of active service, followed
by a four-year term of reserve duty. ECF No. 24-1 at
2. Kuang enlisted in the military because of desire to
serve his country. ECF No. 24 ¶ 11. In addition,
Kuang was motivated by the promise of financial
assistance with his future college education and the
understanding that he would be eligible to naturalize
(i.e. become a U.S. citizen) once he entered basic
training.
Id. ¶¶ 8, 12.2
Relying on these
representations, Kuang renewed his green card
rather than applying to become a citizen through the
much lengthier civilian process. Id. ¶ 8.
Kuang’s enlistment contract provided that he
would be eligible to “ship out,” or enter active service,
using record evidence. But in deciding the motion to dismiss, the
Court relies only on the Complaint and other materials properly
considered in that context.
2

8 U.S.C. § 1439(a) provides that “[a] person who has
served honorably at any time in the armed forces of the United
States for a period or periods aggregating one year . . . may be
naturalized” without meeting certain conditions.
During
designated periods of hostilities, there is no length-of-service
requirement. See id. § 1440(a). The United States has been in
a designated period of hostilities since the September 11, 2001
attacks. See ECF No. 57 at 149.

8a
on July 5, 2018. ECF No. 24 ¶ 9; ECF No. 24-1 at 5.
Kuang was placed in a Delayed Entry Program
(“DEP”) in the interim and attended monthly DEP
meetings. ECF No. 24 ¶ 10.
At the age of twenty-two, Deron Cooke
successfully applied for a green card based on his
father’s U.S. citizenship. ECF No. 25 ¶ 2. In July
2015, Cooke emigrated from Jamaica to the United
States; he has maintained LPR status since then. Id.
Cooke lives with his wife, who is a U.S. citizen, in
Trenton, New Jersey. Id. ¶ 4.
On August 3, 2017, Cooke enlisted in the U.S. Air
Force for a four-year term of active service, followed
by a four-year term of reserve duty. ECF No. 25 ¶ 7;
ECF No. 25-1 at 2. Cooke enlisted in order to give
back to the United States, develop his career skills,
and carry on his family’s tradition of service in the
military and law enforcement. ECF No. 25 ¶ 9. Upon
enlisting, Cooke was also informed that he would be
eligible for an expedited naturalization process
through the military. Id. ¶ 10.
Two weeks later, Cooke entered into an
employment contract with the Air Force for an auto
mechanic position, with a scheduled ship-out date of
November 15, 2017. ECF No. 25 ¶ 8; ECF No. 25-2.
Cooke was also placed in a DEP and began attending
biweekly drills. ECF No. 25 ¶ 11.
B. Lawful Permanent Residents
In order to become LPRs, Kuang and Cooke had to
undergo an application and screening process. As part
of this process, LPR applicants must provide detailed
information regarding their background (such as
employment history and prior addresses), provide
fingerprints, photos, and a signature, as well as

9a
participate in an in-person interview. See, e.g., I-485,
Application to Register Permanent Residence or
Adjust Status, U.S. Citizenship and Immigration
Servs. (Apr. 11, 2018), https://www.uscis.gov/i-485;
Green Card, U.S. Citizenship and Immigration Servs.
(Feb. 22, 2018), https://www.uscis.gov/greencard;
Fact Sheet: Immigration Security Checks—How and
Why the Process Works, U.S. Dep’t of Homeland
Security (Apr. 25, 2006), https://www.uscis.gov/
sites/default/files/files/pressrelease/security_checks_
42506.pdf at 1-2 [hereinafter “Fact Sheet ”].3 The
Department of Homeland Security (“DHS”) conducts
an interagency background check for every
applicants, as well as FBI fingerprint and name
checks for many of those applicants, which reveal
foreign criminal history. See Fact Sheet at 2.
LPR applicants may be denied for a multitude of
reasons, including criminal history and security risk
grounds. See 8 U.S.C. § 1182(a)(2), (3).
C. Military
Enlistment
and
Accession
Process
Kuang and Cooke are far from the only LPRs to
enlist in the U.S. military. Approximately 5,000 LPRs
do so every year. ECF No. 22-1 at 4. The process by
which LPRs are enlisted and shipped into active
military service (“accession”) is governed by various
statutory, regulatory, and DoD policy requirements.
Because these requirements are at the heart of this
dispute, the Court reviews them in some detail here.

3 The Court takes judicial notice of these publicly
available government documents, whose authenticity or
accuracy is not disputed. See Daniels-Hall v. Nat’l Educ. Ass’n,
629 F.3d 992, 998 (9th Cir. 2010).

10a
First, Congress has enacted certain statutory
requirements governing who may enlist in the
military. See 10 U.S.C. § 504. “No person who is
insane, intoxicated, or a deserter from an armed force,
or who has been convicted of a felony, may be enlisted
in any armed force,” except that the relevant
Secretary may authorize a meritorious exception for a
deserter or convicted felon. Id. § 504(a).
Second, and most relevant here, Congress has
established citizenship or residency requirements for
military service. In general, “[a] person may be
enlisted in any armed force only if the person is one of
the following:” (1) “[a] national of the United States”;
(2) “[a]n alien who is lawfully admitted for permanent
residence”; or (3) “[a] person described in [the
Department of Defense State Partnership Program,
10 U.S.C. § 341]” of compacts between the United
States and the Federated States of Micronesia, the
Republic of the Marshall Islands, and Palau. Id.
§ 504(b)(1).4
4

Section 504(b)(1) provides in full:
(b) Citizenship or residency. – (1) A person may be enlisted
in any armed force only if the person is one of the following:
(A) A national of the United States, as defined in section
101(a)(22) of the Immigration and Nationality Act (8 U.S.C.
1101(a)(22) ).
(B) An alien who is lawfully admitted for permanent
residence, as defined in section 101(a)(20) of the
Immigration and Nationality Act (8 U.S.C. 1101(a)(20) ).
(C) A person described in section 341 of one of the following
compacts:
(i) The Compact of Free Association between the
Federated States of Micronesia and the United States
(section 201(a) of Public Law 108-188 (117 Stat. 2784; 48
U.S.C. 1921 note) ).

11a
Congress also provided for individualized
exceptions to these citizenship requirements. Section
504(b)(2) permits the relevant Secretary to authorize
the enlistment of someone who does not fall into any
of the categories of section 504(b)(1), if the Secretary
determines that the “person possesses a critical skill
or expertise – (A) that is vital to the national interest;
and (B) that the person will use in the primary daily
duties of that person as a member of the armed
forces.” Recruits enlisted under section 504(b)(2) are
subject to additional procedures prior to entering
active service, however. A person enlisted under
section 504(b)(2) may not “report to initial training
until after the Secretary concerned has completed all
required background investigations and security and
suitability screening as determined by the Secretary
of Defense regarding that person.”
10 U.S.C.
5
§ 504(b)(3)(A). These applications were processed
(ii) The Compact of Free Association between the
Republic of the Marshall Islands and the United States
(section 201(b) of Public Law 108-188 (117 Stat. 2823; 48
U.S.C. 1921 note) ).
(iii) The Compact of Free Association between Palau and
the United States (section 201 of Public Law 99-658 (100
Stat. 3678; 48 U.S.C. 1931 note) ).
5

Sections 504(b)(2) and (b)(3) provide in full:
(2) Notwithstanding paragraph (1), and subject to
paragraph (3), the Secretary concerned may authorize the
enlistment of a person not described in paragraph (1) if the
Secretary determines that such person possesses a critical
skill or expertise–
(A) that is vital to the national interest; and
(B) that the person will use in the primary daily duties of
that person as a member of the armed forces.
(3)(A) No person who enlists under paragraph (2) may report
to initial training until after the Secretary concerned has

12a
pursuant to the Military Accessions Vital to the
National Interest (“MAVNI”) pilot program. See
generally, Kirwa v. U.S. Dep’t of Def., 285 F.Supp.3d
257, 263 (D.D.C. 2018); ECF No. 57 at 146-48.
DoD has promulgated additional regulations
governing the accessions process, including
“standards for age, aptitude, citizenship, dependents,
education, medical, character/conduct, physical
fitness, and other disqualifying conditions, which are
cause for non-qualification for military service.” 32
C.F.R. § 66.1(b). Per DoD’s regulations, its policy is
to “[u]se common entrance qualification standards for
enlistment, appointment, and induction into the
Military Services,” “[a]void inconsistencies and
inequities based on ethnicity, gender, race, religion,
or sexual orientation in the application of these
standards by the Military Services,” and “[j]udge the
suitability of individuals to serve in the Military
Services on the basis of their adaptability, potential
to perform, and conduct.” Id. § 66.4.
Concerning
citizenship,
DoD
regulations
incorporate the requirements of § 504(b).
See
§ 66.6(b)(2)(i). DoD additionally requires that a
completed all required background investigations and
security and suitability screening as determined by the
Secretary of Defense regarding that person.
(B) A Secretary concerned may not authorize more
than 1,000 enlistments under paragraph (2) per military
department in a calendar year until after—
(i) the Secretary of Defense submits to Congress written
notice of the intent of that Secretary concerned to
authorize more than 1,000 such enlistments in a calendar
year; and
(ii) a period of 30 days has elapsed after the date on which
Congress receives the notice.

13a
service member be a U.S. citizen “[t]o be eligible for
appointment as a commissioned officer,” although the
requirement may be waived on an individual basis,
“but only for an original appointment in a grade below
the grade of major or lieutenant commander.” Id.
§ 66.6(b)(2)(ii).
DoD regulations also seek “to minimize entrance
of persons who are likely to become disciplinary cases,
security risks, or who are likely to disrupt good order,
morale, and discipline.” Id. § 66.6(b)(8). Consistent
with this goal, the regulations disqualify applicants
with certain criminal records, prior dishonorable
conduct in military service, or who have “exhibited
antisocial behavior or other traits of character that
may render the applicant unfit for service.” Id.
§ 66.6(b)(i)-(v).
Moreover, DoD generally deems ineligible an
applicant who “[r]eceives an unfavorable final
determination by the DoD Consolidated Adjudication
Facility on a completed National Agency Check with
Law and Credit (NACLC) or higher-level
investigation, which is adjudicated to the National
Security Standards in accordance with Executive
Order 12968, during the accession process.” Id.
§ 66.6(b)(vi).
Notwithstanding this background
investigation requirement, DoD permits – but does
not require – that:
An applicant may be accessed (including
shipping him or her to training or a first duty
assignment) provided that a NACLC or higherlevel investigation was submitted and accepted
by the investigative service provider (Office of
Personnel Management (OPM) ) and an
advanced fingerprint was conducted, and OPM

14a
did not identify any disqualifying background
information.
Id. § 66.6(b)(vi)(A).
In addition to these regulations, DoD has issued
further guidance regarding investigations for
accessing service members. DoD Manual 5200.02,
Procedures for the DoD Personnel Security Program,
explains that “[t]he appointment, enlistment, and
induction of each member of [the military] will be
based on a favorably adjudicated PSI [‘personnel
security investigation’].” ECF No. 57 at 74 § 4.2(a).
In turn, the manual provides that “[t]he NACLC, or
its equivalent, is the minimum investigation required
for entry into the Military Departments.” ECF No. 57
at 74. Currently, the government employs a “Tier 3”
investigation (out of a five-tier scale of intensity) as
the equivalent of the NACLC. See ECF No. 22-5 at 12; ECF No. 57 at 95 § 7.6(b)(2).
Based on the results of this investigation, DoD
renders a Military Service Suitability Determination
(“MSSD”) and National Security Determination
(“NSD”). ECF No. 42 at 22-23; ECF No. 57 at 1-2. To
determine the applicant’s “national security
eligibility,” DoD uses uniform adjudicative guidelines
issued by the Director of National Intelligence
(“DNI”). ECF No. 57 at 94 § 7.4. A favorable NSD
does not authorize the applicant for access to
classified information.6 The current DNI Guidelines
6

“National security eligibility determinations are a
function distinct from granting access to classified national
security information.” ECF No. 57 at 93 § 7.1(a)(1). Indeed,
“[o]nly U.S. citizens are eligible for access to classified
information,” unless approved through a separate, limited
program. Id. at 89 § 6.1.

15a
articulate thirteen categories of criteria that must be
considered in determining the security risk posed by
an individual. Id. at 33. Among those are information
relevant to the individual’s allegiance to the United
States, susceptibility to foreign influence, and
preference for foreign nations over the United States.
Id. at 35-38. (For convenience, the Court refers to the
entire process of the Tier 3 investigation and resulting
MSSD and NSD as the “background investigation”
throughout the remainder of this Order.)
At the time Kuang and Cooke enlisted, DoD’s
policy “allow[ed] for LPR recruits to ship to initial
military training as long as their background
investigation had been initiated, and they had cleared
all other entry screening requirements.”
DoD
Announces Policy Changes to Lawful Permanent
Residents and the Military Accessions Vital to the
National Interest (MAVNI) Pilot Program, U.S. Dep’t
of Def. (Oct. 13, 2017), https://dod.defense.gov/News/
News-Releases/News-Release-View/Article/1342317/
dod-announces-policy-changes-to-lawful-permanentresidents-and-the-military-acc/. U.S. citizens were
likewise able to begin basic training while their
background investigations were in progress. ECF No.
23 ¶¶ 14-15.
On October 13, 2017, DoD Under Secretary of
Defense for Personnel and Readiness A.M. Kurta
issued a memo implementing a new policy for
background investigations for LPRs (“October 13
Memo”). ECF No. 57 at 5-6. The October 13 Memo
explained that “[i]n order to facilitate process
efficiency and the appropriate sharing of information
for security risk based suitability and security
decisions for [LPRs],” DoD would require a completed

16a
background investigation before an LPR could enter
“Active, Reserve or Guard Service.” ECF No. 57 at 5.
D. Subsequent Events
The October 13 Memo’s policy change prevented
Kuang and Cooke from entering active service on
their projected ship-out dates. ECF No. 24 ¶ 14; ECF
No. 25 ¶ 13.
In May 2018, a recruiter informed Kuang that his
ship-out date had been delayed until January 17,
2019. ECF No. 24 ¶ 14. In the interim, Kuang was
informed that his career track designation had been
switched from personnel specialist to one that does
not receive a “designated position or career path and
[is] usually assigned manual labor responsibilities,”
id. ¶ 15, despite Kuang’s experience with computers,
id. ¶ 5. In anticipation of entering active service,
Kuang did not apply to college, and continues to be
hampered in his pursuit of interim employment and
education due to uncertainty regarding when he will
be permitted to enter the military. Id. ¶¶ 18-22.
Unaware of the October 13 Memo, Cooke resigned
from his job on October 27, 2017, in preparation for
his November 15 ship-out date. ECF No. 25 ¶ 12.
Although he was able to reclaim that job when
informed of DoD’s new policy, his ability to further his
civilian career or take advantage of his employer’s
education benefits is hampered by his looming
military service. Id. ¶ 16. A recruiter has also
informed Cooke that the auto mechanic position for
which he originally enlisted may no longer be
available when he is ultimately able to enter active
service. Id. ¶ 18.

17a
To date, neither Kuang nor Cooke has received
notification from DoD of a completed background
investigation.
E. Procedural History
On June 21, 2018, Kuang and Cooke (“Plaintiffs”)
filed this putative class action lawsuit on behalf of all
similarly situated LPRs. See ECF No. 1 (“Compl.”).
Plaintiffs raised four claims. First, Plaintiffs alleged
that the October 13 Memo violated their equal
protection rights by unjustifiably discriminating
against LPRs. Id. ¶¶ 88-94. Second, Plaintiffs
alleged that the memo violated their substantive due
process rights to pursue their chosen profession of
military service. Id. ¶¶ 95-101. Third, Plaintiffs
asserted that DoD had unlawfully withheld or
unreasonably delayed their entrance into military
service, in violation of the Administrative Procedure
Act (“APA”), 5 U.S.C. § 706(1). Compl. ¶¶ 102-108.
Finally, Plaintiffs raised another APA claim under 5
U.S.C. § 706(2), contending that the October 13 Memo
exceeded DoD’s lawful authority and was otherwise
arbitrary and capricious.
Compl. ¶¶ 109-119.
Plaintiffs requested declaratory and injunctive relief
on these claims. Id. ¶¶ 120-121.
On July 19, 2018, Plaintiffs filed a motion for a
preliminary injunction, solely on the basis of their 5
U.S.C. § 706(2) claim. ECF No. 21 at 9 n.9. Plaintiffs
subsequently filed a motion to certify a class of
similarly situated LPRs. ECF No. 31. When DoD
expressed its intent to file a motion to dismiss, the
Court approved a consolidated briefing schedule on
the motion to dismiss and the preliminary injunction.
ECF No. 36. DoD later filed a notice of non-opposition
to class certification, in which the parties agreed to

18a
slight modifications in the class definition. See ECF
No. 40-1.
On September 6, 2018, DoD filed its motion to
dismiss.
ECF No. 42.
After briefing on the
preliminary injunction and motion to dismiss were
complete, DoD produced the administrative record on
October 19, 2018, pursuant to Court order. ECF No.
57.
The Court permitted the parties to file
supplemental briefs regarding any relevant
information in the administrative record. ECF Nos.
64, 65.
II. MOTION FOR CLASS CERTIFICATION
The Court first considers Plaintiffs’ unopposed
motion for class certification. ECF No. 31.
A. Legal Standard
Class certification under Rule 23 is a two-step
process. First, a plaintiff must demonstrate that the
numerosity, commonality, typicality, and adequacy
requirements of Rule 23(a) are met.
One or more members of a class may sue or be
sued as representative parties on behalf of all
members only if (1) the class is so numerous
that joinder of all members is impracticable;
(2) there are questions of law or fact common
to the class; (3) the claims or defenses of
the representative parties are typical of the
claims or defenses of the class; and (4) the
representative parties will fairly and
adequately protect the interests of the class.
Fed. R. Civ. P. 23(a). “Class certification is proper
only if the trial court has concluded, after a ‘rigorous
analysis,’ that Rule 23(a) has been satisfied.” Wang
v. Chinese Daily News, Inc., 737 F.3d 538, 542-43 (9th
Cir. 2013) (quoting Wal-Mart Stores, Inc. v. Dukes,

19a
564 U.S. 338, 351, 131 S.Ct. 2541, 180 L.Ed.2d 374
(2011) ).
Second, a plaintiff must also establish that one of
the bases for certification in Rule 23(b) is met. Here,
Plaintiffs invoke Rule 23(b)(1)(A) and (b)(2). ECF No.
31 at 15. DoD does not oppose the motion. ECF No.
40-1. A plaintiff invoking Rule 23(b)(1)(A) must
establish that prosecuting separate actions would
create a risk of “inconsistent or varying adjudications
with respect to individual class members that would
establish incompatible standards of conduct for the
party opposing the class.” A plaintiff invoking Rule
23(b)(2) must establish that “the party opposing the
class has acted or refused to act on grounds that apply
generally to the class, so that final injunctive relief or
corresponding declaratory relief is appropriate
respecting the class as a whole.”
The party seeking class certification bears the
burden of demonstrating by a preponderance of the
evidence that all four requirements of Rule 23(a) and
at least one of the three requirements under Rule
23(b) are met. See Dukes, 564 U.S. at 350-51, 131
S.Ct. 2541.
B. Discussion
As modified, Plaintiffs’ proposed class consists of:
[A]ll persons who (i) are lawful permanent
residents of the United States; (ii) have signed
an enlistment contract with the U.S. military;
and (iii) pursuant to Defendants’ October 13
memo, have not been permitted to begin initial
entry training, commonly referred to as “boot
camp,” pending completion of their MSSDs and
NSDs.
ECF No. 40-1 at 2 (footnote omitted).

20a
1. Numerosity
Rule 23(a)(1) requires that the class be “so
numerous that joinder of all members is
impracticable.” The record indicates that roughly
5,000 LPRs enlist each year. ECF No. 22-1 at 4.
Plaintiffs estimate, and DoD does not dispute, that an
estimated 3,500 of those LPRs fell within the class
definition as of August 1, 2018. ECF No. 31 at 11.
The Court therefore concludes that this
requirement is met.
2. Commonality
A Rule 23 class is certifiable only if “there are
questions of law or fact common to the class.” Fed. R.
Civ. P. 23(a)(2). For the purposes of Rule 23(a)(2),
“even a single common question” is sufficient. WalMart, 564 U.S. at 359, 131 S.Ct. 2541 (citation and
internal alterations omitted).
The common
contention, however, “must be of such a nature that it
is capable of classwide resolution – which means that
determination of its truth or falsity will resolve an
issue that is central to the validity of each one of the
claims in one stroke.” Id. at 350, 131 S.Ct. 2541.
“What matters to class certification . . . is not the
raising of common ‘questions’ – even in droves – but,
rather the capacity of a classwide proceeding to
generate common answers apt to drive the resolution
of the litigation.” Id. (alteration in original) (citation
omitted).
Here, Plaintiffs’ claims are primarily facial
challenges to the validity of DoD’s policy, which
applies equally on a classwide basis. Whether DoD’s
policy is valid, and the scope of Plaintiffs’ entitlement
to relief, if any, are questions eminently capable of
classwide resolution. See Garcia v. Johnson, No. 14-

21a
CV-01775-YGR, 2014 WL 6657591, at *14 (N.D. Cal.
Nov. 21, 2014).
Accordingly, the Court holds this requirement is
met.
3. Typicality
In certifying a class, courts must find that “the
claims or defenses of the representative parties are
typical of the claims or defenses of the class.” Fed R.
Civ. P. 23(a)(3). “The purpose of the typicality
requirement is to assure that the interest of the
named representative aligns with the interests of the
class.” Hanon v. Dataproducts Corp., 976 F.2d 497,
508 (9th Cir. 1992). “The test of typicality ‘is whether
other members have the same or similar injury,
whether the action is based on conduct which is not
unique to the named plaintiffs, and whether other
class members have been injured by the same course
of conduct.’ ” Id. (quoting Schwartz v. Harp, 108
F.R.D. 279, 282 (C.D. Cal. 1985) ).
The
Court
finds
that
proposed
class
representatives Jiahao Kuang and Deron Cooke are
typical of the class they seek to represent. As
discussed above, this action is based on a single course
of conduct, i.e. DoD’s adoption of the October 13
Memo. Moreover, as a result of this conduct, named
Plaintiffs and putative class members have all
suffered, and continue to suffer, the same general
injury in the form of delayed shipment to basic
training. See Parsons v. Ryan, 754 F.3d 657, 685 (9th
Cir. 2014).

22a
4. Adequacy
The Court must also find that “the representative
parties will fairly and adequately protect the interests
of the class.” Fed. R. Civ. P. 23(a)(4). In considering
the adequacy of the proposed class representatives,
the Court addresses two questions: “(a) do the named
plaintiffs and their counsel have any conflicts of
interest with other class members and (b) will the
named plaintiffs and their counsel prosecute the
action vigorously on behalf of the class?” In re Mego
Fin. Corp. Sec. Litig., 213 F.3d 454, 462 (9th Cir.
2000). This requirement “ ‘tend[s] to merge’ with the
commonality and typicality criteria of Rule 23(a).”
Amchem Prods., Inc. v. Windsor, 521 U.S. 591, 626
n.20, 117 S.Ct. 2231, 138 L.Ed.2d 689 (1997) (quoting
Gen. Tel. Co. of Sw. v. Falcon, 457 U.S. 147, 157 n.13,
102 S.Ct. 2364, 72 L.Ed.2d 740 (1982) ). Among other
functions, these requirements serve as ways to
determine “whether the named plaintiff’s claim and
the class claims are so interrelated that the interests
of the class members will be fairly and adequately
protected in their absence.” Falcon, 457 U.S. at 157
n.13, 102 S.Ct. 2364.
Here, named Plaintiffs have a similar alleged
injury as the rest of the proposed class, and their
claims are not based on any conduct that is unique to
them. There are no apparent conflicts between
named Plaintiffs, their counsel, and the proposed
class, nor is there any reason to believe that they will
not prosecute the action vigorously or adequately
protect the absent class members’ interests. See id.
Therefore, the Court finds that Plaintiffs have
established that this requirement is satisfied.

23a
5. Rule 23(b)
In addition to meeting the four requirements of
23(a), the proposed class must satisfy one of the Rule
23(b) requirements.
Rule 23(b)(2) requires that “the party opposing the
class has acted or refused to act on grounds that apply
generally to the class, so that final injunctive relief or
corresponding declaratory relief is appropriate
respecting the class as a whole.” Fed. R. Civ. P.
23(b)(2). “Rule 23(b)(2) applies only when a single
injunction or declaratory judgment would provide
relief to each member of the class. It does not
authorize class certification when each individual
class member would be entitled to a different
injunction or declaratory judgment against the
defendant.” Wal–Mart, 564 U.S. at 360, 131 S.Ct.
2541.
“These requirements are unquestionably
satisfied when members of a putative class seek
uniform injunctive or declaratory relief from policies
or practices that are generally applicable to the class
as a whole.” Parsons, 754 F.3d at 688 (citing
Rodriguez v. Hayes, 591 F.3d 1105, 1125 (9th Cir.
2011) ).
“That inquiry does not require an
examination of the viability or bases of the class
members’ claims for relief, does not require that the
issues common to the class satisfy a Rule 23(b)(3)-like
predominance test, and does not require a finding
that all members of the class have suffered identical
injuries.” Id. “The fact that some class members may
have suffered no injury or different injuries from the
challenged practice does not prevent the class from
meeting the requirements of Rule 23(b)(2).”
Rodriguez, 591 F.3d at 1125.
Here, Plaintiffs seek unitary declaratory and
injunctive relief related to the October 13 Memo.

24a
Compl. ¶¶ 120-121. The Court finds that this relief,
if granted, would be appropriate to the class as a
whole. Therefore, this requirement is met. See
Parsons, 754 F.3d at 688.
Because the Court finds that the class is
appropriately certified under Rule 23(b)(2), it need
not address the requirements of Rule 23(b)(1)(A). See
Reyes v. Bakery & Confectionery Union & Indus. Int’l
Pension Fund, No. 14-CV-05596-JST, 2015 WL
5569462, at *3 (N.D. Cal. Sept. 22, 2015).
6. Appointment of Class Counsel
Plaintiffs also seek appointment of their attorneys
as class counsel. ECF No. 31 at 17-18.
Under Rule 23(g), which governs the appointment
of class counsel, the Court must consider: (1) “the
work counsel has done in identifying or investigating
potential claims in the action”; (2) “counsel’s
experience in handling class actions, other complex
litigation, and the types of claims asserted in the
action”; (3) “counsel’s knowledge of the applicable
law;” and (4) “the resources that counsel will commit
to representing this class.” Fed. R. Civ. P. 23(g)(1)(A).
In addition, the Court “may consider any other matter
pertinent to counsel’s ability to fairly and adequately
represent the interests of the class.” Fed. R. Civ. P.
23(g)(1)(B).
The Court concludes that Plaintiffs’ counsel
should be appointed class counsel. Counsel have
substantial experience in class actions and other
complex civil litigation. See ECF No. 32 ¶¶ 3, 5-6;
ECF No. 33 ¶¶ 3-6, 8-9, 11-12.
Counsel have
vigorously prosecuted this case thus far, see ECF No.
32 ¶ 9; ECF No. 33 ¶ 14, and there is no evidence
before the Court that they will not continue to do so.

25a
Nor is there any evidence that counsel has interests
with conflict those of the class. See Marsh v. First
Bank of Delaware, No. 11-cv-05226-WHO, 2014 WL
554553, at *15 (N.D. Cal. Feb. 7, 2014). Accordingly,
the Court concludes that the Rule 23(g) factors are
met.
7. Conclusion
For the foregoing reasons, the Court hereby
certifies a class defined as follows:
All persons who
(i) are lawful permanent residents of the United
States;
(ii) have signed an enlistment contract with the
U.S. military; and
(iii) pursuant to Defendants’ October 13 memo,
have not been permitted to begin initial entry
training, commonly referred to as “boot camp,”
pending completion of their MSSDs and NSDs.
Plaintiffs Jiahao Kuang and Deron Cooke are
appointed Class Representatives.
Plaintiffs’ counsel, Latham & Watkins LLP, the
American Civil Liberties Union of Southern
California, and the American Civil Liberties Union of
Northern California, are appointed Class Counsel.
III. MOTION TO DISMISS
The Court next considers DoD’s motion to dismiss.
ECF No. 42.
A. Legal Standard
Federal Rule of Civil Procedure 8(a)(2) requires
that a complaint contain “a short and plain statement
of the claim showing that the pleader is entitled to
relief.” While a complaint need not contain detailed
factual allegations, facts pleaded by a plaintiff must

26a
be “enough to raise a right to relief above the
speculative level.” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007).
To survive a Rule 12(b)(6) motion to dismiss, a
complaint must contain sufficient factual matter that,
when accepted as true, states a claim that is plausible
on its face. Ashcroft v. Iqbal, 556 U.S. 662, 678, 129
S.Ct. 1937, 173 L.Ed.2d 868 (2009). “A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Id. While this standard is not a
probability requirement, “[w]here a complaint pleads
facts that are merely consistent with a defendant’s
liability, it stops short of the line between possibility
and plausibility of entitlement to relief.” Id. (internal
quotation marks and citation omitted).
In
determining whether a plaintiff has met this
plausibility standard, the Court must “accept all
factual allegations in the complaint as true and
construe the pleadings in the light most favorable” to
the plaintiff. Knievel v. ESPN, 393 F.3d 1068, 1072
(9th Cir. 2005).
B. Discussion
DoD first urges the Court to dismiss this action
wholesale, arguing that the military considerations
involved render the entire case nonjusticiable. ECF
No. 42 at 25-28. Alternatively, DoD argues that
Plaintiffs have failed to state a claim under equal
protection or substantive due process.
DoD also contends that Plaintiffs’ APA claims are
unreviewable because they are committed to agency
discretion by law, pursuant to 5 U.S.C. § 701(a)(2).
Id. at 39. DoD further argues in the alternative that

27a
Plaintiffs have failed to state a claim under either
§ 706(1) or § 706(2), at least in part.
1. Nonjusticiability
The Constitution vests Congress and the
President with “broad constitutional power” for
establishing the U.S. armed forces and employing
them for the protection of the United States’s
security. Schlesinger v. Ballard, 419 U.S. 498, 510,
95 S.Ct. 572, 42 L.Ed.2d 610 (1975) (citing U.S. Const.
art. I § 8 cls. 12-14, art. II § 2 cl.1). Courts therefore
give “a healthy deference to legislative and executive
judgments in the area of military affairs.” Rostker v.
Goldberg, 453 U.S. 57, 66, 101 S.Ct. 2646, 69 L.Ed.2d
478 (1981). In so doing, however, the Supreme Court
has cautioned that neither the President nor
“Congress is free to disregard the Constitution when
it acts in the area of military affairs.” Id. at 67, 101
S.Ct. 2646.
In evaluating such claims, a court must “give great
deference to the professional judgment of military
authorities concerning the relative importance of a
particular military interest,” Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 24, 129 S.Ct. 365, 172
L.Ed.2d 249 (2008) (quoting Goldman v. Weinberger,
475 U.S. 503, 507, 106 S.Ct. 1310, 89 L.Ed.2d 478
(1986) ), or “the composition, training, equipping, and
control of a military force,” Gilligan v. Morgan, 413
U.S. 1, 10, 93 S.Ct. 2440, 37 L.Ed.2d 407 (1973).
a. Mindes Test
To determine whether a challenge to an internal
military decision is justiciable, the Ninth Circuit has
generally applied a version of the test first articulated
in Mindes v. Seaman, 453 F.2d 197 (5th Cir. 1971),
and adopted in Wallace v. Chappell, 661 F.2d 729 (9th

28a
Cir. 1981), rev’d on other grounds sub nom. Chappell
v. Wallace, 462 U.S. 296, 103 S.Ct. 2362, 76 L.Ed.2d
586 (1983). Application of the Mindes test is not
jurisdictional in nature; rather, it represents “a
prudential judgment that the military’s decision
should not be reviewed in a judicial forum” and is
equivalent to a failure to state a claim upon which
relief can be granted. Khalsa v. Weinberger, 779 F.2d
1393, 1396 (9th Cir.), reaff’d, 787 F.2d 1288 (1985).
Under this test, “an internal military decision is
unreviewable unless the plaintiff alleges (a) violation
of [a recognized constitutional right], a federal
statute, or military regulations; and (b) exhaustion of
available intraservice remedies.” Wenger v. Monroe,
282 F.3d 1068, 1072 (9th Cir. 2002), as amended on
denial of reh’g and reh’g en banc (Apr. 17, 2002)
(alteration in original) (quoting Khalsa, 779 F.2d at
1398). If those prerequisites are met, a court then
determines whether judicial review is appropriate by
weighing four factors: “(1) The nature and strength of
the plaintiff’s claim; (2) The potential injury to the
plaintiff if review is refused; (3) The extent of
interference with military functions; and (4) The
extent to which military discretion or expertise is
involved.”
Wenger, 282 F.3d at 1072 (citation
omitted). Courts generally consider the third and
fourth factors together. Id. at 1075.
b. Applicability of Mindes Test
As a threshold matter, the parties dispute whether
the Mindes test applies.
In arguing that it does, Defendants place great
weight on Khalsa. In that case, an applicant for
military service, who was a member of the Sikh faith,
brought constitutional and APA challenges to the

29a
Army’s appearance regulations. 779 F.2d at 1394-95.
The applicant argued that Mindes did not apply,
reasoning that the Army’s regulations were “not
‘internal’ in scope because they effectively prevent[ed]
certain citizens from enlisting.” Id. at 1396. The
court rejected this argument, concluding that
regulations governing soldiers’ appearance were
clearly internal, and opining that “[a]lmost any
regulation may cause a particularly sensitive civilian
to decide that he or she could not take the statutory
enlistment oath to follow all orders.” Id. at 1397. The
court also cited with approval out-of-circuit cases
applying the Mindes test to regulations prohibiting
single parents with custody of minor children from
enlisting. Id. at 1396.7 Khalsa thus strongly suggests
that a policy governing the processing of background
investigations is an internal decision subject to
Mindes. And contrary to Plaintiffs’ assertion, ECF
No. 46 at 14, the Khalsa court was clear that “the
Mindes test also applies to statutory claims against
the military,” including the APA challenge at issue
there. 779 F.2d at 1401.
Plaintiffs argue that “[i]n considering the
reviewability of APA claims in the military context,
courts typically have not considered the Mindes
factors,” citing Garrett v. Lehman, 751 F.2d 997, 1006
(9th Cir. 1985) and Kirwa v. U.S. Dep’t of Def., 285
F.Supp.3d 21, 35 (D.D.C. 2017). ECF No. 46 at 14.
But neither Garrett nor Kirwa even mentions

7

DoD likewise relies on these same cases. See ECF No.
42 at 26 (citing Lindenau v. Alexander, 663 F.2d 68 (10th Cir.
1981); West v. Brown, 558 F.2d 757 (5th Cir. 1977); Henson v.
Alexander, 478 F.Supp. 1055 (W.D. Ark. 1979) ).

30a
Mindes.8 ECF No. 46 at 14. And while the Ninth
Circuit9 has sometimes declined to apply the Mindes
test to the facial validity (constitutionally or
otherwise) of a military regulation or policy,10 it has
never overruled Khalsa.
Not only is Khalsa still good law, but Plaintiffs
have provided no good way to distinguish the
reviewability of the regulations in Khalsa from the
policy at issue here. Accordingly, the Court must
apply the Mindes test. In applying that test, the
Court takes into account the Ninth Circuit’s
observation that, notwithstanding its deference to
the military, it has “consistently entertained
servicemembers’ constitutional challenges to military
policies on the merits.” Wilkins v. United States, 279
F.3d 782, 788 (9th Cir. 2002); see also Pruitt v.
8

Furthermore, Kirwa was decided by the District of the
District of Columbia. Unlike the Ninth Circuit, “the D.C. Circuit
has not expressly adopted the Mindes test” and there is some
doubt as to whether it would ever do so. Doe v. Rumsfeld, 297
F.Supp.2d 119, 127 (D.D.C. 2003); see also Cargill v. Marsh, 902
F.2d 1006, 1007 (D.C. Cir. 1990) (“[T]his court rejected the
Mindes test in Kreis v. Secretary of Air Force, 866 F.2d 1508,
1512 (D.C. Cir. 1989).”)
9

The Supreme Court has never addressed the Mindes

test.
10 See, e.g., Meinhold v. U.S. Dep’t of Def., 34 F.3d 1469,

1473 n.2, 1476 (9th Cir. 1994) (adjudicating merits of DoD policy
requiring discharge for homosexual conduct without mentioning
or applying Mindes ); Christoffersen v. Wash. State Air Nat’l
Guard, 855 F.2d 1437, 1445-46 (9th Cir. 1988) (concluding that
Mindes test barred review of service members’ constitutional
challenges to individual non-retention decisions, but addressing
on the merits constitutional and statutory challenges to the
National Guard regulation authorizing those non-retention
decisions without mentioning or applying Mindes ).

31a
Cheney, 963 F.2d 1160, 1166 (9th Cir. 1991)
(cautioning that “military decisions by the Army are
not lightly to be overruled by the judiciary” but
explaining that this deference is “best applied in the
process of judging whether the reasons put forth on
the record for the Army’s discrimination against
[plaintiff] are rationally related to any of the Army’s
permissible goals”).
Because DoD agrees that the two threshold
elements are met, ECF No. 42 at 27, the Court turns
to the four Mindes factors.
c. Nature and Strength of Claims
Here, the nature of Plaintiffs’ claims favors
review.
Claims of a constitutional nature are
“normally more important than those having only a
statutory or regulatory base” for purposes of this
factor. Khalsa, 779 F.2d at 1399 (quoting Mindes, 453
F.2d at 201). Further, Plaintiffs claim that DoD has
arbitrarily subjected them to substantial delays in
their ability to begin their military careers. Unlike a
“haircut regulation,” this is not at “the least
significant end of the constitutional scale.” Khalsa,
779 F.2d at 1399. Rather, it significantly “impedes
the ability of [LPRs] to serve in the military.” Serv.
Women’s Action Network v. Mattis (“SWAN”), 320
F.Supp.3d 1082, 1093 (N.D. Cal. 2018).
The strength of Plaintiffs’ claims also supports
review. As discussed in greater detail below, this is
not a case where the “claims are meritless.”
Christoffersen, 855 F.2d at 1443; see also Khalsa, 779
F.2d at 1399 (claim failed under Ninth Circuit
precedent denying similar claim under “highest
possible level of scrutiny”); Gilliam v. Miller, 973 F.2d
760, 764 (9th Cir. 1992) (holding that Mindes test

32a
barred review of APA claim where defendants did not
act in federal capacity, and plaintiffs therefore could
not state a claim). “Where a facially sufficient claim
of violation of the right [alleged] is involved, the first
Mindes factor favors review.”
Sandidge v.
Washington, 813 F.2d 1025, 1026 (9th Cir. 1987).
Here, Plaintiffs have demonstrated not only facially
sufficient claims, but at this stage, have shown a
likelihood of success on the merits of those claims.
Accordingly, the first Mindes factor weighs in
Plaintiffs’ favor.
d. Potential Injury
Here, Plaintiffs are a class of LPRs who allege
that, because of the challenged policy, they are subject
to delays averaging at least 350 days before they can
enter military service. See Compl. ¶¶ 25-28. As
explained in greater detail below, the Court concludes
that this potential injury supports review.
DoD contends that courts have traditionally given
“little weight to the injury flowing from the denial of
enlistment.” ECF No. 42 at 27 (quoting Khalsa, 779
F.2d at 1399). Here, however, Plaintiffs are not
denied the right to enlist, but have already signed
enlistment contracts. Rather than simply “having to
choose another career,” Khalsa, 779 F.2d at 1400,
Plaintiffs allege that they are stuck in limbo where
both their military and interim career prospects are
impaired. See Compl. ¶ 74; cf. Sandidge, 813 F.2d at
1027 (finding “claims of adverse impact on other job
opportunities ... speculative” where plaintiff had not
applied for a single job); Sebra v. Neville, 801 F.2d
1135, 1142 (9th Cir. 1986) (finding “inconvenience of
moving [plaintiff’s] household” for military transfer

33a
not significant where “he has not been demoted or
discharged”).
Moreover, the delay in Plaintiffs’ ability to enter
active service delays their ability to obtain the
expedited naturalization available to service
members who enter basic training. Compl. ¶ 75; 8
U.S.C. § 1440(a); cf. Kirwa, 285 F.Supp.3d at 42
(“[D]elaying
naturalization
applications
after
applicants have been promised an expedited path to
citizenship constitutes irreparable harm.”). This goes
beyond the mere economic injury that “the Ninth
Circuit has recognized . . . is enough to establish an
injury for purposes of the second Mindes factor.”
SWAN, 320 F.Supp.3d at 1094 (citing Christoffersen,
855 F.2d at 1444).
The Court’s conclusion is bolstered by the size of
the class represented by Plaintiffs. As noted above,
Plaintiffs represent, and DoD does not dispute, that
they represent a class of at least 3,500 LPRs who are
subject to this injury. ECF No. 31 at 11. Here, the
number of service members affected multiplies the
potential injury if the Court were to refuse review.
Common sense dictates that the Court consider the
number of persons affected in determining potential
injury. In the event that Plaintiffs’ underlying claims
are meritorious, all of those LPRs, and all future LPR
enlistees will be unjustly subjected to the injuries
identified above. When faced with situations where
large groups of service members might be injured by
potentially unconstitutional policies, “[t]he Ninth
Circuit has consistently entertained [their]
constitutional challenges to military policies on the
merits.” Wilkins, 279 F.3d at 788.
The Court thus concludes that the second Mindes
factor supports review.

34a
e. Interference and Military Expertise
The SWAN court provided a helpful synthesis of
the governing precedent relevant to the third and
fourth Mindes factors. The court explained that “a
proper assessment of the degree of interference
threatened by a lawsuit is informed by whether the
Court will be required to scrutinize particular
personnel decisions (such as an assignment) by many
decisionmakers (as in Gonzalez [v. Dep’t of Army, 718
F.2d 926 (9th Cir. 1983) ] ) or called upon to take on a
comprehensive, ongoing supervisory role, displacing
military management over a broad range of policy
decisions (as in Gilligan[, 413 U.S. 1, 93 S.Ct. 2440] ).”
SWAN, 320 F.Supp.3d at 1095. In Gonzalez, for
instance, the plaintiff argued that he had been subject
to intentional race discrimination in promotion
decisions, and so plaintiff would have to be able to
examine his superior officers over a ten-year period
“to determine the grounds and motives for their
ratings” in performance reviews. 718 F.2d at 930; see
also Sandidge, 813 F.2d at 1027 (“The officers who
evaluated Sandidge would have to be examined to
determine the grounds and motives for their ratings
of him, and other evidence of his performance would
have to be gathered for the year in question.”). In
Gilligan, plaintiffs requested that the district court
“establish standards for the training, kind of weapons
and scope and kind of orders to control the action of
the National Guard,” as well as “assume and exercise
a continuing judicial surveillance” to ensure
compliance with those standards. 413 U.S. at 6, 93
S.Ct. 2440.
The Court further agrees with the SWAN court
that the concerns underlying those scenarios apply
with far less force when plaintiffs request that

35a
“discrete policies be held unconstitutional and
thereby enjoined.” 320 F.Supp.3d at 1095. The Court
acknowledges that, unlike in the gender integration
issues in SWAN, id. at 1097, the military undoubtedly
has particular expertise in conducting military
background investigations and making national
security determinations and is vested with a
corresponding discretion in those endeavors. ECF No.
52 at 11.
But DoD overstates the extent of interference
judicial review would create here. As will become
clear below, Plaintiffs’ main claim, although brought
under multiple doctrines, is that DoD’s policy lacks
adequate justification.11 If the Court agrees, it will
not mean that DoD must “ignore the national security
concerns that gave rise to the October 13 Memo.”
ECF No. 42 at 28. Rather, DoD will have to adopt a
policy that is justified by its purported concerns. See
City & County of San Francisco v. Trump, 897 F.3d
1225, 1244 (9th Cir. 2018) (“Once a constitutional
violation is found, a federal court is required to tailor
the scope of the remedy to fit the nature and extent of
the constitutional violation.”) (quoting Hills v.
Gautreaux, 425 U.S. 284, 293-94, 96 S.Ct. 1538, 47
L.Ed.2d 792 (1976) ). And “given the equitable nature
of injunctive relief,” courts routinely “tailor a remedy
to ensure that it” does not unduly burden important
interests. McCullen v. Coakley, ––– U.S. ––––, 134
S.Ct. 2518, 2538, 189 L.Ed.2d 502 (2014).
11 To the extent that Plaintiffs claim that DoD’s policy

violates 10 U.S.C. § 504(b), invalidating the policy on that basis
will not interfere with military discretion because it will mean
that Congress did not vest DoD with the discretion or authority
to adopt the policy.

36a
DoD is correct that reviewing Plaintiffs’ challenge
will inevitably involve some judicial evaluation of
areas of military expertise, but that is why the Court’s
deference is “best applied in the process of judging
whether the reasons put forth on the record for
[DoD’s] discrimination against [LPRs] are rationally
related to any of [DoD’s] permissible goals.” Pruitt,
963 F.2d at 1166. DoD does not contend that such
deferential review is logistically impracticable in this
case, just that it is unwarranted. Moreover, DoD
concedes that such review would be appropriate,
notwithstanding the asserted degree of interference,
were the challenged policy a sufficiently egregious
constitutional violation. ECF No. 52 at 12 (resting its
argument for lack of reviewability on the asserted
weakness of Plaintiffs’ argument). As explained
above, the Court’s initial evaluation of the merits and
the potential injury to Plaintiffs differs markedly
from DoD’s analysis.
Considering all the Mindes factors, the Court finds
it prudent to review Plaintiffs’ claims.
2. Equal Protection
The Court next addresses whether Plaintiffs have
adequately stated a claim under equal protection.
“The liberty protected by the Fifth Amendment’s
Due Process Clause contains within it the prohibition
against denying to any person the equal protection of
the laws.” Windsor, 570 U.S. at 774, 133 S.Ct. 2675
(citing Bolling v. Sharpe, 347 U.S. 497, 499-500, 74
S.Ct. 693, 98 L.Ed. 884 (1954) ); see also Adarand
Constructors, Inc. v. Pena, 515 U.S. 200, 224, 115
S.Ct. 2097, 132 L.Ed.2d 158 (1995) (“Equal protection
analysis in the Fifth Amendment area is the same as
that under the Fourteenth Amendment.” (citation

37a
omitted) ). While “[t]he first step in equal protection
analysis is to identify the [government’s]
classification of groups,” Wilson v. Lynch, 835 F.3d
1083, 1098 (9th Cir. 2016) (citation omitted), the
parties do not dispute that the October 13 Memo
draws a facial classification based on whether an
enlisted service member is a U.S. citizen or an LPR,
see ECF No. 22-2 at 2. The Court therefore proceeds
to decide the level of scrutiny that applies. See
Wilson, 835 F.3d at 1098.
a. Level of Scrutiny
The Supreme Court has long recognized aliens as
a “prime example of a ‘discrete and insular’ minority
for whom . . . heightened judicial solicitude is
appropriate” in the equal protection analysis.
Graham v. Richardson, 403 U.S. 365, 372, 91 S.Ct.
1848, 29 L.Ed.2d 534 (1971) (citing United States v.
Carolene Prods. Co., 304 U.S. 144, 152-53 n.4, 58 S.Ct.
778, 82 L.Ed. 1234 (1938) ); see also Hampton v. Mow
Sun Wong, 426 U.S. 88, 102, 96 S.Ct. 1895, 48 L.Ed.2d
495 (1976) (observing that aliens “are already subject
to disadvantages not shared by the remainder of the
community,” such as, among other things “not [being]
entitled to vote”). Accordingly, “state classifications
based on alienage are subject to strict scrutiny
review.” Korab v. Fink, 797 F.3d 572, 577 (9th Cir.
2014).
Strict scrutiny does not apply here, however,
because “the Fourteenth Amendment’s limits on state
powers are substantially different from the
constitutional provisions applicable to the federal
power over immigration and naturalization.”
Mathews v. Diaz, 426 U.S. 67, 86-87, 96 S.Ct. 1883, 48
L.Ed.2d 478 (1976). Where the federal government
acts, “overriding national interests may provide a

38a
justification for a citizenship requirement in the
federal service even though an identical requirement
may not be enforced by a State” without violating
equal protection. Hampton, 426 U.S. at 101, 96 S.Ct.
1895. But the Supreme Court has rejected “the
extreme position” that “the federal power over aliens
is so plenary that any agent of the National
Government may arbitrarily subject all resident
aliens to different substantive rules from those
applied to citizens.” Id. Instead, “federal statutes
regulating alien classifications are subject to the
easier-to-satisfy rational-basis review.” Korab, 797
F.3d at 577 (citing Hampton, 426 U.S. at 103, 96 S.Ct.
1895).
Plaintiffs concede that strict scrutiny does not
apply, but they argue that courts nonetheless “apply
a more ‘active’ form of rational basis review ‘when a
classification adversely affects unpopular groups.’ ”
ECF No. 46 at 17 (quoting Diaz v. Brewer, 656 F.3d
1008, 1012 (9th Cir. 2011) ). The distinguishing
feature of this type of “active” review is that courts
examine “whether the government ha[s] established on
the record a rational basis for the challenged
discrimination.” Pruitt, 963 F.2d at 1166 (citing High
Tech Gays, 895 F.2d at 576-77).
Plaintiffs’ cases do not establish that “active”
rational basis review applies to federal legislative
classifications based on citizenship. Because the
federal government’s authority in this arena is
“substantially different,” Mathews, 426 U.S. at 87, 96
S.Ct. 1883, Plaintiffs’ reliance on equal protection
cases involving state action under the Fourteenth
Amendment is misplaced. See ECF No. 46 at 17;
Arizona Dream Act Coal. v. Brewer, 757 F.3d 1053,

39a
1065-67 (9th Cir. 2014) (state law);12 Dandamudi v.
Tisch, 686 F.3d 66, 72 (2d Cir. 2012) (same); Diaz, 656
F.3d at 1010 (same).13
If this case involved an equal protection challenge
to a legislative act of Congress, the Court would be
inclined to agree with DoD that the appropriate
“question . . . is whether there is any conceivable
rational basis justifying [the October 13 Memo’s]
distinction.” F.C.C. v. Beach Commc’ns, Inc., 508 U.S.
307, 309, 113 S.Ct. 2096, 124 L.Ed.2d 211 (1993).
Under this standard, the government “ ‘has no
obligation to produce evidence to sustain the
rationality of a statutory classification’; ‘[t]he burden
is on the one attacking the legislative arrangement to
negative every conceivable basis which might support
it.’ ” Aleman v. Glickman, 217 F.3d 1191, 1201 (9th

12 In Arizona Dream Act Coalition, the Ninth Circuit did

not decide whether to apply the strict scrutiny necessary for
“state action that discriminates against noncitizens authorized
to be present in the United States” or the rational basis review
that governs noncitizens present “in violation of federal law.”
757 F.3d at 1065 n.4 (quoting Plyler v. Doe, 457 U.S. 202, 223,
102 S.Ct. 2382, 72 L.Ed.2d 786 (1982) ).
13 Similarly, because this exception to strict scrutiny

protection for suspect classes derives from “the paramount
federal power over immigration and naturalization,” Hampton,
426 U.S. at 100, 96 S.Ct. 1895, Plaintiffs’ reliance on cases
involving a Congressional classification based on homosexuality
– where the federal government lacks any special constitutional
power – is also inapposite.
See ECF No. 46 at 17-18;
Massachusetts v. U.S. Dep’t of Health & Human Servs., 682 F.3d
1, 5 (1st Cir. 2012) (federal benefits to same-sex spouses); cf. Witt
v. Dep’t of Air Force, 527 F.3d 806, 819-21 (9th Cir. 2008)
(applying heightened scrutiny to substantive due process
challenge to “Don’t Ask, Don’t Tell” legislation).

40a
Cir. 2000) (quoting Heller v. Doe, 509 U.S. 312, 320,
113 S.Ct. 2637, 125 L.Ed.2d 257 (1993) ).
But it is not so clear that the government bears no
evidentiary burden in the context of agency action.
For instance, the Beach Communications Court
explained that, “because we never require a
legislature to articulate its reasons for enacting a
statute, it is entirely irrelevant for constitutional
purposes whether the conceived reason for the
challenged distinction actually motivated the
legislature.” 508 U.S. at 315, 113 S.Ct. 2096. In
contrast, it is a bedrock principle of administrative
law that “an agency’s action must be upheld, if at all,
on the basis articulated by the agency itself.” Motor
Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 50, 103 S.Ct. 2856, 77
L.Ed.2d 443 (1983) (emphasis added); see also Encino
Motorcars, LLC v. Navarro, ––– U.S. ––––, 136 S.Ct.
2117, 2127, 195 L.Ed.2d 382 (2016) (“Whatever
potential reasons the Department might have given,
the agency in fact gave almost no reasons at all. In
light of the serious reliance interests at stake, the
Department’s conclusory statements do not suffice to
explain its decision.”); SEC v. Chenery, 332 U.S. 194,
196, 67 S.Ct. 1760, 91 L.Ed. 1995 (1947) (explaining
the “simple but fundamental rule of administrative
law” that “a reviewing court, in dealing with a
determination or judgment which an administrative
agency alone is authorized to make, must judge the
propriety of such action solely by the grounds invoked
by the agency”). Indeed, when the Ninth Circuit has
applied rational basis scrutiny to equal protection
challenges to military regulations, it has “required the

41a
government to establish on the record that its policy
had a rational basis.” Pruitt, 963 F.2d at 1166.14
The Court need not directly resolve this issue here,
because Plaintiffs claim both that DoD’s policy lacks
a rational basis under equal protection principles and,
for that same reason, is also arbitrary and capricious
in violation of the APA, 5 U.S.C. § 706(2)(A). See
Compl. ¶¶ 90-92, 111-12. The Ninth Circuit has
explained how to proceed when confronted with this
situation: “[T]he equal protection argument can be
folded into the APA argument, since no suspect class
is involved and the only question is whether the
defendants’ treatment of [LPRs] was rational (i.e., not
arbitrary and capricious).” Ursack Inc. v. Sierra
Interagency Black Bear Grp., 639 F.3d 949, 955 (9th
Cir. 2011); see also 5 U.S.C. § 706(2)(B) (requiring a
court to set aside agency action “contrary to
14 This distinction between rational basis review of

legislative versus administrative action finds further support in
the Hampton Court’s analysis, which concerned a Civil Service
Commission regulation barring residential aliens from civil
service employment. 426 U.S. at 98, 96 S.Ct. 1895. The
Supreme Court explained that “[s]ince these residents were
admitted as a result of decisions made by the Congress and the
President, implemented by the Immigration and Naturalization
Service acting under the Attorney General of the United States,
due process requires that the decision to impose that deprivation
of an important liberty be made either at a comparable level of
government or, if it is to be permitted to be made by the Civil
Service Commission, that it be justified by reasons which are
properly the concern of that agency.” Id. at 116, 96 S.Ct. 1895.
The Supreme Court invalidated the rule, reasoning that the
agency had failed to comply with its “obligation to perform its
responsibilities with some degree of expertise, and to make
known the reasons for its important decisions” because “nothing
in the record” evidenced proper support for the rule. Id. at 115,
96 S.Ct. 1895.

42a
constitutional right, power, privilege, or immunity”).
The Court then examines whether “[t]he record
indicates that [the government] had a rational basis”
for its decision. Ursack, 639 F.3d at 958 (emphasis
added); see also Grant Med. Ctr. v. Hargan, 875 F.3d
701, 708 (D.C. Cir. 2017) (“Accordingly, we consider
[the equal protection and APA] arguments together,
reversing only if the agency offers insufficient reasons
for treating similar situations differently.”); Nazareth
Hosp. v. Sec’y U.S. Dep’t of Health & Human Servs.,
747 F.3d 172, 180 (3d Cir. 2014) (holding that
“[r]eview of an equal protection claim in the context of
agency action” requires the court to “consider whether
the Secretary set forth a satisfactory, rational
explanation for her actions here”); Cooper Hosp. /
Univ. Med. Ctr. v. Burwell, 179 F.Supp.3d 31, 47
(D.D.C. 2016), aff’d sub nom. Cooper Hosp. Univ. Med.
Ctr. v. Price, 688 F. App’x 11 (D.C. Cir. 2017)
(explaining that “if the challenge is to an agency
action, the equal-protection challenge is subsumed
within the APA challenge,” but “[w]hen the disparate
treatment is the result of congressional action . . .
both the burden and the permissible kinds of
argument shift in favor of the government”).
b. Fit
DoD does not dispute that the October 13 Memo
facially discriminates against LPRs. Rather, in
support of its motion to dismiss, DoD argues
exclusively that this discrimination is supported by a
rational basis. ECF No. 42 at 31-34. As just
explained, this argument requires the Court to
consider whether DoD has set forth adequate support
in the administrative record. Therefore, it is not
appropriate to decide this issue in the context of DoD’s
motion. See Khoja v. Orexigen Therapeutics, Inc., 899

43a
F.3d 988, 998 (9th Cir. 2018) (“Generally, district
courts may not consider material outside the
pleadings when assessing the sufficiency of a
complaint under Rule 12(b)(6) of the Federal Rules of
Civil Procedure.”); cf. Pinnacle Armor, Inc. v. United
States, 648 F.3d 708, 721 (9th Cir. 2011) (“If the
district court intended to make a ruling on the merits
of Pinnacle’s APA claim, based on consideration of the
full administrative record, it could have converted its
decision into a Rule 56 summary judgment ruling.
But it did not do so.”).15
The Court thus denies DoD’s motion to dismiss
Plaintiffs’ equal protection claim.
3. Substantive Due Process
The Court next examines whether Plaintiffs have
adequately stated a claim based on substantive due
process.
a. Legal Standard
“The substantive component of the Due Process
Clause forbids the government from depriving a
person of life, liberty, or property in such a way that
. . . interferes with rights implicit in the concept of
ordered liberty.” Engquist v. Or. Dep’t of Agric., 478
F.3d 985, 996 (9th Cir. 2007), aff’d, 553 U.S. 591, 128
S.Ct. 2146, 170 L.Ed.2d 975 (2008) (alteration in
original) (citation omitted). In order to state a
substantive due process claim, a plaintiff must
identify “a liberty or property interest protected by
the Constitution.” Id. (quoting Wedges/Ledges of

15 At the hearing on these motions, the parties expressly
asked the Court not to convert DoD’s motion to dismiss to a
motion for summary judgment.

44a
Cal., Inc. v. City of Phoenix, 24 F.3d 56, 62 (9th Cir.
1994) ).
Courts have found a liberty interest based on
“some generalized due process right to choose one’s
field of private employment.” Conn v. Gabbert, 526
U.S. 286, 291-92, 119 S.Ct. 1292, 143 L.Ed.2d 399
(1999); see also Dittman v. California, 191 F.3d 1020,
1029 (9th Cir. 1999) (“[I]t is well-recognized that the
pursuit of an occupation or profession is a protected
liberty interest that extends across a broad range of
lawful occupations.” (quoting Wedges/Ledges of Cal.,
24 F.3d at 65 n.4) ). However, courts have recognized
an infringement that implicates this liberty interest
only where the governmental action creates “a
complete prohibition of the right to engage in a
calling, and not [a] sort of brief interruption.”
Engquist, 478 F.3d at 997 (alteration in original)
(quoting Conn, 526 U.S. at 292, 119 S.Ct. 1292). This
right protects against “government legislation or
regulation,” and also “extreme cases” where
“government employer actions . . . foreclose access to
a particular profession to the same degree as
government regulation.” Id. at 997-98.
Even where the restriction amounts to a complete
prohibition, the right infringed is not fundamental,
see Dittman, 191 F.3d at 1031, and is therefore
“subject to reasonable governmental regulation,”
Conn, 526 U.S. at 292, 119 S.Ct. 1292. Accordingly,
“a plaintiff can make out a substantive due process
claim if she is unable to pursue an occupation and this
inability is caused by government actions that were
arbitrary and lacking a rational basis.” Engquist, 478
F.3d at 997.

45a
b. Discussion
Here, Plaintiffs claim that DoD’s policy
impermissibly burdens their right to pursue a
military career by forcing them to wait until their
background investigations have been completed.
Compl. ¶ 99; ECF No. 46 at 22.
As an initial matter, the Court first addresses the
nature of the substantive due process violation
alleged. See Chavez v. Martinez, 538 U.S. 760, 775–
76, 123 S.Ct. 1994, 155 L.Ed.2d 984 (2003) (“[The
Supreme Court] requires a careful description of the
asserted fundamental liberty interest for the
purposes of substantive due process analysis”
(internal quotation marks and citation omitted) );
Stormans, Inc. v. Wiesman, 794 F.3d 1064, 1085 (9th
Cir. 2015) (“Accordingly, we must formulate the
asserted right by carefully consulting both the scope
of the challenged regulation and the nature of
Plaintiffs’ allegations.”).
Plaintiffs argue that the October 13 Memo
interferes with their liberty interest in pursuing a
military career. The Court observes that the parties
have cited no case concerning government restrictions
on entry into a wholly public profession,16 rather than
a “field of private employment.” Conn, 526 U.S. at
292, 119 S.Ct. 1292; see also Greene v. McElroy, 360
U.S. 474, 492, 79 S.Ct. 1400, 3 L.Ed.2d 1377 (1959)
(“[T]he right to hold specific private employment and
to follow a chosen profession free from unreasonable
governmental interference comes within the ‘liberty’
and ‘property’ concepts of the Fifth Amendment.”
16 Because the parties have provided no information to the
contrary, the Court assumes without deciding that there is no
relevant and available private analogue to U.S. military service.

46a
(emphasis added) ); but see Schware v. Bd. of Bar
Exam. of State of N.M., 353 U.S. 232, 238-39, 77 S.Ct.
752, 1 L.Ed.2d 796 (1957) (“A State cannot exclude a
person from the practice of law or from any other
occupation in a manner or for reasons that contravene
the Due Process or Equal Protection Clause of the
Fourteenth Amendment.” (emphasis added) ). Given
the dearth of authority, the Court assumes for
purposes of this motion that the standard applicable
to private professions governs: “[r]egulations on entry
into a profession, as a general matter, are
constitutional if they have a rational connection with
the applicant’s fitness or capacity to practice the
profession.” Dittman, 191 F.3d at 1030 (quoting Lowe
v. SEC, 472 U.S. 181, 228, 105 S.Ct. 2557, 86 L.Ed.2d
130 (1985) (White, J., concurring) ).
DoD relies on Engquist to argue that Plaintiffs’
claim is only available in “extreme cases.” ECF No.
52 at 16 (quoting Engquist, 478 F.3d at 998). But
Engquist concerned a state government’s treatment of
a single employee, 478 F.3d at 990-91, rather than a
generally applicable rule governing all or a subset of
public employees. The Engquist court therefore
addressed when the government’s treatment of a
single employee operated as the equivalent of
“legislative action that effectively banned a person
from a profession.” Id. at 998. In that context, the
court explained that an employer action must be so
“extreme” that it accomplishes the same result “as if
the government had yanked the license of an
individual in an occupation that requires licensure.”
Id. (citation omitted). Therefore, Engquist supports

47a
the Court’s conclusion that licensing cases provide the
appropriate framework for Plaintiffs’ claim.17
To the extent DoD argues that Plaintiffs fail to
state a claim because the October 13 Memo does not
impose a “complete prohibition,” the Court disagrees.
Cf. ECF No. 42 at 34 (“But the October 13 Memo does
not prevent LPRs from serving in the military – it
merely requires the completion of their background
investigations before they enter service.”). Supreme
Court and Ninth Circuit precedent make clear that
licensing requirements, which are prerequisites to
entry into the profession, are subject to this type of
rational basis scrutiny, even if they are not lifetime
bans that could never be satisfied by the challengers.
See, e.g., Conn, 526 U.S. at 292, 119 S.Ct. 1292 (citing
as an example of reasonable regulation precedent
“upholding a requirement of licensing before a person
can practice medicine”) (citing Dent v. West Virginia,
129 U.S. 114, 9 S.Ct. 231, 32 L.Ed. 623 (1889) );
Dittman, 191 F.3d at 1032-33 (requirement to disclose
social security number to obtain acupuncture license).
17 The Court is not persuaded by DoD’s assertion that

“Plaintiffs must allege behavior that is ‘so egregious’ and
‘outrageous’ as to ‘shock the contemporary conscience.’ ” ECF
No. 42 at 34 (quoting County of Sacramento v. Lewis, 523 U.S.
833, 847 n.8, 850, 118 S.Ct. 1708, 140 L.Ed.2d 1043 (1998) ).
Lewis involved “a high-speed automobile chase,” id. at 836, 118
S.Ct. 1708, and the Supreme Court explained that “criteria to
identify what is fatally arbitrary differ depending on whether it
is legislation or a specific act of a governmental officer that is at
issue,” 523 U.S. at 846, 118 S.Ct. 1708 (emphasis added). Given
that subsequent Ninth Circuit cases involving regulation of
entry into a profession have not required allegations of
conscience-shocking behavior, the Court concludes that this
standard is inapposite. See, e.g., Franceschi v. Yee, 887 F.3d 927,
938 (9th Cir. 2018); Dittman, 191 F.3d at 1032-33.

48a
Here, Plaintiffs cannot enter military service until
DoD completes their investigations. Cooke, for
instance, has been unable to begin basic training for
more than a year, and Plaintiffs’ complaint alleges
that the type of investigations DoD is likely to conduct
“take 350 days to complete on average.” Compl. ¶ 27.
This is “not the sort of brief interruption” the
Supreme Court referenced in Conn, 526 U.S. at 292,
119 S.Ct. 1292, where the plaintiff lawyer was
prevented from attending a single grand jury hearing
with his client, id. at 288-89, 119 S.Ct. 1292.
The Court therefore turns to the justification
underlying the October 13 Memo. Plaintiffs do not
argue that DoD’s background investigation and
security determination requirements themselves lack
“a rational connection with the applicant’s fitness or
capacity to” serve in the military. Dittman, 191 F.3d
at 1030 (citation omitted). Nor do Plaintiffs appear to
contend that requiring all service members to
complete these requirements prior to beginning
service would be irrational.
Rather, Plaintiffs
contend that the October 13 Memo is irrational
because it “targets LPRs only” to achieve “its
purported
objective
of
facilitating
efficient
background investigations, which is not limited to
LPRs.” ECF No. 46 at 22. In other words, the policy
“singles out one subset of enlistees for disparate
treatment– LPRs – and . . . this discrimination bears
no rational relationship to the stated purpose of
making DoD background investigations more
‘efficient.’ ” Id. at 23.
The gravamen of Plaintiffs’ substantive due
process claim, then, is the same as their equal
protection claim: irrationally unequal treatment. The
parties concede that the same rational basis review

49a
standard applies and incorporate the same
arguments from the equal protection context as to
why the October 13 Memo is irrational. See ECF No.
42 at 35; ECF No. 46 at 22-23; ECF No. 52 at 17.
Accordingly, the Court reaches the same conclusion,
and denies DoD’s motion to dismiss the substantive
due process claim. See Stormans, 794 F.3d at 1088
(incorporating rationality analysis to resolve
substantive due process claim without further
discussion).
4. APA
DoD’s motion to dismiss raises numerous
arguments concerning various provisions of the APA.
The Court thus begins by briefly reviewing the
relevant framework.
a. Judicial Review under the APA
The APA provides a right of action for “[a] person
suffering legal wrong because of agency action, or
adversely affected or aggrieved by agency action
within the meaning of a relevant statute.” 5 U.S.C.
§ 702.
The Act empowers a reviewing court to grant two
types of relief. First, a court may “compel agency
action unlawfully withheld or unreasonably delayed.”
Id. § 706(1). Under § 706(1), a claim “can proceed only
where a plaintiff asserts that an agency failed to take
a discrete agency action that it is required to take.”
Norton v. S. Utah Wilderness All. (“SUWA”), 542 U.S.
55, 64, 124 S.Ct. 2373, 159 L.Ed.2d 137 (2004).
Second, a court may “hold unlawful and set aside
agency action, findings, and conclusions, found to be,”
as relevant here, “(A) arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with law;
. . . [or] (C) in excess of statutory jurisdiction,

50a
authority, or limitations, or short of statutory right.”
5 U.S.C. § 706(2). “The scope of review under the
‘arbitrary and capricious’ standard is narrow and a
court is not to substitute its judgment for that of the
agency.” State Farm, 463 U.S. at 43, 103 S.Ct. 2856.
Rather, a court must determine whether “the agency
has relied on factors which Congress has not intended
it to consider, entirely failed to consider an important
aspect of the problem, offered an explanation for its
decision that runs counter to the evidence before the
agency, or is so implausible that it could not be
ascribed to a difference in view or the product of
agency expertise.” Id. To enable this review, the
agency must “articulate a satisfactory explanation for
its action including a rational connection between the
facts found and the choice made.” Encino Motorcars,
136 S.Ct. at 2125 (quoting State Farm, 463 U.S. at 43,
103 S.Ct. 2856). Furthermore, “[n]ot only must an
agency’s decreed result be within the scope of its
lawful authority, but the process by which it reaches
that result must be logical and rational.” Michigan v.
E.P.A., ––– U.S. ––––, 135 S.Ct. 2699, 2706, 192
L.Ed.2d 674 (2015) (citation omitted).
Where a plaintiff alleges that, as a result of an
erroneous legal interpretation, the agency’s action
was “not in accordance with the law,” 5 U.S.C.
§ 706(2)(A), or “in excess of statutory jurisdiction,
authority, or limitations, or short of statutory right,”
id. § 706(2)(C), courts apply the framework for review
first established in Chevron, U.S.A., Inc. v. Nat. Res.
Def. Council, Inc., 467 U.S. 837, 104 S.Ct. 2778, 81
L.Ed.2d 694 (1984). See Nw. Envtl. Advocates v. U.S.
E.P.A., 537 F.3d 1006, 1014 (9th Cir. 2008).
The APA also exempts from judicial review cases
where “(1) statutes preclude judicial review; or

51a
(2) agency action is committed to agency discretion by
law.” 5 U.S.C. § 701(a).
b. Committed to Agency Discretion by Law
DoD argues that § 701(a)(2) bars review of
Plaintiffs’ APA claims because decisions regarding
the implementation of 10 U.S.C. § 504(b)(1) are
“committed to agency discretion by law.” ECF No. 42
at 35-36.
i. Legal Standard
Because “Congress rarely intends to prevent
courts from enforcing its directives to federal
agencies,” courts apply “a ‘strong presumption’
favoring judicial review of administrative action.”
Mach Mining, LLC v. E.E.O.C., ––– U.S. ––––, 135
S.Ct. 1645, 1651, 191 L.Ed.2d 607 (2015) (quoting
Bowen v. Mich. Acad. of Family Physicians, 476 U.S.
667, 670, 106 S.Ct. 2133, 90 L.Ed.2d 623 (1986) ).
Thus, the Supreme Court has long “read the APA as
embodying a ‘basic presumption of judicial review.’ ”
Lincoln v. Vigil, 508 U.S. 182, 190, 113 S.Ct. 2024, 124
L.Ed.2d 101 (1993) (quoting Abbott Labs. v. Gardner,
387 U.S. 136, 140, 87 S.Ct. 1507, 18 L.Ed.2d 681
(1967) ).
Section 701(a)(2) provides “a very narrow
exception” to this principle. Citizens to Pres. Overton
Park, Inc. v. Volpe, 401 U.S. 402, 410, 91 S.Ct. 814, 28
L.Ed.2d 136 (1971), abrogated on other grounds by
Califano v. Sanders, 430 U.S. 99, 97 S.Ct. 980, 51
L.Ed.2d 192 (1977). It governs “those rare instances
where ‘statutes are drawn in such broad terms that in
a given case there is no law to apply.’ ” Id. (citation
omitted); see also Heckler v. Chaney, 470 U.S. 821,
830, 105 S.Ct. 1649, 84 L.Ed.2d 714 (1985) (Section
701(a)(2) applies where a “statute is drawn so that a

52a
court would have no meaningful standard against
which to judge the agency’s exercise of discretion.”).
But “[e]ven where statutory language grants an
agency unfettered discretion, its decision may
nonetheless be reviewed if regulations or agency
practice provide a meaningful standard by which [a]
court may review its exercise of discretion.” ASSE
Int’l, Inc. v. Kerry, 803 F.3d 1059, 1069 (9th Cir. 2015)
(quoting Spencer Enters., Inc. v. United States, 345
F.3d 683, 688 (9th Cir. 2003) ).
The Supreme Court has also recognized “certain
categories of administrative decisions that courts
traditionally have regarded as ‘committed to agency
discretion,’ ” and which may fall within § 701(a)(2)’s
ambit. Lincoln, 508 U.S. at 191, 113 S.Ct. 2024. For
instance, “an agency’s decision not to prosecute or
enforce, whether through civil or criminal process, is
a decision generally committed to an agency’s
absolute discretion.” Heckler, 470 U.S. at 831, 105
S.Ct. 1649; see also Lincoln, 508 U.S. at 192, 113 S.Ct.
2024 (“The allocation of funds from a lump-sum
appropriation is another administrative decision
traditionally regarded as committed to agency
discretion.”); I.C.C. v. Bhd. of Locomotive Eng’rs, 482
U.S. 270, 282, 107 S.Ct. 2360, 96 L.Ed.2d 222 (1987)
(“[W]e perceive that a similar tradition of
nonreviewability exists with regard to [agency]
refusals to reconsider for material error.”).
Accordingly, a court must examine “the language
of the statute and whether the general purposes of the
statute would be endangered by judicial review.”
ASSE Int’l, 803 F.3d at 1068 (quoting Pinnacle
Armor, 648 F.3d at 719). “[T]he mere fact that a
statute contains discretionary language” does not
mean that Section 706(a)(2) prevents judicial review.

53a
Pinnacle Armor, 648 F.3d at 719 (quoting Beno v.
Shalala, 30 F.3d 1057, 1066 (9th Cir. 1994) ).
Even where § 701(a)(2) forecloses judicial review
of APA claims, however, it does not necessarily bar
constitutional claims. See Webster v. Doe, 486 U.S.
592, 601, 603, 108 S.Ct. 2047, 100 L.Ed.2d 632 (1988).
“[W]here Congress intends to preclude judicial review
of constitutional claims its intent to do so must be
clear.” Id. at 603, 108 S.Ct. 2047.
ii. Discussion
Here, DoD argues that 10 U.S.C. § 504 contains no
meaningful standards for the Court to apply to the
October 13 Memo. ECF No. 42 at 36-37. Plaintiffs
counter that because the statute does not impose any
different restrictions on U.S. citizens and LPRs,
Congress did not intend to grant DoD discretion to
treat the two groups differently, let alone preclude
judicial review. ECF No. 46 at 25. Both parties stress
that Congress recently amended § 504 to impose
precisely the requirements of the October 13 Memo on
a different class of aliens who are not LPRs, and both
parties argue that this decision left their respective
interpretations of the status quo intact. See John S.
McCain National Defense Authorization Act for
Fiscal Year 2019, Pub. L. No. 115-232, 132 Stat. 1636
(2018), codified at 10 U.S.C. § 504(b)(3)(A) (requiring
that the Secretary must “complete[ ] all required
background investigations and security and
suitability screening” before that person “may report
to initial training”). DoD contends that Congress
deliberately left in place DoD’s discretion to
implement the October 13 Memo; Plaintiffs argue
that Congress did not amend its prior implied

54a
instruction to treat U.S. citizens and LPRs equally for
enlistment purposes.18
Section 504, by itself, does not supply a
meaningful standard for the Court to apply to this
case. The Court cannot infer from the mere fact that
§ 504(b)(1) permits both groups to enlist, without
additional distinction, that the statute prohibits DoD
from imposing different terms on their enlistment.
City of Santa Clara v. Andrus, 572 F.2d 660 (9th Cir.
1978), is on point. There, the statute required the
agency to give preference to a class of electric power
customers. Id. at 667 (citing 43 U.S.C. § 485h(c) ).
The Ninth Circuit explained that this provision did
“not require that all preference customers be treated
equally or that all potential preference customers
receive an allotment.” Id. Accordingly, the court
concluded, when “one preference entity challenges the
Secretary’s decision to discriminate against it in favor
of other preference entities, the reclamation laws
provide no law to apply to the dispute.” Id.
But the Court need not rely on section 504 alone,
because DoD has promulgated regulations and
guidance regarding enlistments. See ASSE Int’l, 803
F.3d at 1069.
Through regulation, DoD has
established a policy to “[u]se common entrance
qualification standards for enlistment, appointment,
and induction into the Military Services.” 32 C.F.R.
§ 66.4(a). Pursuant to this policy, DoD regulations set
18 The Court finds unpersuasive DoD’s reliance on the fact

that Congress unambiguously prohibited the enlistment of the
“insane” or “intoxicated.” 10 U.S.C. § 504(a). Whether Congress
removed discretion to enlist certain groups of people is not
responsive to the question whether Congress vested the agency
with discretion to impose different standards on groups
permitted to enlist.

55a
forth in great detail the requirements by which
“[e]ligibility will be determined.” Id. § 66.6(a)(2). Of
particular relevance here, the regulations explain
that “[t]he underlying purpose of these enlistment,
appointment, and induction standards is to minimize
entrance of persons who are likely to become
disciplinary cases, security risks, or who are likely to
disrupt good order, morale, and discipline.” Id.
§ 66.6(b)(8).
As part of this evaluation, the
regulations disqualify anyone who “[r]eceives an
unfavorable final determination by the DoD
Consolidated Adjudication Facility on a completed
National Agency Check with Law and Credit
(NACLC) or higher-level investigation, which is
adjudicated to the National Security Standards in
accordance with Executive Order 12968, during the
accession process.” Id. § 66.6(b)(8)(vi). Nonetheless,
under the regulations, DoD may permit an applicant
to “[b]e accessed (including shipping him or her to
training or a first duty assignment) provided that a
NACLC or higher-level investigation was submitted
and accepted by the investigative service provider
(Office of Personnel Management (OPM) ) and an
advanced fingerprint was conducted, and OPM did
not
identify
any
disqualifying
background
information.” Id. § 66.6(b)(8)(vi)(A).
Here, DoD has made a categorical determination
that an entire group of enlisted service members are
not eligible to access under the conditions provided for
in § 66.6(b)(8)(vi)(A). The Court can assess – with the
requisite deference – whether this determination is
rationally related to DoD’s stated goal “to minimize
entrance of persons who are likely to become
disciplinary cases, security risks, or who are likely to
disrupt good order, morale, and discipline.” Id.

56a
§ 66.6(b)(8). The Court can further evaluate whether
that rationale adequately justifies DoD’s deviation
from its policy to “[u]se common entrance
qualification standards.” Id. § 66.4(a).
The Court rejects DoD’s argument that the
regulations must expressly forbid DoD’s action or
affirmatively require the precise course that Plaintiffs
urge. See ECF No. 52 at 21 (arguing that “the
regulation does not state that it is DoD’s policy to ship
all enlistees to basic training at the same time”).
DoD’s position is squarely at odds with wellestablished Ninth Circuit precedent holding that a
general standard against which to measure the
agency’s action is sufficient. See, e.g., Pac. Nw.
Generating Co-op. v. Bonneville Power Admin., 596
F.3d 1065, 1077 (9th Cir. 2010) (collecting Ninth
Circuit cases finding law to apply based on “whether
a decision was ‘in the public’s interest’ or whether a
particular act was ‘feasible’ or ‘just and reasonable,’
. . . [or] ‘consistent with sound business principles’ ”
(citations omitted) ).
DoD also contends that the October 13 Memo falls
within one of the “categories of administrative
decisions that courts traditionally have regarded as
‘committed to agency discretion.’ ” Lincoln, 508 U.S.
at 191, 113 S.Ct. 2024. As an initial matter, although
whether agency decisions “traditionally have been
reviewable . . . are relevant considerations in a section
701(a)(2) analysis, it’s well settled that the touchstone
of reviewability under section 701(a)(2) is whether
there’s law to apply.” Or. Nat. Res. Council v.
Thomas, 92 F.3d 792, 798 (9th Cir. 1996) (citation
omitted). Further, while courts grant great deference
to the military, the Court cannot say that this area is
one that has historically been regarded as committed

57a
to the military’s absolute discretion. Certainly, the
outcome
of
individual
security
clearance
adjudications, see Dep’t of Navy v. Egan, 484 U.S. 518,
529, 108 S.Ct. 818, 98 L.Ed.2d 918 (1988), or the
Director of the Central Intelligence Agency’s
assessment whether a particular employee presents a
security threat, see Webster, 486 U.S. at 601, 108 S.Ct.
2047, may traditionally be viewed as beyond the reach
of the courts. But, as discussed in detail above, the
same is not true for claims that generally applicable
requirements or procedures to which military
members are subject are arbitrarily discriminatory.
See, e.g., Pruitt, 963 F.2d 1160 (reviewing on the
merits constitutional challenges to the Army’s
regulations prohibiting homosexuality); High Tech
Gays v. Def. Indus. Sec. Clearance Office, 895 F.2d
563, 565, 576-77 (9th Cir. 1990) (same for regulations
“subjecting all homosexual applicants for Secret and
Top Secret clearances to expanded investigations and
mandatory adjudications”), abrogated on other
grounds by United States v. Windsor, 570 U.S. 744,
133 S.Ct. 2675, 186 L.Ed.2d 808 (2013).
Accordingly, the Court concludes that Plaintiffs’
APA claims are reviewable.
c. Failure to State a Claim
i. Section 706(1)
The Court next considers whether Plaintiffs have
failed to state a claim to “compel agency action
unlawfully withheld or unreasonably delayed.” 5
U.S.C. § 706(1).
In their complaint, Plaintiffs allege that DoD has
unreasonably delayed their “shipment to basic
training, and thus their military service.” Compl.
¶ 103. In opposing DoD’s motion to dismiss, however,

58a
Plaintiffs argue that the required action is “a
determination whether Plaintiffs can access into the
military and ship to basic training.” ECF No. 46 at 33
n.12 (emphasis added). In response, DoD contends
that Plaintiffs’ “complaint may not be amended by
briefs in opposition to a motion to dismiss.” ECF No.
52 at 21 (quoting Tietsworth v. Sears, 720 F.Supp.2d
1123, 1145 (N.D. Cal. 2010) ). DoD’s argument misses
the mark.
The rule on which DoD relies applies to “facts
raised for the first time in [a] plaintiff’s opposition
papers.” Broam v. Bogan, 320 F.3d 1023, 1026 n.2
(9th Cir. 2003) (emphasis added); see also Tietsworth,
720 F.Supp.2d at 1145 (explaining that the complaint
“still does not contain any factual allegations that
would support th[e] claimed violation” advanced for
the first time in the opposition). The Court applies a
different analysis to new “legal conclusions” as to
precisely which agency action was unlawfully
withheld, because unlike Plaintiffs’ plausible factual
allegations, the Court is not required to accept them
as true. Ashcroft, 556 U.S. at 678, 129 S.Ct. 1937. If
the facts alleged support a § 706(1) claim on a
different legal theory, Plaintiffs’ claim may proceed.
See Johnson v. City of Shelby, ––– U.S. ––––, 135 S.Ct.
346, 347, 190 L.Ed.2d 309 (2014) (per curiam) (“The
federal rules effectively abolish the restrictive theory
of the pleadings doctrine, making it clear that it is
unnecessary to set out a legal theory for the plaintiff’s
claim for relief.”) (quoting 5 Charles A. Wright &
Arthur R. Miller, Federal Practice and Procedure
§ 1219 (3d ed. 2005) ); Coos Cty. Bd. of Cty. Comm’rs
v. Kempthorne, 531 F.3d 792, 812 n.16 (9th Cir. 2008)
(“Notice pleading requires the plaintiff to set forth in
his complaint claims for relief, not causes of action,

59a
statutes or legal theories.” (citation omitted) ). “The
complaint should not be dismissed merely because
plaintiff’s allegations do not support the legal theory
he intends to proceed on, since the court is under a
duty to examine the complaint to determine if the
allegations provide for relief on any possible theory.”
Pruitt, 963 F.2d at 1164. The Court therefore
considers whether an adjudication of Plaintiffs’
background investigations is a discrete and
mandatory duty. See SUWA, 542 U.S. at 64, 124 S.Ct.
2373.
DoD argues that this decision does not constitute
“agency action,” ECF No. 52 at 21, which the APA
defines as “includ[ing] the whole or a part of an
agency rule, order, license, sanction, relief, or the
equivalent or denial thereof, or failure to act.” 5
U.S.C. § 551(12) (emphasis added). This definition,
however, “is meant to cover comprehensively every
manner in which an agency may exercise its power.”
Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 478,
121 S.Ct. 903, 149 L.Ed.2d 1 (2001). Indeed, the APA
further defines “order” in capacious terms: “the whole
or a part of a final disposition, whether affirmative,
negative, injunctive, or declaratory in form, of an
agency in a matter other than rule making but
including licensing.” 5 U.S.C. § 551(6). Accordingly,
the Court has “little trouble concluding” that DoD’s
disposition of Plaintiffs’ background investigations
constitutes agency action. Whitman, 531 U.S. at 478,
121 S.Ct. 903; see also Mamigonian v. Biggs, 710 F.3d
936, 945 (9th Cir. 2013) (“[T]here is no question that
USCIS’s denial of Ms. Mamigonian’s adjustment-ofstatus applications is “final agency action” for
purposes of the APA.”).

60a
Further, the adjudication of an individual
investigation is a “discrete” action, rather than a
“broad programmatic” issue. SUWA, 542 U.S. at 64,
124 S.Ct. 2373. The remaining question is whether a
decision on Plaintiffs’ applications is mandatory
within a certain timeframe. See id.
The APA “instructs agencies to complete their
work ‘within a reasonable time,’ and grants courts of
appeal the authority to ‘compel agency action
unlawfully withheld or unreasonably delayed.’ ” In re
Pesticide Action Network N. Am., Nat. Res. Def.
Council, Inc., 798 F.3d 809, 813 (9th Cir. 2015) (first
quoting 5 U.S.C. § 555(b); then quoting id. § 706(1) );
see also Mashpee Wampanoag Tribal Council, Inc. v.
Norton, 336 F.3d 1094, 1099 (D.C. Cir. 2003)
(explaining that the APA “imposes a general but
nondiscretionary duty upon an administrative agency
to pass upon a matter presented to it ‘within a
reasonable time,’ ”) (quoting § 555(b) ).19
In this circuit, courts determine whether an
agency’s delay is unreasonable based on six factors:
(1) the time agencies take to make decisions must
be governed by a rule of reason;
(2) where Congress has provided a timetable or
other indication of the speed with which it expects
the agency to proceed in the enabling statute, that
statutory scheme may supply content for this rule
of reason;

19 Section 555(b) provides, in relevant part: “With due
regard for the convenience and necessity of the parties or their
representatives and within a reasonable time, each agency shall
proceed to conclude a matter presented to it.”

61a
(3) delays that might be reasonable in the sphere
of economic regulation are less tolerable when
human health and welfare are at stake;
(4) the court should consider the effect of
expediting delayed action on agency activities of a
higher or competing priority;
(5) the court should also take into account the
nature and extent of the interests prejudiced by
delay; and
(6) the court need not find any impropriety
lurking behind agency lassitude in order to hold
that agency action is unreasonably delayed.
In re Pesticide Action Network, 798 F.3d at 813
(quoting Telecomms. Research & Action Ctr. v. F.C.C.
(“TRAC”), 750 F.2d 70, 79-80 (D.C. Cir. 1984) ).
This general duty to conclude matters within a
reasonable time applies even when there is no
requirement that the agency undertake the action in
the first instance. See In re A Cmty. Voice, 878 F.3d
779, 785 (9th Cir. 2017) (“Once an agency decides to
take a particular action, a duty to do so within a
reasonable time is created.” (citation omitted) ). “An
agency ‘cannot simply refuse to exercise [its]
discretion’ to conclude a matter.” Id. (quoting Indep.
Min. Co. v. Babbitt, 105 F.3d 502, 507 n.6 (9th Cir.
1997) ). Because this general duty applies even in the
absence of a statutory or regulatory deadline for the
specific agency action at issue, DoD’s reliance on the
lack of such a requirement, ECF No. 52 at 21-22, is
unavailing.
Rather, the absence of a specific
timetable is simply the second of six factors the Court

62a
must consider. See In re Pesticide Action Network,
798 F.3d at 813.20
The Court notes that cases finding unreasonable
delay have generally involved lengthier delays than
the ones at issue here. See In re A Cmty. Voice, 878
F.3d at 787 (finding an eight-year delay unreasonable
and suggesting that “a ‘14-month time period’ without
more is not unreasonable”) (quoting United
Steelworkers of Am., AFL-CIO-CLC v. Rubber Mfrs.
Ass’n, 783 F.2d 1117, 1120 (D.C. Cir. 1986) ). But
“[r]esolution of a claim of unreasonable delay is
ordinarily a complicated and nuanced task requiring
consideration of the particular facts and
circumstances before the court.”
Mashpee
Wampanoag Tribal Council, Inc. v. Norton, 336 F.3d
1094, 1100 (D.C. Cir. 2003); see also Fu v. Gonzales,
No. C 07-0207 EDL, 2007 WL 1742376, at *4 (N.D.
Cal. May 22, 2007) (“What constitutes an
unreasonable delay in the context of immigration
applications depends to a great extent on the facts of
the particular case.” (citation omitted) ). Because “the
current record is inadequate at this time to reach any
conclusions” on the relevant factors, the Court cannot
determine whether the time DoD has taken to process
20 DoD mischaracterizes Nio v. DHS, 270 F.Supp.3d 49, 66-

67 (D.D.C. 2017). Nio in fact supports the Court’s conclusion.
There, the court noted that “no statute or regulation mandates a
timetable for completing the investigation and examination” of
certain naturalization applications and therefore the second
TRAC factor tipped in the government’s favor. Id. at 67. But
rather than dismissing plaintiffs’ § 706(1) claim – as DoD
represents – the Nio court explained that the application of the
TRAC factors “is a fact intensive inquiry.” Id. at 66. Because
“the current record [wa]s inadequate at th[at] time to reach any
conclusions” on the remaining TRAC factors, the court declined
to issue a preliminary injunction. Id. at 67.

63a
Plaintiffs’ investigations was unreasonable as a
matter of law. Nio v. U.S. Dep’t of Homeland Sec., 270
F.Supp.3d 49, 62 (D.D.C. 2017).
Accordingly, the Court denies the motion to
dismiss Plaintiffs’ § 706(1) claim.
ii. Section 706(2)
In their complaint, Plaintiffs raise numerous
arguments that the October 13 Memo is invalid under
§ 706(2), but these arguments can be distilled into
essentially two claims. First, Plaintiffs allege that the
October 13 Memo is “not in accordance with the law,”
5 U.S.C. § 706(2)(A), and “in excess of [DoD’s]
statutory jurisdiction,” id. § 706(2)(C), because 10
U.S.C. § 504(b) does not permit DoD to differentiate
between U.S. citizens and LPRs on a classwide basis.
Compl. ¶¶ 115-116. These are essentially the same
claim, because “there is no difference, insofar as the
validity of agency action is concerned, between an
agency’s exceeding the scope of its authority (its
‘jurisdiction’)
and
its
exceeding
authorized
application of authority that it unquestionably has.”
City of Arlington v. F.C.C., 569 U.S. 290, 299, 133
S.Ct. 1863, 185 L.Ed.2d 941 (2013). In either case,
Plaintiffs claim is that the October 13 Memo “violates
a federal statute.” Match-E-Be-Nash-She-Wish Band
of Pottawatomi Indians v. Patchak, 567 U.S. 209, 220,
132 S.Ct. 2199, 183 L.Ed.2d 211 (2012) (citing 5
U.S.C. § 706(2)(A), (C) ). If, as Plaintiffs contend, 10
U.S.C. § 504(b) prohibits DoD’s policy, then the Court
must set the policy aside, regardless of DoD’s reasons
for adopting it.
Second, Plaintiffs allege that, even if DoD’s policy
is permitted by statute, its decision to adopt this
otherwise permissible policy was “arbitrary and

64a
capricious” or “an abuse of discretion,” 5 U.S.C.
§ 706(2)(A), because DoD “failed to provide any
legitimate explanation.”
Compl. ¶ 111.
While
Plaintiffs’ first claim raises a question of statutory
interpretation, their second claim requires the Court
to assess whether DOD “examine[d] the relevant data
and articulate[d] a satisfactory explanation for its
action ‘including a rational connection between the
facts found and the choice made.’ ” State Farm, 463
U.S. at 43, 103 S.Ct. 2856 (quoting Burlington Truck
Lines, Inc. v. U.S., 371 U.S. 156, 168, 83 S.Ct. 239, 9
L.Ed.2d 207 (1962)).
DoD argues that Plaintiffs have failed to state a
claim under either theory. ECF No. 42 at 41-43.
The Court first addresses Plaintiffs’ statutory
interpretation argument.
Plaintiffs’ complaint
alleges that “[t]he October 13 Memo is not in
accordance with the law and . . . exceeds the authority
granted to the DoD by the Enlistment Statute, which
mandates that LPRs be permitted to enlist and serve
in the military.” Compl. ¶ 115. The complaint further
explains that the memo “has indefinitely barred
LPRs, including Plaintiffs, from serving in the
military by prohibiting them from doing so until their
MSSD and NSD adjudications are complete,” thereby
“violat[ing] Congress’s clear intent and the plain
language of the Enlistment Statute.” Id. ¶ 116. In
their opposition, Plaintiffs phrase their argument in
different terms, contending that 10 U.S.C. § 504
requires that “LPRs not only may enlist, but once
enlisted, may access into the Armed Forces on the
same terms as U.S. nationals.” ECF No. 46 at 31.
Though DoD faults Plaintiffs’ opposition for straying
from the terms of their complaint, ECF No. 52 at 22,
Plaintiffs are permitted to refine their legal

65a
arguments, as opposed to advancing new factual
allegations, as explained above.21
The Court thus turns to the merits of Plaintiffs’
argument.
Plaintiffs agree that the Chevron
framework applies. ECF No. 46 at 31-33.22 Under
Chevron, the Court considers “whether Congress has
directly spoken to the precise question at issue. If the
intent of Congress is clear, that is the end of the
matter.” Campos-Hernandez v. Sessions, 889 F.3d
564, 568 (9th Cir. 2018) (quoting Chevron, 467 U.S. at
842, 104 S.Ct. 2778). In other words, the Court asks
21 Moreover, the Court may use Plaintiffs’ “brief to clarify

allegations in [their] complaint whose meaning is unclear.”
Pegram v. Herdrich, 530 U.S. 211, 230 n.10, 120 S.Ct. 2143, 147
L.Ed.2d 164 (2000); see also Navajo Nation v. Dep’t of the
Interior, 876 F.3d 1144, 1163 (9th Cir. 2017) (explaining that the
Ninth Circuit has “relied on the briefs on appeal to clarify the
complaint, in compliance with our obligation to construe the
complaint favorably to the plaintiff”). Plaintiffs’ argument, as
formulated in their opposition, clarifies the complaint’s
allegation that the statutory framework requires DoD “to allow
LPRs to enlist along with U.S. citizens,” Compl. ¶ 116, rather
than advancing an entirely new theory. Plaintiffs’ “equal
treatment” reading of the statute should come as no surprise to
DoD, see id. ¶ 56 (“The October 13 Memo fails to articulate any
legitimate justification for its departure from this country’s long
tradition of enlisting LPRs and U.S. citizens on equal terms.”);
see also United States v. Idaho, 210 F.3d 1067, 1080 (9th Cir.
2000) (courts must consider how “[t]he complaint, taken as a
whole, is most naturally read”).
22 A court applies Chevron’s framework where (1) “it

appears that Congress delegated authority to the agency
generally to make rules carrying the force of law,” and (2) “the
agency interpretation claiming deference was promulgated in
the exercise of that authority.” Marmolejo-Campos v. Holder,
558 F.3d 903, 908 (9th Cir. 2009) (en banc) (quoting United
States v. Mead Corp., 533 U.S. 218, 226-27, 121 S.Ct. 2164, 150
L.Ed.2d 292 (2001) ).

66a
“whether, ‘applying the normal tools of statutory
construction,’ the statute is ambiguous.” Sung Kil
Jang v. Lynch, 812 F.3d 1187, 1190 (9th Cir. 2015)
(quoting INS v. St. Cyr, 533 U.S. 289, 321 n.4, 121
S.Ct. 2271, 150 L.Ed.2d 347 (2001) ). Second, “if the
statute is silent or ambiguous with respect to the
specific issue, the question for the court is whether
the agency’s answer is based on a permissible
construction of the statute.” Campos-Hernandez, 889
F.3d at 568 (quoting Chevron, 467 U.S. at 843, 104
S.Ct. 2778).
Congress has not “directly spoken to the precise
question” whether DoD can require enlisted LPRs,
but not U.S. citizens, to complete background
investigations prior to accessing.
Id. (citation
omitted). Nor, as explained above, has Congress
directly specified that DoD cannot apply different
accession rules to LPRs. Cf. Andrus, 572 F.2d at 667.
On its face, § 504(b)(1) simply provides a prerequisite
for the citizenship or residency of enlisted service
members. It does not unambiguously express any
intent to restrict DoD from adopting different
requirements for how those enlisted service members
are processed into service.
Plaintiffs also stress that Congress specifically
required that non-LPR aliens enlisted under the
MAVNI program could not “report to initial training
until after” the completion of “all required
background investigations and security and
suitability screening.”
10 U.S.C. § 504(b)(3)(A).
Relying on the canon of expressio unius,23 Plaintiffs
23 The canon of statutory construction expressio unius est

exclusio alterius means “expressing one item of [an] associated
group or series excludes another left unmentioned.” N.L.R.B. v.

67a
reason that Congress’s failure to expressly impose
this same requirement on LPRs enlisted pursuant to
§ 504(b)(1)(B) means that the DoD may not impose
that requirement either. ECF No. 46 at 25-26 (citing
Silvers v. Sony Pictures Entm’t Inc., 402 F.3d 881, 885
(9th Cir. 2005) (en banc) ). The difficulty with
Plaintiffs’ argument is that this canon of statutory
construction “does not apply unless it is fair to
suppose that Congress considered the unnamed
possibility and meant to say no to it.” Marx v. Gen.
Revenue Corp., 568 U.S. 371, 381, 133 S.Ct. 1166, 185
L.Ed.2d 242 (2013) (internal quotation marks and
citation omitted).
Given that Congress added
§ 504(b)(3)(A) after the October 13 Memo was already
in effect, see 132 Stat. at 1636, the Court cannot infer
that Congress meant by its silence to foreclose the
policy change enacted through the October 13 Memo.
Accordingly, Plaintiffs’ allegations, even if true, do
not state a claim that the October 13 Memo exceeded
DoD’s jurisdiction or was otherwise prohibited by
statute.
The Court next addresses Plaintiffs’ arbitraryand-capricious argument. DoD asserts that Plaintiffs
have failed to state a claim by taking issue with two
points in Plaintiffs’ complaint: (1) that the memo
“contains vague and unworkable requirements,”
Compl. ¶ 112; and (2) that DoD is “impermissibly
SW Gen., Inc., ––– U.S. ––––, 137 S.Ct. 929, 940, 197 L.Ed.2d
263 (2017) (quoting Chevron U.S.A. Inc. v. Echazabal, 536 U.S.
73, 80, 122 S.Ct. 2045, 153 L.Ed.2d 82 (2002) ). The Supreme
Court gives the example of a sign at the entrance to a zoo that
says “come see the elephant, lion, hippo, and giraffe” next to a
temporary sign saying “the giraffe is sick.” Under those
circumstances, one “would reasonably assume that the other
[animals] are in good health.” Id.

68a
applying the October 13 Memo retroactively,” id.
¶ 114. DoD contends that these specific arguments
are meritless, but it does not attempt to rebut
Plaintiffs’ larger claim that the October 13 Memo is
fatally arbitrary because the agency “failed to provide
any legitimate explanation.” Compl. ¶ 111; cf. United
States v. Williams, 846 F.3d 303, 311 (9th Cir. 2016)
(distinguishing between claims and arguments for
purposes of waiver). In other words, even if the Court
agreed with DoD on these particular points, it would
not mean that Plaintiffs “fail[ed] to state a [5 U.S.C.
§ 706(2) ] claim upon which relief can be granted.”
Fed. R. Civ. P. 12(b)(6). DoD’s motion to dismiss
Plaintiffs’ Section 706(2) claim on this theory is
therefore denied.24

24 DoD also argues that Plaintiffs have failed to state a

claim for failure to comply with the APA’s notice-and-comment
rulemaking requirements, which are set forth in 5 U.S.C. § 553.
ECF No. 42 at 42; see also Compl. ¶ 113 (“Nor did Defendants
circulate the October 13 Memo for public review and comment
prior to issuing the Memo.”). DoD points out that 5 U.S.C.
§ 553(a)(1) exempts from those requirements actions involving
“a military or foreign affairs function of the United States.” It
does not appear that Plaintiffs have raised or are pursuing an
independent 5 U.S.C. § 553 claim, as they do not designate one
in their complaint, cf. Compl. ¶ 113, nor do they respond to DoD’s
argument on this point. The Court therefore concludes that, to
the extent Plaintiffs’ intended to raise such a claim, they have
conceded it. See So Young Kang v. Wells Fargo Bank, N.A., No.
16-CV-04309-DMR, 2018 WL 1586237, at *6 (N.D. Cal. Apr. 2,
2018) (“Plaintiff fails to respond to this argument and therefore
concedes it through silence.”) (quoting Ardente, Inc. v. Shanley,
No. C 07-4479 MHP, 2010 WL 546485, at *6 (N.D. Cal. Feb. 10,
2010) ).

69a
IV. MOTION
FOR
PRELIMINARY
INJUNCTION
Having concluded that Plaintiffs’ claims survive a
motion to dismiss, the Court turns to Plaintiffs’
motion for a preliminary injunction. Plaintiffs seek a
preliminary injunction solely on the basis of their
§ 706(2) claim, ECF No. 21 at 9 n.9, requesting that
the Court order relief “(1) prohibiting Defendants’
continued implementation of the October 13 Memo;
(2) ordering Defendants to return to the pre-October
13, 2017 practices for the accession of LPRs into the
military; and (3) ordering Defendants to permit
Plaintiffs to ship basic training while their
background investigations are pending, as U.S.
nationals are able to do,” id. at 10.
A. Legal Standard
Preliminary relief is “an extraordinary remedy
that may only be awarded upon a clear showing that
the plaintiff is entitled to such relief.” Winter, 555
U.S. at 22, 129 S.Ct. 365. To obtain preliminary
injunctive relief, the moving party must show: (1) a
likelihood of success on the merits; (2) a likelihood of
irreparable harm to the moving party in the absence
of preliminary relief; (3) that the balance of equities
tips in favor of the moving party; and (4) that an
injunction is in the public interest. Id. at 20, 129 S.Ct.
365. “[S]erious questions going to the merits and a
balance of hardships that tips sharply towards the
plaintiff can support issuance of a preliminary
injunction, so long as the plaintiff also shows that
there is a likelihood of irreparable injury and that the
injunction is in the public interest.” All. for the Wild
Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011)
(internal quotation marks omitted).

70a
B. The Record
The Court first addresses threshold questions
regarding the scope of the record for this motion.
The APA instructs that, in reviewing § 706
challenges, “the court shall review the whole record or
those parts of it cited by a party.” 5 U.S.C. § 706.
Therefore, to the extent practicable, a court should
determine a plaintiff’s likelihood of success on the
merits of such a challenge based on the
administrative record. See Am. Bioscience, Inc. v.
Thompson, 243 F.3d 579, 582 (D.C. Cir. 2001)
(holding that the district court abused its discretion
in denying a preliminary injunction by using “the
parties’ written or oral representations to discern the
basis on which the [agency] acted” instead of “calling
for the administrative record”). Because “ ‘[t]he whole
record’ includes everything that was before the
agency pertaining to the merits of its decision,” the
Ninth Circuit has explained that “[a]n incomplete
record must be viewed as a ‘fictional account of the
actual decisionmaking process.’ ” Portland Audubon
Soc. v. Endangered Species Comm., 984 F.2d 1534,
1548 (9th Cir. 1993) (first quoting Thompson v. U.S.
Dep’t of Labor, 885 F.2d 551, 555-56 (9th Cir. 1989);
then quoting Home Box Office, Inc. v. Fed. Commc’ns
Comm’n, 567 F.2d 9, 54 (D.C. Cir. 1977) ). “The
‘whole’ administrative record, therefore, consists of all
documents and materials directly or indirectly
considered by agency decision-makers and includes
evidence contrary to the agency’s position.”
Thompson, 885 F.2d at 555.
The Ninth Circuit permits consideration of
“material outside of the administrative record in four
narrow circumstances:”

71a
1) where the extra-record evidence is “necessary
to determine whether the agency has considered
all relevant factors and has explained its decision”;
2) where “the agency has relied on documents not
in the record”;
3) where “supplementing the record is necessary
to explain technical terms or complex subject
matter”; or
4) where “plaintiffs make a showing of agency bad
faith.”
Cachil Dehe Band of Wintun Indians of Colusa Indian
Cmty. v. Zinke, 889 F.3d 584, 600 (9th Cir. 2018)
(quoting Sw. Ctr. for Biological Diversity v. U.S.
Forest Serv., 100 F.3d 1443, 1451 (9th Cir. 1996) ).
Even where the Court allows such supplementary
evidence, “[c]onsideration of the evidence to
determine the correctness or wisdom of the agency’s
decision is not permitted, even if the court has also
examined the administrative record.” Asarco, Inc. v.
U.S. Envtl. Prot. Agency, 616 F.2d 1153, 1160 (9th
Cir. 1980).
Here, DoD produced a 162-page administrative
record, pursuant to the Court’s order. ECF No. 57. It
is not unduly burdensome to summarize the record’s
contents. It contains the 2-page October 13 Memo, id.
at 5-6, 137 pages of DoD regulations and guidance
documents concerning its general procedures for
enlistment, accession, and security determinations,
id. at 7-143, an additional 14 pages of memos that
pertain solely to the MAVNI program, id. at 146-48,
153-54, 158-66, and a 4-page memo increasing the
requirements for LPR and MAVNI service members
to obtain the “honorable service” certifications

72a
necessary to begin the naturalization process, id. at
149-52.
The only portions of the record that appear to
relate to security screening for LPRs are (1) a 2-page
“background” document summarizing findings of a
2017 study on “Gaps in Vetting of Legal Permanent
Residents (LPRs) who Obtain Citizenship via Joining
the U.S. Military” (“2017 Study”), id. at 144-45; and
(2) and a single statement in another memo regarding
MAVNI accessions that states: “[B]ecause we believe
[LPRs] share[ ] many of the same risk factors with the
MAVNI population, we believe current policy is
insufficient to mitigate risk,” id. at 157. Notably,
DoD’s supplemental brief also cites only those latter
two documents as the basis for its decision that
change the timing of LPR background investigations
was warranted. ECF No. 65 at 2-3.
1. Classified Information
DoD admits that the record is not complete. In its
certification of the administrative record, DoD
explained that the record contained only “all
unclassified information” that Under Secretary Kurta
considered. ECF No. 57 at 2. DoD urged the Court to
resolve this case on “the basis of the unclassified
record,” but “reserve[d] the right to seek relief from
the Court in order to protect this classified record.”
Id. at 2 n.1. DoD cites no authority for its ability to
unilaterally withhold classified information from the
administrative record.
The Court is sensitive to the need to protect the
confidentiality of information that bears on national
security, including classified information. But there
are established routes for addressing those concerns.
Most obviously, DoD “may provide the Court with

73a
classified information.” Washington v. Trump, 847
F.3d 1151, 1168 n.8 (9th Cir.), reconsideration en banc
denied, 858 F.3d 1168 (9th Cir. 2017), and
reconsideration en banc denied, 858 F.3d 1168 (9th
Cir. 2017), and cert. denied sub nom. Golden v.
Washington, ––– U.S. ––––, 138 S.Ct. 448, 199
L.Ed.2d 331 (2017) (“Courts regularly receive
classified information under seal and maintain its
confidentiality. Regulations and rules have long been
in place for that.”) (citing 28 C.F.R. § 17.17(c)
(describing Department of Justice procedures to
protect classified materials in civil cases); 28 C.F.R.
§ 17.46(c) (“Members of Congress, Justices of the
United States Supreme Court, and Judges of the
United States Courts of Appeal and District Courts do
not require a determination of their eligibility for
access to classified information . . . .”) ); De Sousa v.
Dep’t of State, 840 F.Supp.2d 92, 104 (D.D.C. 2012)
(concluding that a court “has the discretion to order
disclosure of classified information to the Court in a
civil case where the information is material to the
resolution of disputed legal issues and where
alternatives to reliance upon classified information
are inadequate to satisfy the interests of justice”);
Islamic Am. Relief Agency v. Unidentified FBI Agents,
394 F.Supp.2d 34, 45 (D.D.C. 2005) (upholding agency
action under § 706(2) based on “both the classified and
unclassified administrative record” provided to the
court), aff’d in part and remanded sub nom. Islamic
Am. Relief Agency v. Gonzales, 477 F.3d 728 (D.C. Cir.
2007). At today’s hearing, DoD acknowledged that it
could have used these avenues to provide further data
to the Court, but chose not to do so.
Alternatively, DoD can assert “the state secrets
doctrine,” which “encompasses a ‘privilege against

74a
revealing military [or state] secrets.’ ” Mohamed v.
Jeppesen Dataplan, Inc., 614 F.3d 1070, 1079 (9th Cir.
2010) (alteration in original) (quoting United States v.
Reynolds, 345 U.S. 1, 6-7, 73 S.Ct. 528, 97 L.Ed. 727
(1953) ). Because this privilege “is not to be lightly
invoked,” it requires “a formal claim of privilege,
lodged by the head of the department which has
control over the matter, after actual personal
consideration by that officer.” Id. at 1081 (quoting
Reynolds, 345 U.S. at 7-8, 73 S.Ct. 528). The Court
must then must independently determine that “from
all the circumstances of the case, that there is a
reasonable danger that compulsion of the evidence
will expose . . . matters which, in the interest of
national security, should not be divulged.” Id.
(alteration in original) (quoting Reynolds, 345 U.S. at
10, 73 S.Ct. 528). If the government satisfies these
first two steps, then “the evidence is completely
removed from the case.”
Id. at 1082 (citation
omitted).
DoD has done none of those things here. The
Court will therefore proceed to assess Plaintiffs’
likelihood of success on the merits based on the record
before the Court.
2. Smith Declaration
First, the Court must determine whether the
record properly includes the declaration of Roger
Smith, which DoD submitted in support of its
opposition to this motion.
See ECF No. 42-1.
Plaintiffs initially sought to strike Smith’s
declaration, and the Court deferred ruling on the
request until production of the administrative record,
ECF No. 54, so that the Court could evaluate whether
the declaration was “necessary to explain technical

75a
terms or complex subject matter,” Cachil Dehe Band
of Wintun Indians, 889 F.3d at 600.
Having reviewed the administrative record and
the Smith declaration, the Court finds that it cannot
consider the Smith declaration as support for DoD’s
decision. As an initial matter, the Smith declaration
is not “necessary to explain technical terms or
complex subject matter.” Id. DoD argues that the
declaration offers further explanation of the classified
information that it has withheld from the record.
ECF No. 65 at 6. As explained above, DoD has not
sufficiently supported its withholding of that
information or shown that the proper course is to
provide a post-hoc summary rather than providing
the underlying information itself, in its entirety, with
tailored redactions25 or for in camera review.
Moreover, purportedly explanatory extra-record
evidence cannot supply the basis for the Court “to
determine the correctness or wisdom of the agency’s
decision.” Asarco, 616 F.2d at 1160.
Even were the Court to accept the post-hoc Smith
declaration as a substitute for a complete
administrative record, the current record does not
contain, even in summary form, any corresponding
25 If additional evidence exists that might support the

October 13 Memo, the Court is not convinced that none of it is
unclassified. For example, one asserted justification for the
October 13 memo is contained in Under Secretary Kurta’s
September 22, 2017 memorandum where he states that LPRs
“share[ ] many of the same risk factors with the MAVNI
population.” ECF No. 57 at 157. But DoD disclosed the
percentage of MAVNI investigations that resulted in negative
suitability determinations. See ECF No. 57 at 156-57. So it is
difficult to understand why the production of similar data
regarding LPRs, if it exists, would implicate national security.

76a
information with which to anchor the Smith
declaration’s “additional” explanation. The “Most
Significant Findings” of the 2017 Study, as presented
in the record, relate to information-sharing between
different agency components and whether certain
procedures are used.
ECF No. 57 at 144-45.
Regarding the key question in this motion – whether
there is a rational connection between the evidence
before DOD and its conclusion that LPRs as a class
must complete all investigations and screening
prior to accessing – the record contains only DoD’s
unadorned conclusion that “current policy is
insufficient to mitigate risk” posed by LPRs. Id. at
157. That single sentence does not permit DoD to
bootstrap by vague assertion, in effectively
unrebuttable form, that LPRs provide a greater
classwide risk and that “particular LPR enlistees
have posed a grave threat to national security.” ECF
No. 42-1 at 7-8. Either there is no evidence to support
the assertion or DoD has intentionally chosen not to
provide it. Either way, the existing record gives the
Court no assurance that the Smith declaration is
“explanatory in nature, rather than a new
rationalization of the agency’s decision.” Kunaknana
v. Clark, 742 F.2d 1145, 1149 (9th Cir. 1984). So, even
if the Court accepted DoD’s invitation to create a fifth
exception for extra-record evidence that explains
classified information, cf. Cachil Dehe Band of
Wintun Indians, 889 F.3d at 600, it would not aid DoD
here, because the record gives no contemporaneous
indication that this type of evidence was considered
by the decisionmaker, see Kunaknana, 742 F.2d at
1149 (claim that extra-record evidence is explanatory
“must be sustained by the record”). The Court cannot
simply take the assertion on faith.

77a
Nonetheless, though not addressed by the parties,
the Court must also consider whether the Smith
declaration has any legitimate purpose in deciding
this motion. While the Court’s consideration of extrarecord evidence is carefully circumscribed in
evaluating the merits of Plaintiffs’ APA claim, “the
Court is not limited to the administrative record”
when “assessing how the issuance of an injunction
may harm the public interest.” Nat. Res. Def. Council,
Inc. v. Evans, No. C-02-3805-EDL, 2003 WL
22025005, at *1 (N.D. Cal. Aug. 26, 2003) (citation
omitted); see also Winter, 555 U.S. at 24, 129 S.Ct. 365
(relying on “declarations from some of the Navy’s
most senior officers” as to how a preliminary
injunction would impact the Navy’s training exercises
for the public interest prong). Accordingly, the Court
declines to strike the Smith declaration at this time
but will not consider its assertions as support for the
merits of DoD’s policy.
C. Nature of Injunctive Relief
DoD argues that Plaintiffs are subject to a
heightened standard because they seek a mandatory
rather than a prohibitory injunction. ECF No. 42 at
43-44. The argument is not persuasive.
“A mandatory injunction orders a responsible
party to take action,” while “[a] prohibitory injunction
prohibits a party from taking action and preserves the
status quo pending a determination of the action on
the merits.” Ariz. Dream Act Coal., 757 F.3d at 1060
(citation omitted). The relevant status quo consists of
“the last, uncontested status which preceded the
pending controversy.” Bay Area Addiction Research
& Treatment, Inc. v. City of Antioch, 179 F.3d 725, 732
n.13 (9th Cir. 1999) (citation omitted).

78a
Here, Plaintiffs seek a prohibitory injunction to
“prohibit enforcement of a new law or policy.” Ariz.
Dream Act Coal., 757 F.3d at 1061. That DoD will
have to perform other, affirmative acts based on the
old policy does not transform this “classic form of
prohibitory injunction” into a mandatory one.
Hernandez v. Sessions, 872 F.3d 976, 998 (9th Cir.
2017).
D. Likelihood of Success on the Merits
As described above, the Court reviews with great
deference whether DoD has “articulate[d] a
satisfactory explanation for its action including a
rational connection between the facts found and the
choice made.” Encino Motorcars, 136 S.Ct. at 2125
(quoting State Farm, 463 U.S. at 43, 103 S.Ct. 2856).
DoD cannot articulate such a connection, and its
explanation therefore fails at the outset, because it
has simply withheld all of the relevant facts. See
State Farm, 463 U.S. at 43, 103 S.Ct. 2856 (requiring
a court to consider whether the agency has “offered an
explanation for its decision that runs counter to the
evidence before the agency”); Santillan v. Gonzales,
388 F.Supp.2d 1065, 1078 (N.D. Cal. 2005) (“Without
the ability to examine the studies cited by defendants
in order to determine whether they support the
[challenged] policy change, this court is unable to
conclude that the policy change had any rational
basis.”).
The only quasi-factual elements of the record
related to LPRs are set forth in the background
summary of the 2017 Study. As relevant here, the
2017 Study concluded that the government was not
doing certain things that rendered its background
investigations of LPRs ineffective. First, because

79a
LPRs are never eligible to receive classified
information, see ECF No. 57 at 89 § 6.1, the DOD
Consolidated Adjudication Facility did “not review or
adjudicate Tier 3 investigations,” instead issuing “a
No Determination Made.” Id. at 144. Accordingly,
this created a risk that “derogatory information
discovered in the investigation” would not be “acted
upon accordingly.” Id. Second, DOD’s “central
biometric repository for terrorist data from a range of
combatant commands and military services” was “not
being systematically queried as part of the fingerprint
check being conducted for military accessions.” Id.
“[R]elying only on name-based [counterterrorism]
checks,” impaired “DoD’s ability to positively identify
terrorists and other national security threats.” Id. at
144-45. Finally, DoD did not have access to LPRs’
green card or visa applications. Id. at 145. Likewise,
DHS was not provided access to derogatory
information identified by DoD. Id.26
Even considering the Study’s bare conclusions,
none of these findings rationally support the October
13 Memo’s policy change. Because nothing in the
administrative
record
suggests
that
these
information-sharing defects were caused by
permitting LPRs to ship to basic training prior to the
completion of background checks, there is no rational
basis to believe that preventing LPRs from shipping
to basic training will fix these problems.
Cf.
Santillan, 388 F.Supp.2d at 1079. Nor does the
26 The 2017 Study additionally conclude that LPRs

comprised roughly 79 percent of the Tier 3 and NACLC
investigations conducted for non-U.S. citizens during fiscal year
2016, and that further research was needed to determine
whether a National Intelligence Agency Check should be
adopted across all military components. ECF No. 57 at 144.

80a
record indicate that DoD could not fix those problems
without requiring completed investigations prior to
LPRs shipping to basic training. For instance, the
record does not state, and DoD does not now argue,
that the timing change enacted by the October 13
Memo in any way impacted its ability to
systematically query its biometric database or share
information with DHS. See ECF No. 57 at 144-45.
DoD argues that its decision is supported by the
finding that it was not adjudicating Tier 3
investigations for LPRs or acting on derogatory
information that could have been revealed. ECF No.
65 at 2. That suggests, logically enough, that DoD
should in fact adjudicate those investigations for
LPRs and act on derogatory information. Though the
October 13 Memo requires DoD to do so, ECF No. 57
at 5-6, Plaintiffs do not challenge that aspect of the
policy, see Compl. ¶¶ 109-116. But the record does not
suggest that DoD was unable to adjudicate those
investigations because LPRs shipped to basic
training.
Rather, all military personnel must
undergo those investigations, see ECF No. 57 at 74
§ 4.2, and U.S. citizens continue to ship to basic
training prior to the completion of those
investigations.
In interpreting the 2017 Study, the Court does not
purport to “to substitute its judgment for that of the
agency.” F.C.C. v. Fox Television Stations, Inc., 556
U.S. 502, 513, 129 S.Ct. 1800, 173 L.Ed.2d 738 (2009)
(citation omitted). Rather, DoD has simply provided
no explanation for how the 2017 Study’s findings
support its policy choice, and “where the agency has
failed to provide even that minimal level of analysis,
its action is arbitrary and capricious.” See Encino
Motorcars, 136 S.Ct. at 2125.

81a
DoD’s remaining argument hinges on its
conclusion that the class of LPRs “shares many of the
same risk factors with the MAVNI population.” ECF
No. 57 at 157. DoD’s post-hoc explanation of these
factors is that, like MAVNI recruits, LPRs have more
extensive relationships with foreign countries than do
U.S. citizens. ECF No. 65 at 2-3. But DoD has given
no reason to think that this was not the case during
the prior policy. And where an agency’s “new policy
rests upon factual findings that contradict those
which underlay its prior policy,” it must provide “a
reasoned explanation . . . for disregarding facts and
circumstances that underlay or were engendered by
the prior policy.” Organized Vill. of Kake v. U.S. Dep’t
of Agric., 795 F.3d 956, 966 (9th Cir. 2015) (en banc)
(quoting Fox, 556 U.S. at 515-16, 129 S.Ct. 1800).
Moreover, the record provides no indication of the
risk that LPRs pose compared to U.S. citizens.
Curiously, DoD contends that it need not have made
such a comparison. ECF No. 65 at 4. But the precise
policy change at issue is that DoD began to treat LPRs
as presumptive security risks, while presuming that
U.S citizens did not pose such a risk. If there was no
evidence that LPRs posed a greater security risk, this
policy change is by definition arbitrary and
capricious. See Organized Vill. of Kake, 795 F.3d at
969.
In sum, DoD has simply provided no evidence to
support a rational connection between the facts and
its choice, nor any indication that “the process by
which it reache[d] that result [was] logical and
rational.” Michigan, 135 S.Ct. at 2706 (citation
omitted).
Therefore, the Court concludes that
Plaintiffs are likely to succeed on the merits of their
§ 706(2) claim.

82a
E. Irreparable Harm
The Court next considers whether Plaintiffs have
adequately demonstrated that they are likely to suffer
irreparable harm in the absence of a preliminary
injunction.
Plaintiffs cite three forms of harm: (1) damage to
their career prospects, ECF No. 21 at 24-28; (2)
economic harm in the form of lost service pay and
other benefits, id. at 29-30; and (3) a delay in
obtaining U.S. citizenship through the expedited
naturalization process available to military members,
id. at 30.
The Court first addresses Plaintiffs’ career
prospects.
The Ninth Circuit has held that
“diminished . . . opportunity to pursue [plaintiffs’]
chosen professions” constitutes an irreparable injury,
one which is particularly acute “early in their
careers.” Ariz. Dream Act Coal., 757 F.3d at 1068
(citing Enyart v. Nat’l Conference of Bar Exam’rs, Inc.,
630 F.3d 1153, 1165-66 (9th Cir. 2011) ). More
particularly, courts have recognized irreparable harm
stemming from delayed accession into active military
service. See Tiwari v. Mattis, No. C17-242 TSZ, 2018
WL 1737783, at *7 (W.D. Wash. Apr. 11, 2018)
(“Among other setbacks, this limitation has precluded
MAVNI soldiers from performing in the roles they
were recruited for, prevented them from advancing in
their careers, spoiled the currency of their
qualifications and training, and reduced the amount
of pay they are eligible to receive.”); Doe 1 v. Trump,
275 F.Supp.3d 167, 216 (D.D.C. 2017) (ban on
accession of transgender recruits “stunts the growth
of their careers, and threatens to derail their chosen
calling
or
access
to
unique
educational
opportunities”), stay denied, 2017 WL 6553389, at *3

83a
(D.C. Cir. Dec. 22, 2017) (finding that “the enjoined
accession ban would directly impair and injure the
ongoing educational and professional plans of
transgender individuals”).
It is undisputed that DoD projected that LPRs’
time in delayed entry programs would “likely exceed
one year while awaiting completion of the screening
requirements,” ECF No. 57 at 157, and Kuang’s and
Cooke’s own experiences further support that
projection. Whether Kuang may ship out soon, ECF
No. 42 at 45, is immaterial to whether Plaintiffs as a
class will continue to experience year-long delays.
Similarly, whether Plaintiffs’ enlistment contracts
provided that they could be ordered to active duty at
any time, id., is irrelevant to whether the October 13
Memo causes such delays. Plaintiffs have provided
evidence that these delays impact the long-term
trajectories of military and post-military careers.
ECF No. 26 ¶¶ 17-25. DoD argues that cases like Doe
1 and Tiwari involved additional harms, ECF No. 42
at 47-49, but do not rebut the evidence that a one-year
delay does cause harm to career prospects. In light of
Ninth Circuit precedent recognizing irreparable
injury flowing from general delay of the ability to
pursue a career, see, e.g., Enyart, 630 F.3d at 1165,
Plaintiffs need not show that Doe 1 and Tiwari are
indistinguishable.
Moreover, there is a second form of irreparable
injury present here that was not implicated in Doe 1,
because the October 13 Memo delays Plaintiffs’ ability
to obtain citizenship through their military service.
See Kirwa, 285 F.Supp.3d at 42 (“[D]elaying
naturalization applications after applicants have
been promised an expedited path to citizenship
constitutes irreparable harm.”) (citing Nio, 270

84a
F.Supp.3d at 62). It is true, as DoD points out, that
its newly adopted policy requires LPRs to have
completed background investigations prior to
naturalization under 8 U.S.C. § 1440. ECF No. 57 at
149-50. But it is equally true that, under this same
policy, LPRs must also have a total of 180 days of
active service, including basic training, before they
can be certified for honorable service, another
prerequisite to the expedited naturalization process.
Id. at 150. Plaintiffs’ inability to begin basic training
until after their complete investigations plainly
delays this process. The Court further rejects DoD’s
suggestion that Plaintiffs suffer no injury from the
loss of this opportunity. ECF No. 42 at 50. Statutory
eligibility for naturalization is an important benefit of
military service, and Kuang’s and Cooke’s
declarations make clear that the military was in the
practice of using that benefit as a recruiting tool. ECF
No. 24 ¶ 8; ECF No. 25 ¶ 10. While Plaintiffs have no
“right to naturalization,” they can still suffer
irreparable harm from unjustified delays in the
process.
Finally, while DoD repeatedly asserts that various
injuries were not “caused” by the October 13 Memo,
the test is whether “irreparable injury is likely in the
absence of an injunction.” M.R. v. Dreyfus, 697 F.3d
706, 728 (9th Cir. 2012). A plaintiff “need not further
show that the action sought to be enjoined is the
exclusive cause of the injury.” Id.
Accordingly, the Court concludes that Plaintiffs
have demonstrated irreparable harm.27

27 The Court therefore does not reach Plaintiffs’ asserted
stigmatic and economic injuries.

85a
F. Balance of Equities and Public Interest
The Court turns to the final two Winter factors.
“When the government is a party, these last two
factors merge.” Drakes Bay Oyster Co. v. Jewell, 747
F.3d 1073, 1092 (9th Cir. 2014).
DoD argues that it has valid national security
concerns regarding the accession of LPRs prior to the
completion of background investigations. ECF No. 42
at 54. The country’s national security is obviously of
the utmost importance, and the Court will give due
deference to that consideration, when present, as it
analyzes the balance of harms. Before it can do so,
however, there must be evidence that the concern
actually is present. Defendants have not given the
Court anything from which it could reach that
threshold conclusion. Simply put, “[a] bare invocation
of ‘national defense’ simply cannot defeat every
motion for preliminary injunction that touches on the
military.” Doe 1, 275 F.Supp.3d at 217.
By contrast, there is substantial, uncontradicted
evidence before the Court – including evidence from
the military itself – that the policy set forth in the
October 13 Memo actually impairs the military’s
recruitment goals and undermines military
readiness. See ECF No. 57 at 157 (Under Secretary
Kurta’s statement that the policy “will impact the
ability of some Military Service components to make
recruiting mission in FY 2018”); see also ECF No. 23
¶¶ 19-24 (former Secretary of Army’s declaration that
policy impacts military objectives). Former Secretary
of the Army Eric K. Fanning opines without rebuttal
that “the recently announced policy change is causing
significant harm to both LPRs serving in the military
and the efficacy of the military itself,” ECF No. 23
¶ 17, and “will likely dissuade many qualified LPRs

86a
from enlisting in the military due to the lengthy
delays in accession and uncertainty surrounding
shipment dates,” making it difficult for the military to
meet its recruiting goals, id. ¶ 22. Thus, a policy with
the stated goal of improving the country’s national
security is likely to actually undermine that goal by
impairing military readiness. That does not serve the
public interest.
There are additional equities on Plaintiffs’ side.
Kuang and Cooke, and likely many other LPR class
members as well, enlisted prior to the October 13
Memo, only to face an entirely different policy after
enlistment. Their ability to apply for citizenship after
a fixed period of military service has been frustrated
by a delay of unknown length in beginning that
service. Finally, “in the balancing of equities, it must
be remembered that all Plaintiffs seek during this
litigation is to serve their Nation with honor and
dignity, volunteering to face extreme hardships, to
endure lengthy deployments and separation from
family and friends, and to willingly make the ultimate
sacrifice of their lives if necessary to protect the
Nation, the people of the United States, and the
Constitution against all who would attack them.” See
Doe 1 v. Trump, 2017 WL 6553389, at *3.
For these reasons, the Court concludes that the
balance of equities and the public interest favor
granting an injunction and Plaintiffs’ motion for a
preliminary injunction is granted.
CONCLUSION
For the foregoing reasons, the Court (1) GRANTS
Plaintiffs’ motion for class certification; (2) DENIES
DoD’s motion to dismiss; and (3) GRANTS Plaintiffs’
motion for preliminary injunction. The Court hereby

87a
ENJOINS Defendants and their officers, agents,
servants, employees, and attorneys, and any other
person or entity subject to their control or acting
directly or indirectly in concert or participation with
Defendants from taking any action continuing to
implement the October 13 Memo and ORDERS
Defendants to return to the pre-October 13, 2017
practices for the accession of Lawful Permanent
Residents into the military.28
This Preliminary Injunction shall take effect
immediately and shall remain in effect pending
resolution of this action on the merits or further order
of this Court.
IT IS SO ORDERED.

28 In their moving papers, Plaintiffs request the Court also

order “Defendants [to] permit Plaintiffs to ship out to basic
training while their background investigations are pending, as
U.S. nationals are able to do.” ECF No. 21-1 at 2. Because
Plaintiffs request the same relief as that granted to the class as
a whole, the Court has not added a provision specific only to
them.

88a
FILED
FEB 1 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JIAHAO KUANG and
DERON COOKE, on behalf
of themselves and those
similarly situated,
Plaintiffs–Appellees,
v.

No. 18-17381
D.C. No. 3:18–cv–
03698–JST
Northern District of
California,
San Francisco

UNITED STATES
ORDER
DEPARTMENT OF
DEFENSE and JAMES
MATTIS, in his official
capacity as Secretary of
Defense of the United States
Department of Defense
Defendants–Appellants.
Before: THOMAS, Chief Judge, GOULD and PAEZ,
Circuit Judges,
To the extent that appellees’ motion to strike
(Docket Entry No. 13) seeks to strike the declaration
of Stephanie P. Miller for the purposes of resolving
the pending motion to stay the district court’s
November 16, 2018 order, the request is denied. The
motion to strike is otherwise referred to the panel
assigned to decide the merits of this appeal.

89a
Appellants’ motion (Docket Entry No. 9) to stay
the district court’s November 16, 2018 order pending
appeal is denied. See Winter v. Natural Res. Def.
Council, Inc., 555 U.S. 7, 20 (2008).
The previously established briefing schedule
remains in effect.
GOULD, Circuit Judge, dissenting:
I would grant the stay pending appeal because I
conclude that the factors set forth in Wenger v.
Monroe, 282 F.3d 1068, 1072 (9th Cir. 2002), as
amended on denial of reh’g and reh’g en banc (Apr. 17,
2002), analyzing the test initially formulated by the
Fifth Circuit in Mindes v. Seaman, 453 F.2d 197 (5th
Cir. 1971), do not support justiciability of the class’s
claims here. The strength of the named Plaintiffs’
claims are not very strong, because at most the new
Department of Defense policy requires a delay in class
members’ entry into basic training until after their
background checks have been completed. At most,
the injury is a delay in reporting to basic training for
an individual if that person’s background check
proves one that is safe for the military, and if the
person is thought not safe for the military based on
the background check, then there’s no recognizable
harm at all. By contrast, the extent of interference
with military functions is at its zenith where the
military is concerned that those without completed
checks may pose national security concerns. And
similarly, the judgments to be made on this subject
are of the type that should be within military
discretion because the expertise of the military on
national security matters is paramount. And even if
the class’s claims are justiciable, the factors
governing stay pending appeal, under Washington v.
Trump, 847 F.3d 1151, 1164 (9th Cir. 2017), favor a

90a
stay. Because I conclude that the claims of the class
are weak, if not non-justiciable, I also conclude that
the Department of Defense, which has the key
expertise to assess national security concerns, is most
likely to prevail. If a person enters military basic
training at a military base, and harbors interests
hostile to the United States government, then there is
a likelihood of irreparable harm to the government. I
also think that the public interest favors completion
of background checks before a person enters the
military. Respectfully, the stay pending appeal
requested by the Department of Defense should be
granted.

91a
FILED
NOV 1 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JIAHAO KUANG; DERON
COOKE, on behalf of
themselves and those
similarly situated,
Petitioner–Appellees,
v.

No. 18-17381
D.C. No.
3:18–cv–03698–JST
Northern District of
California,
San Francisco

UNITED STATES
ORDER
DEPARTMENT OF
DEFENSE; JAMES
MATTIS, in his official
capacity as Secretary of
Defense of the United States
Department of Defense
Respondents–Appellants.
Before: GOULD and IKUTA, Circuit Judges, and
PEARSON,* District Judge.
The full court has been advised of the Petition for
Rehearing En Banc and no judge of the court has
requested a vote on the Petition for Rehearing En

*
The Honorable Benita Y. Pearson, United States District
Judge for the Northern District of Ohio, sitting by designation.

92a
Banc. Fed. R. App. P. 35. Appellee’s Petition for
Rehearing En Banc is DENIED.

93a
5 U.S.C. § 701(b)(1)(G)
§ 701. Application; definitions
***
(b) For the purpose of this chapter—
(1) “agency” means each authority of the
Government of the United States, whether or not it is
within or subject to review by another agency, but
does not include—
***
(G) military authority exercised in the field
in time of war or in occupied territory; . . . .
***

94a
5 U.S.C. § 706(2)(A)
§ 706. Scope of review
To the extent necessary to decision and when
presented, the reviewing court shall decide all
relevant questions of law, interpret constitutional and
statutory provisions, and determine the meaning or
applicability of the terms of an agency action. The
reviewing court shall—
***
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with
law . . . .
***
In making the foregoing determinations, the court
shall review the whole record or those parts of it cited
by a party, and due account shall be taken of the rule
of prejudicial error.

95a
8 U.S.C. § 1439(a)
§ 1439. Naturalization through service in the
armed forces
(a) Requirements
A person who has served honorably at any time in
the armed forces of the United States for a period or
periods aggregating one year, and, who, if separated
from such service, was never separated except under
honorable conditions, may be naturalized without
having resided, continuously immediately preceding
the date of filing such person’s application, in the
United States for at least five years, and in the State
or district of the Service in the United States in which
the application for naturalization is filed for at least
three months, and without having been physically
present in the United States for any specified period,
if such application is filed while the applicant is still
in the service or within six months after the
termination of such service.
***

96a
8 U.S.C. § 1440(a)
§ 1440. Naturalization through active-duty
service in the Armed Forces during World
War I, World War II, Korean hostilities,
Vietnam hostilities, or other periods of
military hostilities
(a) Requirements
Any person who, while an alien or a noncitizen
national of the United States, has served honorably
as a member of the Selected Reserve of the Ready
Reserve or in an active-duty status in the military,
air, or naval forces of the United States during either
World War I or during a period beginning September
1, 1939, and ending December 31, 1946, or during a
period beginning June 25, 1950, and ending July 1,
1955, or during a period beginning February 28, 1961,
and ending on a date designated by the President by
Executive order as of the date of termination of the
Vietnam hostilities, or thereafter during any other
period which the President by Executive order shall
designate as a period in which Armed Forces of the
United States are or were engaged in military
operations involving armed conflict with a hostile
foreign force, and who, if separated from such service,
was separated under honorable conditions, may be
naturalized as provided in this section if (1) at the
time of enlistment, reenlistment, extension of
enlistment, or induction such person shall have been
in the United States, the Canal Zone, American
Samoa, or Swains Island, or on board a public vessel
owned or operated by the United States for
noncommercial service, whether or not he has been
lawfully admitted to the United States for permanent
residence, or (2) at any time subsequent to enlistment

97a
or induction such person shall have been lawfully
admitted to the United States for permanent
residence. The executive department under which
such person served shall determine whether persons
have served honorably in an active-duty status, and
whether separation from such service was under
honorable conditions: Provided, however, That no
person who is or has been separated from such service
on account of alienage, or who was a conscientious
objector who performed no military, air, or naval duty
whatever or refused to wear the uniform, shall be
regarded as having served honorably or having been
separated under honorable conditions for the
purposes of this section. No period of service in the
Armed Forces shall be made the basis of an
application for naturalization under this section if the
applicant has previously been naturalized on the
basis of the same period of service.
***

98a
8 U.S.C. § 1446
§ 1446. Investigation of applicants; examination
of applications
(a) Waiver
Before a person may be naturalized, an employee
of the Service, or of the United States designated by
the Attorney General, shall conduct a personal
investigation
of
the
person
applying
for
naturalization in the vicinity or vicinities in which
such person has maintained his actual place of abode
and in the vicinity or vicinities in which such person
has been employed or has engaged in business or
work for at least five years immediately preceding the
filing of his application for naturalization. The
Attorney General may, in his discretion, waive a
personal investigation in an individual case or in such
cases or classes of cases as may be designated by him.
(b) Conduct of examinations;
designees; record

authority

of

The Attorney General shall designate employees
of the Service to conduct examinations upon
applications for naturalization. For such purposes
any such employee so designated is authorized to take
testimony concerning any matter touching or in any
way affecting the admissibility of any applicant for
naturalization, to administer oaths, including the
oath of the applicant for naturalization, and to require
by subpena the attendance and testimony of
witnesses, including applicant, before such employee
so designated and the production of relevant books,
papers, and documents, and to that end may invoke
the aid of any district court of the United States; and
any such court may, in the event of neglect or refusal

99a
to respond to a subpena issued by any such employee
so designated or refusal to testify before such
employee so designated issue an order requiring such
person to appear before such employee so designated,
produce relevant books, papers, and documents if
demanded, and testify; and any failure to obey such
order of the court may be punished by the court as a
contempt thereof. The record of the examination
authorized by this subsection shall be admissible as
evidence in any hearing conducted by an immigration
officer under section 1447(a) of this title. Any such
employee shall, at the examination, inform the
applicant of the remedies available to the applicant
under section 1447 of this title.
(c) Transmittal of record of examination
The record of the examination upon any
application for naturalization may, in the discretion
of the Attorney General be transmitted to the
Attorney General and the determination with respect
thereto of the employee designated to conduct such
examination shall when made also be transmitted to
the Attorney General.
(d) Determination to grant or deny application
The employee designated to conduct any such
examination shall make a determination as to
whether the application should be granted or denied,
with reasons therefor.
(e) Withdrawal of application
After an application for naturalization has been
filed with the Attorney General, the applicant shall
not be permitted to withdraw his application, except
with the consent of the Attorney General. In cases
where the Attorney General does not consent to the

100a
withdrawal of the application, the application shall be
determined on its merits and a final order
determination made accordingly. In cases where the
applicant fails to prosecute his application, the
application shall be decided on the merits unless the
Attorney General dismisses it for lack of prosecution.
(f) Transfer of application
An applicant for naturalization who moves from
the district of the Service in the United States in
which the application is pending may, at any time
thereafter, request the Service to transfer the
application to any district of the Service in the United
States which may act on the application. The transfer
shall not be made without the consent of the Attorney
General.
In the case of such a transfer, the
proceedings on the application shall continue as
though the application had originally been filed in the
district of the Service to which the application is
transferred.

101a
10 U.S.C. § 504(b)
§ 504. Persons not qualified
***
(b) CITIZENSHIP OR RESIDENCY.—(1) A person may
be enlisted in any armed force only if the person is one
of the following:
(A) A national of the United States, as defined
in section 101(a)(22) of the Immigrationand
Nationality Act (8 U.S.C. 1101(a)(22)).
(B) An alien who is lawfully admitted for
permanent residence, as defined in section
101(a)(20) of the Immigration and Nationality Act
(8 U.S.C. 1101(a)(20)).
(C) A person described in section 341 of one of
the following compacts:
(i) The Compact of Free Association
between the Federated States of Micronesia
and the United States (section 201(a) of Public
Law 108-188 (117 Stat. 2784; 48 U.S.C. 1921
note)).
(ii) The Compact of Free Association
between the Republic of the Marshall Islands
and the United States (section 201(b) of Public
Law 108-188 (117 Stat. 2823; 48 U.S.C. 1921
note)).
(iii) The Compact of Free Association
between Palau and the United States (section
201 of Public Law 99-658 (100 Stat. 3678; 48
U.S.C. 1931 note)).
(2) Notwithstanding paragraph (1), and subject to
paragraph (3), the Secretary concerned may authorize
the enlistment of a person not described in paragraph

102a
(1) if the Secretary determines that such person
possesses a critical skill or expertise—
(A) that is vital to the national interest; and
(B) that the person will use in the primary
daily duties of that person as a member of the
armed forces.
(3)(A) No person who enlists under paragraph (2)
may report to initial training until after the Secretary
concerned has completed all required background
investigations and security and suitability screening
as determined by the Secretary of Defense regarding
that person.
(B) A Secretary concerned may not authorize
more than 1,000 enlistments under paragraph
(2) per military department in a calendar year
until after—
(i) the Secretary of Defense submits to
Congress written notice of the intent of that
Secretary concerned to authorize more than
1,000 such enlistments in a calendar year; and
(ii) a period of 30 days has elapsed after the
date on which Congress receives the notice.

103a
32 C.F.R. § 66.6(b)(8)(vi)
§ 66.6 Enlistment, appointment, and induction
criteria.
***
(b) Basic eligibility criteria.—
***
(8) Character/conduct. The underlying purpose of
these enlistment, appointment, and induction
standards is to minimize entrance of persons who are
likely to become disciplinary cases, security risks, or
who are likely to disrupt good order, morale, and
discipline. The Military Services are responsible for
the defense of the Nation and should not be viewed as
a source of rehabilitation for those who have not
subscribed to the legal and moral standards of society
at-large. As a minimum, an applicant will be
considered ineligible if he or she:
***
(vi) Receives
an
unfavorable
final
determination by the DoD Consolidated
Adjudication Facility on a completed National
Agency Check with Law and Credit (NACLC) or
higher-level investigation, which is adjudicated to
the National Security Standards in accordance
with Executive Order 12968, during the accession
process.
***

104a
[Seal omitted]
OFFICE OF THE UNDER SECRETARY
OF DEFENSE
4000 DEFENSE PENTAGON
WASHINGTON, D.C. 20301-4000
OCT 13 2017
MEMORANDUM FOR SECRETARIES OF THE
MILITARY DEPARTMENTS
COMMANDANT OF THE COAST GUARD
DIRECTOR, DEPARTMENT OF DEFENSE
CONSOLIDATED ADJUDICATIONS
FACILITY
SUBJECT: Military
Service
Suitability
Determinations for Foreign Nationals
Who Are Lawful Permanent Residents
Reference: (a) 10 U.S. Code §504(b)(l)(B)
(b) Department of Defense Instruction
(DoDI)
1304.26,
“Qualification
Standards
for
Enlistment,
Appointment, and Induction,” March
23, 2015
(c) Security Executive Agent Directive
4, National Security Adjudicative
Guidelines, June 8, 2017
(d) Department of Defense Manual
5200.02, “Procedures for the DoD
Personnel Security Program (PSP),”
April 3, 2017
In order to facilitate process efficiency and the
appropriate sharing of information for security risk
based suitability and security decisions for the
accession of foreign nationals described in reference
(a), effectively immediately a Military Service

105a
Suitability Determination (MSSD) and National
Security Determination (NSD), will be made prior to
such foreign national’s entry into Active, Reserve or
Guard Service.
Following completion of the
appropriate background investigation, the DoD
Consolidated Adjudications Facility (DoD CAF) will
attempt to render favorable MSSD and NSD
recommendations on the foreign national applicant,
applying the National Security Adjudicative
Guidelines at reference (c).
•

If during the NSD or MSSD adjudication at the
DoD CAF, derogatory information is discovered
that cannot be mitigated in accordance with
reference (c), or derogatory information is
discovered that was not previously known to the
Military Service of which the foreign national
applicant will be a member, the DoD CAF will
refer that information to the designated office of
responsibility within the applicant’s Military
Service.
The designated official will take
appropriate action to mitigate the security risk
or discontinue applicant processing for the
individual concerned within 90 days from the
date of the DoD CAF referral, on the basis of
military service suitability disqualification.

•

If the Military Service mitigates the derogatory
information and/or grants a waiver to MSSD
standards, the case and any mitigating
information will be returned to the DoD CAF to
complete the NSD review process. If, after
review, an adverse NSD is rendered, the DoD
CAF will notify the Military Service, which will
discontinue applicant processing for the
individual concerned.

106a
•

In cases in which the foreign national
applicant is not yet a citizen but is
otherwise eligible for a favorable NSD and
MSSD, in accordance with reference (d), a
waiver, deviation, and/or condition, as
necessary and appropriate, will be
annotated
in
the
Joint
Personnel
Adjudication
System,
including
the
annotation of a statement that the
individual is not eligible for access to
classified information until U.S. citizenship
is granted, and then only if the individual’s
position and/or duties require access to
classified information.
s/ A.M. Kurta
A.M. Kurta
Performing the Duties
of Under Secretary of
Defense for Personnel
and Readiness

Cc:
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Intelligence
Under Secretary of Defense for Personnel and
Readiness
Chief of the National Guard Bureau
Assistant Secretary of the Army for Manpower and
Reserve Affairs
Assistant Secretary of the Navy for Manpower and
Reserve Affairs
Assistant Secretary of the Air Force for Manpower
and Reserve Affairs
Director, Washington Headquarters Services

107a
[Seal omitted]
OFFICE OF THE SECRETARY
OF DEFENSE
1000 DEFENSE PENTAGON
WASHINGTON, D.C. 20301-4000
July 30 2019
MEMORANDUM FOR CHIEF MANAGEMENT
OFFICER OF THE DEPARTMENT OF
DEFENSE
SECRETARIES OF THE MILITARY
DEPARTMENTS
CHAIRMAN OF THE JOINT CHIEFS OF STAFF
UNDER SECRETARIES OF DEFENSE
CHIEF OF THE NATIONAL GUARD BUREAU
GENERAL COUNSEL OF THE DEPARTMENT
OF DEFENSE
DIRECTOR,
COST
ASSESSMENT
AND
PROGRAM EVALUATION
INSPECTOR
GENERAL
OF
THE
DEPARTMENT OF DEFENSE
DIRECTOR,
OPERATIONAL
TEST
AND
EVALUATION
CHIEF INFORMATION OFFICER OF THE
DEPARTMENT OF DEFENSE
ASSISTANT SECRETARY OF DEFENSE FOR
LEGISLATIVE AFFAIRS
ASSISTANT TO THE SECRETARY OF
DEFENSE FOR PUBLIC AFFAIRS
DIRECTOR, NET ASSESSMENT
DIRECTORS OF THE DEFENSE AGENCIES
DIRECTORS OF THE DOD FIELD ACTIVITIES
SUBJECT: Directive-type Memorandum (DTM) 19008, “Expedited Screening Protocol
(ESP)”

108a
References: See Attachment 1
Purpose. This DTM:
• Implements
policy,
assigns
responsibilities, and prescribes procedures
by which the Department of Defense
implements the Expedited Screening
Protocol (ESP)—uniform and consistent
standards for a centralized process for the
screening and vetting of individuals
requiring access to DoD systems, facilities,
personnel, information, or operations for
allegiance, foreign preference, or foreign
influence concerns.
• Implements the policies prescribed in
DoD Instruction (DoDI) 1304.26 and in
Section 5.2(a) of Executive Order (E.O.)
12968 for an applicant where a conditional
offer
of
enlistment,
induction,
or
appointment is withdrawn for failure to
obtain favorable ESP results.
• Establishes the implementation of ESP
consistent
with
relevant
governing
documents enumerated in Attachment 1.
• Is effective July 30, 2019 and supersedes
any contradictory guidance in DoD
Instruction 1304.26, DoD Instruction
1332.14, and DoD Manual (DoDM) 5200.02.
These DoD issuances will be updated to
comply with this DTM.
The Military
Departments and the Coast Guard will
implement within 30 days of the effective
date.

109a
• Will be reevaluated within 6 months of
the effective date and expire effective July
30, 2020. Subject to any judicial orders, the
October 13, 2017 Office of the Under
Secretary of Defense for Personnel and
Readiness memorandum shall be held in
abeyance upon the issuance of this DTM.
Based on the results of subsequent ESP
reevaluation, the October 13, 2017 Office of
the Under Secretary of Defense for
Personnel and Readiness memorandum will
be terminated, held in abeyance for an
additional period, or reinstated, as
appropriate.
Applicability. This DTM applies to:
• OSD,
the
Military
Departments
(including the Coast Guard at all times,
including when it is a Service in the
Department of Homeland Security, by
agreement with that Department), the
Office of the Chairman of the Joint Chiefs of
Staff and the Joint Staff, the Combatant
Commands, the Office of the Inspector
General of the Department of Defense, the
Defense Agencies, the DoD Field Activities,
and all other organizational entities within
the DoD.
• Applicants for military service who enter
into a contract for enlistment, induction, or
appointment, and Service members with an
open initial national security background
investigation.
Definitions See Glossary.
Policy. It is DoD policy that:

110a
• Military Departments and the Coast
Guard will account for all Service members
and those individuals who have contracted
into the Delayed Entry Program (DEP) and
the Delayed Training Program (DTP),
through their respective security managers,
who have a military owning or servicing
relationship in the DoD system of record,
the Joint Personnel Adjudication System, or
its successor system. This relationship is
maintained for all Service members,
including Coast Guard personnel, from the
time they are submitted for their first
investigations until they separate from
their respective Armed Forces.
• All applicants for military service who
enter into a contract for service and all
Service members with an open initial
national security background investigation
will be referred for ESP if review of their
Standard Form 86 (SF-86) indicates a need
to screen for potential risk concerning
allegiance to the United States, foreign
preference, or foreign influence concerns.
ESP will augment and enhance vetting
mechanisms used to inform military service
eligibility determinations pertaining to
enlistment, induction, or appointment
within the Military Departments and the
Coast Guard.
• Consistent with the authorities and
guidance set forth in E.O. 13764, Section
1564b of Title 10, U.S.C., the Federal

111a
Investigative Standards, and Section 925 of
Public Law 115-91, this process will be:
o Applied to military accession
populations with open initial national
security background investigations.
These individuals will be referred for
ESP if a need to screen for potential
risks associated with allegiance to the
United States, foreign preference, or
foreign influence concerns is identified
through a review of their Standard
Form (SF) 86.
o Applied to identify the above
potential risk indicators and meet
requirements and guidelines outlined
in the Federal Investigative Standards
for Tier 3 / Tier 5 investigations and
Guidelines A, B, and C of the National
Adjudicative Guidelines found in
Security Executive Agent Directive 4.
•

Nothing in this DTM:
o Change policies governing
National Security Determinations.
o Precludes DoD from using
ESP for other purposes, including, but
not limited to, support of vetting
processes that inform decisions for
national security purposes (e.g.,
eligibility for or access to classified
information or to hold a sensitive
position), for suitability and fitness,
and for purposes of issuing a federal
identity credential in accordance with
applicable law and policy.

112a
Responsibilities. See Attachment 2.
Procedures. See Attachment 3.
Information Collection Requirements. The
requirement for data collection in this DTM does not
require licensing with a report control symbol in
accordance with Paragraph 1.b.(13) in Enclosure 3 of
Volume 1 of DoDM 8910.01.
Releasability. Cleared
for
public
release.
Available on the Directives Division Website at
https://www.esd.whs.mil/DD/.
s/ Joseph D. Kernan
Joseph D. Kernan
Under Secretary of
Defense for Intelligence

s/ James N. Stewart
James N. Stewart
Assistant Secretary of
Defense for Manpower
and Reserve Affairs,
Performing the Duties of
the Under Secretary of
Defense for Personnel
and Readiness

Attachments
As stated
cc:
Secretary of Homeland Security
Commandant of the United States Coast Guard
Director, Defense Counterintelligence and Security
Agency

113a
ATTACHMENT 1
REFERENCES
DoD Instruction 1304.26, “Qualification Standards
for Enlistment, Appointment, and Induction,”
March 23, 2015, as amended
DoD Instruction 1332.14, “Enlisted Administrative
Separations,” January 27, 2014, as amended
DoD Instruction 1332.30, “Commissioned Officer
Administrative Separations,” May 11, 2018, as
amended
DoD Manual 5200.02, “Procedures for the DoD
Personnel Security Program (PSP),” April 3, 2017
DoD Manual 8910.01, Volume 1, “DoD Information
Collections Manual: Procedures for DoD Internal
Information Collections,” June 30, 2014, as
amended
Executive Order 12968, “Access to Classified
Information,” August 2, 1995
Executive Order 13764, “Amending the Civil Service
Rules,” January 17, 2017
Executive Order 13869, “Transferring Responsibility
for Background Investigations to the Department
of Defense,” April 24, 2019
Federal Investigative Standards, December 2012
Office of the Under Secretary of Defense for Personnel
and Readiness Memorandum, “Military Service
Suitability Determinations for Foreign Nationals
Who Are Lawful Permanent Residents,” October
13, 2017
Public Law 115-91, Section 925, “National Defense
Authorization Act for Fiscal Year 2018,” April 2,
2018

114a
Security Executive Agent Directive 4, “National
Security Adjudicative Guidelines,” June 8, 2017
United States Code, Title 10, Section 1564b

115a
ATTACHMENT 2
RESPONSIBILITIES
1. ASSISTANT SECRETARY OF DEFENSE FOR
MANPOWER AND RESERVE AFFAIRS. Under the
authority, direction, and control of the Under
Secretary of Defense for Personnel and Readiness, the
Assistant Secretary of Defense for Manpower and
Reserve Affairs, through the Director, DoD
Accessions Policy will, in coordination with Military
Department and Coast Guard counterparts, oversee
and assess the ESP performance as it relates to
military accessions screening for eligibility for
enlistment, induction, or appointment.
2. DIRECTOR FOR DEFENSE INTELLIGENCE
(COUNTERINTELLIGENCE, LAW ENFORCEMENT,
AND SECURITY). Under the authority, direction,
and control of the Under Secretary of Defense for
Intelligence, the Director for Defense Intelligence
(Counterintelligence,
Law
Enforcement,
and
Security) will provide guidance and oversight for the
ESP under the DoD Personnel Security Program.
Additionally, in coordination with Director, DoD
Accessions Policy and with Military Department and
Coast Guard counterparts, will oversee and assess
ESP performance with respect to military accessions
screening.
3. DIRECTOR, DEFENSE COUNTERINTELLIGENCE
AND SECURITY AGENCY. Under the authority,
direction, and control of the Under Secretary of
Defense for Intelligence, the Director, Defense
Counterintelligence and Security Agency, will:
a. Establish training and other policies,
procedures, and personnel requirements for the
Expedited Screening Center (ESC), and other

116a
organizational entities to execute and achieve the
requirements of this DTM.
b. In coordination with the Director for Defense
Intelligence (Counterintelligence, Law Enforcement,
and Security), establish a centralized capability for
using ESP to identify and mitigate potential high risk
indicators associated with allegiance, foreign
preference, and foreign influence concerns within
military accessions populations.
c. Provide metrics and other data to the Director
for Defense Intelligence (Counterintelligence, Law
Enforcement, and Security) and to the Director, DoD
Accessions Policy, to be shared with the Military
Departments and Military Services, regarding ESP
timelines and trends for accessions as defined by this
DTM.
4. SECRETARIES
OF
THE
MILITARY
DEPARTMENTS. The Secretaries of the Military
Departments:
a. Will, for their respective departments,
establish training and other policies, procedures and,
for Fiscal Year 2019, personnel requirements to
execute and achieve the requirements of this DTM.
b. May waive certain requirements as described
in Attachment 3.
5. COMMANDANT OF THE UNITED STATES
COAST GUARD. The Commandant of the United
States Coast Guard:
a. Will, as necessary and appropriate, integrate
the results of ESP into its adjudication of personnel
vetting in accordance with this DTM, DoDI 1304.26,
and DoDM 5200.02.
b. May waive certain requirements as described
in Attachment 3.

117a
ATTACHMENT 3
ESP PROCESS AND TIMELINESS GOALS
1. GENERAL
a. The requirements in this attachment shall be
fully achieved by 12 months from the date of issuance
of this DTM.
b. All applicants for military service who enter
into a contract for service and all Service members
with an open initial national security background
investigation will be referred for ESP when
information the individual provides on the SF-86
signals a need to screen for concerns regarding
allegiance to the United States, foreign preference, or
foreign influence, as follows:
(1) Responses to Questions 9, 10, 11, 12, 15.3,
17, 18, 19, 20a, 20b, 25, or 29 of the SF-86 signal need
to screen for potential risk indicators associated with
allegiance to the United States, foreign preference, or
foreign influence concerns.
(2) Responses to Question 20c of the SF-86 will
be used as a secondary indicator until this question is
incorporated into the protocol as a primary indicator
no later than October 1, 2020.
2. ESP PROCEDURES. In accordance with the
following procedures, the ESP will be implemented in
two phases to minimize disruption to military
accessions and to allow for evaluation of the protocol.
a. ESP Initiation (Phase 1), Through Fiscal Year
2019.
(1) Individuals will be held from shipping to
initial entry training (IET), held at current duty
station, or held at a Service-designated staging
location when initial ESP results reveal potential

118a
high risk indicators regarding allegiance to the
United States, foreign preference, or foreign influence
concerns.
(2) Hold statuses, unless waived by the
Secretary concerned, or the Commandant of the Coast
Guard, as the case may be, per Section 3 of this DTM,
will be in effect until a favorable ESP result is
rendered. Actions taken in response to Final ESP
results are addressed in Sections 2.d and 2.c of this
attachment.
b. ESP Initiation (Phase 2), Effective During
Fiscal Year 2020.
(1) Phase 2 initiation will be subject to
analysis and review by the Offices of the Under
Secretary of Defense for Personnel and Readiness and
of the Under Secretary of Defense for Intelligence.
(2) Individuals referred to ESP will not
proceed to IET (either basic or advanced training)
until any identified potential high risk indicators
have been mitigated and a favorable ESP result is
rendered, or until the Military Department concerned
or the Coast Guard, as the case may be, makes a
determination to retain the individual from military
service.
(3) Current service members who are referred
to ESP will remain at their present duty station or
service-designated staging location until any
identified potential risk indicators have been
mitigated and a favorable ESP result is rendered, or
until the Military Department concerned or the Coast
Guard, as the case may be, makes a determination to
retain or separate the individual from military
service.

119a
c. Final ESP Results.
Final ESP results,
regardless of outcome, will be forwarded to the
National Background Investigation Bureau or the
appropriate investigative service provider, and the
Department of Defense Consolidated Adjudications
Facility (DoD CAF) or the appropriate adjudicative
entity to inform Tier 3 or Tier 5 background
investigations.
(1) No Potential High Risk Indicators. If final
ESP results do not identify any potential high risk
indicators, ESC personnel will annotate the system of
record accordingly.
(2) Potential High Risk Indicators Are
Mitigated. If final ESP results identify potential high
risk indicators and ESC personnel identify mitigating
information, the individual will not need to be further
processed in ESP. ESC personnel will annotate the
system of record accordingly with the favorable
result.
(3) High Risk Indicators Are Not Mitigated. If
final ESP results identify potential high risk
indicators and ESC personnel cannot identify
mitigating information, ESC personnel will annotate
the system of record with the unfavorable result and
notify the Military Department concerned or the
Coast Guard, as the case may be, accordingly.
d. Notifications and Separation Procedures.
(1) Unfavorable ESP Results Notification. If
the ESP produces unfavorable results, the ESC will
notify the Military Department concerned or the
Coast Guard, as the case may be. The notification will
read: “[Named Individual] has high risk indicators
with no available mitigating information.”

120a
(2) Military Department and Coast Guard
Actions.
(a) After receiving an unfavorable ESP
result, the Military Department concerned or the
Coast Guard, as the case may be, will determine
whether the individual continues to meet eligibility
requirements for enlistment, induction, or separation
in accordance with DoDI 1304.26, and whether the
individual should be separated from military service
in accordance with DoDI 1332.14 or DoDI 1332.30.
The enlistment, induction, or appointment criteria in
Paragraph 2.h.(6) in Enclosure 3 of DoDI 1304.26 is
amended to include the following criteria:
1. Receives an unfavorable result from a
review of information that revealed the individual
presents an unacceptable risk to good order and
discipline within the Armed Forces.
2. Receives
an
unfavorable
determination by an adjudicative entity on a
completed Tier 3 or higher-level investigation
adjudicated according to the National Security
Standards set forth in E.O. 12968, while in the
Delayed Entry Program, the Delayed Training
Program, or otherwise in entry-level status.
(b) If a Tier 3 or Tier 5 background
investigation results an unfavorable national security
determination from an adjudicative entity, the
Military Departments and the Coast Guard, after
receiving the notification, will initiate separation
proceedings in accordance with DoDIs 1332.14 and
DoDI 1332.30, as amended by this DTM.
(3) Administrative Separation Procedures.
The procedures in Section 5.2(a) of E.O. 12968 will not
apply to Service members who are being considered

121a
for administrative separation under DoDI 1332.14 or
DoDI 1332.30, or for any other reason other than
denial of eligibility for access to classified information
or to hold a national security position. The policy in
Paragraph 5 in Enclosure 3 of DoDI 1332.14 will be
followed and is amended with the following policy for
unfavorable results or determinations:
(a) Separation from the DEP.
1. An individual who is in the DEP may
be separated because of ineligibility for enlistment in
accordance with DoDI 1304.26, or the additional
standards prescribed by the Secretary of the Military
Department concerned or by the Commandant of the
Coast Guard, or upon his or her request when
authorized by the Secretary of the Military
Department concerned or by the Commandant of the
Coast Guard, as the case may be. This includes
individuals in DEP who have been determined to no
longer meet eligibility requirements for enlistment or
induction based upon unfavorable ESP results.
2. Paragraph 4.e. in Enclosure 3 of DoDI
1332.14 shall be amended to require that the
individual be notified of the proposed separation and
the reasons for it. If the reasons include classified
information, unclassified summaries may be used;
however, any summaries derived from classified
information will be consistent with the national
security interests of the United States and other
applicable law.
(b) Entry-Level Performance and Conduct
Separations. This paragraph applies to individuals in
the Delayed Training Program (DTP) or otherwise in
entry-level status.

122a
1. An enlisted Service member may be
separated while in entry-level status when it is
determined that the enlisted Service member: no
longer meets the requirements for eligibility for
enlistment or induction as specified in DoDI 1304.26;
or is unqualified for further military service by reason
of unsatisfactory performance, conduct, or both.
Evidence of an enlisted Service member being
unqualified may include lack of capability, lack of
reasonable effort, failure to adapt to the military
environment, or minor disciplinary infractions.
2. When separation of an enlisted
Service member in entry-level status is warranted by
failure to meet the requirements for eligibility for
enlistment
or
induction;
or
unsatisfactory
performance, conduct, or both, the enlisted Service
member should be processed for entry-level
separation. However, entry-level status does not
preclude separation for any other reason authorized
by this issuance when such separation is warranted
by the circumstances of the case.
3. Counseling
and
rehabilitation
requirements are normally important aspects of the
reason for separation. Except in separations based on
failure to meet the requirements for eligibility for
enlistment or induction, separation processing may
not be initiated until the enlisted Service member has
been formally counseled concerning those deficiencies
as reflected in appropriate counseling or personnel
records. An enlisted Service member in entry-level
status should not be separated for unsatisfactory
performance, minor disciplinary infractions, or both,
when this is the sole reason, unless appropriate
efforts at rehabilitation have been made under
standards prescribed by the Secretary of the Military

123a
Department concerned or by the Commandant of the
Coast Guard.
(c) Administrative Separation Procedures
for Service Members No Longer in an Entry Level
Status. An Armed Force will use Secretarial Plenary
Authority for enlisted Service members who are not
in the DEP or DTP or are otherwise not in entry-level
status, who have been determined to no longer meet
eligibility requirements for enlistment or induction
based on the unfavorable ESP results.
(4) Notice of Separation.
Enlisted Service
members who are facing separation, based on
unfavorable ESP results in accordance with DoDI
1332.14 will be provided notice of intended separation
consistent with Paragraph 2 in Enclosure 5 of DoDI
1332.14.
(a) The individual will be notified in
writing of:
1. The basis of the proposed separation,
including the circumstances upon which the
separation is based and a reference to this DoDI and
any applicable provisions of the appropriate Military
Department’s or the Coast Guard’s implementing
regulation, as the case may be. If the basis includes
classified information, unclassified summaries may
be used. However, any summaries derived from
classified information will be consistent with the
national security interests of the United States and
other applicable law.
2. Whether the proposed separation
could result in discharge, release from active duty to
a Reserve Component, transfer from the Selected
Reserve to the Individual Ready Reserve, release

124a
from custody or control of the Military Services, or
other form of separation.
3. The least favorable characterization
of service or description of separation authorized for
the proposed separation.
4. The right to obtain copies of
documents that will be forwarded to the separation
authority supporting the basis of the proposed
separation. Classified information in such documents
may be provided to the individual in unclassified
summarized format.
However, any summaries
derived from classified information provided to the
individual shall be consistent with the national
security interests of the United States and other
applicable law.
(b) Consistent with DoDI 1332.14 (as
amended by this DTM), individuals facing
administrative separation from military service based
on unfavorable ESP results will receive the notice in
the Figure.
Figure. Unfavorable ESP Notice
“A review of information indicates that you
present an unacceptable risk to good order and
discipline within the Armed Forces and that it is
not in the best interests of the [Military
Department or the Coast Guard] for you to
continue to serve. Accordingly, you are being
notified that 30 days from your receipt of this
memorandum, we intend to take action to
administratively separate you from the Armed
Forces.”

125a
(5) Separation Procedures for Commissioned
Officers.
(a) A commissioned officer who receives an
unfavorable final ESP result will be separated from
the Military Department concerned or the Coast
Guard, as the case may be, in accordance with
regulations outlined in Section 3 of DoDI 1332.30.
(b) The Military Department or the Coast
Guard will reject an application for an officer
commission by an applicant who receives unfavorable
ESP results. The applicant for a commission will only
receive notice that his or her application has been
rejected for failure to meet initial security screening
requirements. The separation procedures specified in
Paragraph 2.d.(3) in this attachment do not apply in
these circumstances.
3. WAIVERS
a. The Secretaries of the Military Departments
and the Commandant of the Coast Guard have
authority to waive the requirements to separate or
disqualify individuals with unfavorable ESP results
on a case by case basis. A waiver may only apply to a
single individual and cannot be applied to groups.
Waivers must explain why the individual is deemed
mission essential while acknowledging the associated
risks identified through the ESP.
b. The Secretaries of the Military Departments
and the Commandant of the Coast Guard may
delegate, in writing, to an Assistant Secretary or to a
Deputy Chief of Staff, respectively, the authority to
grant waivers to retain an individual with high risk
indicators and to accept the risk on behalf of the
Secretary of the Military Department concerned, or

126a
the Commandant of the Coast Guard, as the case may
be.
c. Any waiver decision by the Secretaries of the
Military Departments and the Commandant of the
Coast Guard will be informed by an executive
summary of ESP results to be provided by the ESC
upon request.
d. The Secretaries of the Military Departments
and the Commandant of the Coast Guard, or their
designees, will provide copies of all approved ESP
waivers to the Under Secretary of Defense for
Intelligence and the Under Secretary of Defense for
Personnel and Readiness explaining why the
accession or retention of the individual is in the
national security interest of the respective Military
Service.
4. OVERALL ESP PROCESS TIMELINESS GOALS
a. If there are no potential high risk indicators
identified through the ESP, the goal for completion is
within 14 days of the date on which the ESC received
SF-86 information (approximately 7 to 10 days after
the SF-86 is completed, submitted, and any
information inconsistencies are resolved). However,
if the ESP identifies potential high risk indicators, the
goal for completion of analysis and potential
mitigation is within 90 days of receipt of SF-86 data
by the ESC.
b. This protocol should not unduly affect
individuals proceeding to IET in a timely manner. All
efforts will be made to minimize the impact to the
Military Department and Coast Guard training
pipelines, while identifying and mitigating risks
through the ESP.

127a
c. Metrics, data, and trends regarding ESP will be
provided by the Director, Defense Counterintelligence
and Security Agency, to the Director for Defense
Intelligence (Counterintelligence, Law Enforcement,
and Security), and the Director, DoD Accessions
Policy, to be shared with Military Departments and
the Coast Guard.
5. PROCESS REVIEW. The Offices of the Under
Secretaries of Defense for Intelligence and of
Personnel and Readiness will conduct a process
review regarding the ESP implementation to
determine effectiveness and resourcing in Fiscal Year
2020.

128a
GLOSSARY
PART I. ABBREVIATIONS AND ACRONYMS
DEP
DoD CAF
DoDI
DoDM
DTM
DTP

Delayed Entry Program
Department of Defense Consolidated
Adjudications Facility
DoD instruction
DoD manual
directive-type memorandum
Delayed Training Program

E.O.
ESC
ESP

Executive order
Expedited Screening Center
Expedited Screening Protocol

IET

Initial Entry Training

SF

Standard Form
PART II. DEFINITIONS

These terms and definitions are for the purpose of this
issuance.
ESP. A set of procedures used to vet an individual
who provides responses to certain SF-86 questions
that raise potential allegiance, foreign influence, or
foreign preference concerns, specifically sections 9,
10, 11, 12, 15.3, 17, 18, 19, 20a, 20b, 25, or 29, and
section 20c as a secondary factor initially.
open
initial
national
security
background
investigation. A national security background
investigation that is initiated when a Service member
first accesses into the Armed Forces, and the

129a
investigative service provider has not forwarded it to
the adjudicative entity for adjudication.
eligibility. Eligibility for enlistment, appointment,
and induction into the Military Services as outlined
in DoDI 1304.26 and suitability as described in E.O.
12968.
potential high risk indicator. Data that meets or
exceeds
predetermined
expandable
focused
investigation thresholds, outlined in the Federal
Investigative Standards (as amended) pertaining to
adjudicative guideline regarding allegiance to the
United States, foreign influence, and foreign
preference concern.

